<html>
<title> - BUDGET FOR FISCAL YEAR 2009 FOR THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 110-353]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-353
 
     BUDGET FOR FISCAL YEAR 2009 FOR THE DEPARTMENT OF THE INTERIOR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   TO

 RECEIVE TESTIMONY ON THE U.S. DEPARTMENT OF THE INTERIOR'S BUDGET FOR 
                            FISCAL YEAR 2009

                               __________

                           FEBRUARY 13, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources


                     U.S. GOVERNMENT PRINTING OFFICE
41-900 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     6
Kempthorne, Hon. Dirk, Secretary, Department of the Interior.....     7
Martinez, Hon. Mel, U.S. Senator From Florida....................     5

                                APPENDIX

Responses to additional questions................................    49


     BUDGET FOR FISCAL YEAR 2009 FOR THE DEPARTMENT OF THE INTERIOR

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2008

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:16 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. The hearing will come to order. Let me 
welcome everyone. We apologize for the change in time. I know 
that the weather has delayed some folks, and we thought we 
ought to provide a little more time for people to get here and 
get through the traffic.
    Senator Domenici is on his way and advised that we could go 
ahead. We do have a vote a 10:30, so this is going to be 
another one of these disjointed efforts which the Secretary is 
very familiar with.
    Let me go through my statement. If Senator Domenici has 
arrived by then, we can do his statement. Then we can hear from 
the Secretary and just stop when we have to for the vote for a 
short period.
    This morning we're reviewing the President's proposed 
budget for the Department of the Interior. Obviously we welcome 
Secretary Kempthorne to the committee and look forward to 
hearing his statement and engaging in some discussion with him 
about it.
    I'd like to take a minute to make a few observations about 
the proposed budget. At the outset, a fundamental problem with 
this budget is that providing adequate funding to the 
Department of the Interior is not a priority for the 
Administration, and obviously has not been. For the 2009 fiscal 
year, the President is requesting discretionary spending of 
$10.7 billion for the Department of the Interior.
    By comparison, the Congress appropriated $10.66 billion 8 
years ago to the Department. So, the funding has essentially 
been flat for the last 8 years. When adjusted to current 
dollars, this reflects a reduction of about 18 percent in the 
Department's total budget during the 2 Bush Administrations. In 
contrast, the Department of Commerce budget in that same period 
has increased over 28 percent.
    Given the lack of commitment to the Department's programs 
and missions, it's no wonder that many of its key programs and 
agencies that this committee has taken an interest in are 
proposed for underfunding. One issue that we've raised every 
year, I believe, is the Land and Water Conservation Fund. As 
everyone here knows, the Land and Water Conservation Fund is 
credited with $900 million each year from Outer Continental 
Shelf oil and gas leasing revenues.
    That fund is to be used for Federal land acquisition 
projects and a State grant program. Last year I complained that 
the Administration was proposing only $59 million for the 
Federal Land and Water Conservation Fund spending, and nothing 
for the State program. The new budget is even worse. This 
year's budget proposes only $51 million for the Federal Land 
and Water Conservation Fund, and proposes no funding for the 
State program.
    If approved, this would be the lowest level of spending for 
the land and water programs in the past 40 years. I'm also 
disappointed that the Administration continues to propose 
funding cuts for the Payment in Lieu of Taxes at below last 
year's appropriated levels. This year's budget proposes a $34 
million reduction in the PILT program. This has become an 
annual routine, the Administration proposing reductions in PILT 
funding, Congress restoring that money. It would be helpful if 
we had more agreement between the Congress and the 
Administration on the value of this program.
    Let me also express my support for the significant increase 
in funding that is requested for the National Park Service 
operations. For too long, park operations have failed to keep 
pace with increasing needs. The proposed budget is a positive 
step in addressing those needs.
    Last year the committee began consideration of the 
Administration's Centennial Challenge initiative, which I know 
is a priority for the Secretary. I think the significant issue 
that I believe still exists related to that is how we are to 
offset that proposed spending. I hope that the Secretary can 
give us some suggestions on that issue.
    There are many additional issues contained in the budget 
that also warrant attention. I have long advocated, as many of 
my colleagues have, increased funding for the Oil and Gas 
Inspection and Enforcement Program in the Bureau of Land 
Management. Given the surge in oil and gas activities on 
Federal lands, this continues to be essential.
    I am glad that the budget reflects funding for the 
Administration to conduct leasing activities in the newly 
opened areas of the Gulf of Mexico. I'm glad to see funding 
requested for the OCS alternative energy program at the 
Minerals Management Service that was authorized in the 2005 
Energy bill. The Administration, as I understand it, continues 
to advocate for repeal of mandatory deepwater and deep gas 
royalty relief, which I agree is not necessary in this price 
environment.
    I'm also concerned that the Administration's so-called 
proposal for net receipts, the net receipts proposal, which 
will hit western States hard. Under that initiative the 
Administration would permanently amend the law to deduct 2 
percent of royalty revenues from the States' share of royalty 
revenues to be used for administrative costs. In my State, in 
New Mexico, Senator Domenici's State, we would lose around $16 
million in revenues this next year if this proposal were 
enacted.
    I'm also concerned about the substantial cut and reduction 
in personnel in the geology program at the Geological Survey. I 
think having adequate information and research done on our 
mineral resources is important to the Nation.
    Let me mention the BIA, although that's not in our 
committee's jurisdiction, it is in the Department of the 
Interior's jurisdiction. Last year's budget document the 
Administration stated, ``Providing Indian children with safe 
and nurturing places to learn is one of Interior's highest 
priorities.'' When you look at this year's budget, funding that 
supports Indian education is proposed to be cut by $63 million. 
This includes the elimination of the Johnson O'Malley 
Assistance Grant Program. A $4 million cut to the elementary 
and secondary forward funding programs and an $11 million cut 
to the post-secondary education programs.
    When you compare this to the fiscal year 2001 school 
construction budget, then it was $292 million. The proposal for 
2009 is $115 million. That's about a 60-percent reduction in 
the last 8 years in Indian school construction, which I think 
is very unfortunate.
    Finally, let me address the Department's budget related to 
water programs. The President is recommending that Federal 
water programs, including those at EPA, the Army Corps of 
Engineers, the Department of Agriculture and the Department of 
the Interior be cut to a level 26 percent below where they were 
in 2001. At the same time, the President's budget increases 
total discretionary spending by 23 percent above 2001 levels. 
That is for the Government, generally, excluding the cost of 
the Iraq and Afghanistan wars. So clearly, water resources are 
not a priority.
    The Bureau of Reclamation is proposed here for a 17-percent 
cut. The Geological Survey for an 8-percent cut. The budget 
does include one positive item, Water for America. The Water 
for America initiative would bolster some of the Nation's water 
science programs. But this modest increase is far outweighed by 
the proposed cuts in other water related programs.
    So let me just finally end by saying that overall, the 
budget for water resources, I think, is a major step backward 
and exacerbates the problem of unfunded mandates which the 
Secretary of course took a keen interest in when he was serving 
with us here in the Senate. The various Federal laws we have 
enacted: the Safe Drinking Water Act, the Clean Water Act, the 
Endangered Species Act, all continue to impose significant and 
increasing obligations on State and local water managers. 
Rather than providing an equitable level of support to meet 
those obligations, this proposed budget minimizes Federal 
assistance and effectively tells the State and local 
communities that it's their problem. I do not believe Congress 
will go along with that set of proposals. But let me stop with 
that and defer to Senator Domenici for his statement. Thank 
you.
    [The prepared statements of Senators Bingaman and Martinez 
follow:]

 Prepared Statement of Hon. Jeff Bingaman, U.S. Senator From New Mexico

    This morning we are reviewing the President's proposed budget for 
the Department of the Interior. I'd like to welcome Secretary 
Kempthorne to the committee, and look forward to hearing from him in 
just a few minutes.
    I'd like to take a minute to make a few observations about the 
Administration's proposed budget. At the outset, I think the 
fundamental problem with this budget is that providing adequate funding 
for the Department of the Interior is not a priority for this 
Administration.
    For the 2009 fiscal year, the President is requesting discretionary 
spending of $10.7 billion for the Department of the Interior. By 
comparison, almost $10.66 billion was appropriated for the Department 
eight years ago. When adjusted to current dollars, this reflects a 
reduction of almost 18 percent in the Department's total budget over 
the tenure of the Bush Administration. In contrast, the Department of 
Commerce's budget has increased over 28 percent over the same period.
    Given the lack of commitment to the Department's programs and 
mission, it is no wonder that many of its key programs and agencies 
continue to be underfunded.
    One issue I raise almost every year is the Land and Water 
Conservation Fund. As everyone here knows, the Land and Water 
Conservation Fund is credited with $900 million each year from Outer 
Continental Shelf oil and gas leasing revenues. The fund is to be used 
for federal land acquisition projects and a state grant program. Last 
year I complained that the Administration was proposing only $59 
million for the federal LWCF spending and nothing for the state 
program. The new budget is even worse--this year's budget proposes only 
$51 million for the Federal land LWCF program, and the state program is 
again proposed to receive no funding.
    If approved, this would be the lowest level of spending for land 
and water programs in the past 40 years.
    I am also disappointed that the Administration continues to propose 
funding for the Payment in Lieu of Taxes (PILT) program below last 
year's appropriated level. This year's budget proposes a $34 million 
reduction in the PILT program. This has become an annual routine--the 
Administration proposes to reduce PILT funding and the Congress 
restores it, but it would be helpful if the Administration was more 
supportive.
    While I have a number of concerns with the proposed budget, I do 
want to express my support for the significant increase in funding for 
National Park Service operations. For too long, park operations have 
failed to keep pace with increasing needs, but the proposed budget is a 
positive step in addressing those needs. Last year the Committee began 
consideration of the Administration's Centennial Challenge initiative, 
and while we still have significant issues to overcome, primarily the 
need to identify an appropriate spending offset, I look forward to 
working with the Secretary on this issue over the coming year.
    There are many additional issues contained in the budget that I 
believe warrant the committee's attention. I have long advocated for 
increased funding for the oil and gas inspection and enforcement 
program at BLM. Given the surge in oil and gas activities on federal 
lands, this continues to be essential. I am pleased that the budget 
reflects funding for the Administration to conduct leasing activities 
in the newly-opened areas of the Gulf of Mexico. I am also pleased to 
see funding in the budget for the OCS alternative energy program at MMS 
authorized in the Energy Policy Act of 2005. The Administration 
continues to advocate for repeal of mandatory deep water and deep gas 
royalty relief, which I agree is not necessary in this price climate. 
This Committee has done extensive oversight on royalty management 
issues, and we will continue to do so.
    I am also concerned about the Administration's so-called net 
receipts proposal, which will hit Western States hard. Under this 
initiative the Administration would permanently amend the law to deduct 
2 percent of royalty revenues from the states' share of royalty 
revenues to be used for administrative costs. New Mexico is estimated 
to lose nearly $16 million in revenues in fiscal year 2009 if this 
proposal is enacted. In addition, I am concerned about the substantial 
cut and reduction in personnel in the geology program at the USGS. 
Having adequate minerals information and research is extremely 
important to our Nation.
    Although the Bureau of Indian Affairs is not within this 
Committee's jurisdiction, BIA issues are very important in New Mexico. 
I am disappointed to see that the President proposes to cut the BIA 
budget by $100 million. Over half of these cuts directly target Indian 
education, from the complete elimination of the Johnson O'Malley grant 
program, cuts to post-secondary education scholarships, and substantial 
reductions for Indian school construction and repair. The President 
also proposes to cut road maintenance funding in half, the elimination 
of the tribal housing improvement program, and reductions for tribal 
courts and detention center improvements. Overall, the President's 
budget moves us in the wrong direction to meet the substantial needs in 
Indian Country, and I will be working with the Appropriations Committee 
to reverse these reductions.
    Finally, I would like to address the Department's budget for water 
programs. Much of my concern about the Department's overall budget not 
being a concern for the Administration is evidenced by the proposed 
budget for water resources. Accounting for inflation, the President is 
recommending that Federal water programs, including those at EPA, the 
Army Corps of Engineers, the Department of Agriculture, and the 
Interior Department be cut to a level 26% lower than they were in 2001. 
At the same time, the President's budget increases total discretionary 
spending by 23% above 2001 levels--not including war costs. Clearly, 
water resources are not a priority.
    The Bureau of Reclamation's budget is proposed to be cut by $189 
million (17%) and the U.S. Geological Survey would see an $18 million 
(8%) reduction. The budget does include one positive item--a ``Water 
for America'' initiative that would bolster some of the Nation's water 
science programs. However, the modest increase for this initiative is 
far outweighed by the magnitude of proposed cuts for other programs 
which undermine water recycling efforts; rural water projects; and 
progress in the area of water-related technology development.
    The budget also ignores the growing problem of aging infrastructure 
at federally-owned facilities and is unclear on how to address the 
impacts of climate change on water.
    Overall, the budget for water resources is a major step backwards 
and exacerbates the problem of unfunded mandates. Important Federal 
laws such as the Safe Drinking Water, Clean Water, and Endangered 
Species Acts all continue to impose significant and increasing 
obligations on state and local water managers. Rather than providing an 
equitable level of support to meet these obligations, this budget 
minimizes federal assistance--effectively telling state and local 
communities that it's their problem. I don't expect Congress to defer 
to the President's budget in this area.
    I'd like to explore some of these issues in more detail after the 
Secretary's statement. However, before we hear from the Secretary, I 
would like to turn to Senator Domenici for his opening statement.
                                 ______
                                 
   Prepared Statement of Hon. Mel Martinez, U.S. Senator From Florida

    Mr. Chairman, I want to thank you for holding this important 
hearing today as we hear testimony from Secretary Kempthorne on the 
fiscal year 2009 Department of the Interior Budget.
    I am very pleased the Administration included significant increases 
for our National Parks through the National Parks Centennial 
Initiative. $2.1 billion will be provided for park operations and for 
the next 10 years $100 million will be provided annually to match 
private donations to save our national jewels in the park system.
    My home state of Florida has several proposals to the Centennial 
Initiative including the Biscayne National Park Coral Reef Rejuvenation 
Program and the South Florida Educational Park Partnership at 
Everglades National Park, Big Cypress National Preserve, and the Dry 
Tortugas National Park.
    DOI's FY09 Budget also provides approximately $30 million in 
funding for Everglades restoration efforts, with $10 million to match 
the Army Corps of Engineers funding for the Modified Waters project to 
improve water flows into Everglades National Park.
    This project has been delayed for far too long. It is my hope that 
construction can begin soon on this project in a way that will provide 
the most environmental benefit for the park. We've got to find a way to 
start bringing more water to the park and help restore the natural 
sheet flow into the Everglades. In addition, the Administration's total 
Everglades restoration budget provided no construction funding for 
critical projects like the Indian River Lagoon, which was authorized 
last year and will provide immediate benefits to the overall health of 
the ecosystem of south Florida. I will work with the Appropriations 
Committee to increase funding for Everglades restoration projects to 
bring the federal share more in line with the substantial commitment 
made by the state of Florida.
    Another area of concern that I hope we can address in Congress is 
the funding levels for our National Wildlife Refuges (NWR). Under the 
Administration's FY 09 Budget, funding for our refuges is essentially 
flat. While law enforcement funding has increased slightly, the NWR 
conservation and refuge maintenance programs have been cut. We have 
more than 20 refuges around Florida and we have heard from various 
stakeholder groups that they are critically understaffed with field 
biologists and law enforcement personnel. It is my hope that we can 
address these concerns to invest in the personnel needs of managing our 
natural treasures in Florida.
    I thank Secretary Kempthorne for bringing us his testimony today. I 
and look forward to working with my colleagues on the Committee and 
within the Senate to ensure that the vital programs and initiatives 
within the Department of the Interior receive proper oversight and 
funding.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Thank you, Mr. Chairman. I thought I was 
late, but I just about made it on time. I'm very sorry, but the 
streets are still pretty icy and the alleys are pretty icy 
behind our houses. We took it a little slow. But thank you, 
Senator Bingaman.
    Good morning, Mr. Secretary. It's good to be with you. I 
guess you know we're going to have a vote here pretty soon. So 
we probably are going to do all the talking until we go vote, 
then you'll get to get started on yours.
    First, it was a pleasure working with you when you were in 
the Senate. I've enjoyed working with you in your capacity as 
the Secretary. I know that we're going to accomplish some good 
things in the time that we have left.
    But let me begin by saying that we, as Americans, have a 
desperate need to reduce the Nation's dependence on foreign 
oil. As we press on with this research into alternatives to 
fossil fuels, we must acknowledge that in the near term, our 
energy security still rests on the vitality of domestic oil and 
gas supplies.
    One area in which we may be able to make a great, great 
stride is by working to enable this country to take advantage 
of its tremendous reserves of oil shale. Mr. Secretary, you're 
in charge of that for this particular time of your life. The 
Department of Energy estimates that technically recoverable oil 
shale in the United States is roughly equivalent to three times 
Saudi Arabia's reserves. Now we have one of the Senators, 
Senator Salazar, whose State is where most of this oil resides.
    In the coming weeks, I'm going to be speaking out at length 
about the threats we face as a Nation if we don't do something 
about our increasing dependence upon foreign oil. We can't wait 
around and let it happen in a slow manner or happen 10 years 
from now or 15 years from now. We have to work on some things 
now. So you can effect positive change in this regard, if you 
stand firm against those who wish to lock up our domestic 
resources.
    I'm extremely disappointed that the fiscal year 2008 
Omnibus Appropriation Act contained a 1-year moratorium on 
preparing and publishing the final regulations for a commercial 
leasing program for oil shale resources on public lands. Now I 
don't know whether you had anything to do with that, Mr. 
Secretary. I don't know whether you were even present when that 
change was put in the appropriations bill.
    But let me tell you we studied that carefully enough before 
we produced the Energy Policy Act of the United States. We 
decided in a bipartisan, bicameral manner to proceed with it, 
providing that it would accommodate those who had invested 
large quantities of money in oil, in coal, in oil shale. Along 
comes an appropriations bill that acts as if we have no 
problem--``Let's just delay this.''
    I assure you that it won't pass by the appropriation 
process quietly this year. But I do hope that you'll be there 
at our side telling them that this is not the time to put a 
moratorium on good progress being made by Shell Oil in the 
State of Colorado. I've talked to others in your Department 
with Senator Bingaman present and we both acknowledge that 
we've already dealth with this issue through EPACT 2005.
    We've already passed judgment on this in the Energy Policy 
Act and for appropriators to come along and delay it when it 
does have a chance in the short term, the next 10 years, to 
start producing some very important quantities, doesn't make 
sense to me. Now I'm actually kind of worked up and won't say 
anything further about it.
    But we started these pilot centers to see if we couldn't 
expedite the leasing of lands for drilling. Then in this whole 
cycle of getting it leased and drilling started if we could 
expedite it. We proved that we could, about a 25-percent 
increase if you set up these centers and they're one-stop 
shops.
    The purpose of all of this was to say if that works then 
maybe the Interior Department ought to start doing it like this 
all over. It wouldn't be pilots. It would be a way of taking a 
section of the country and say let's do it this way and it'll 
expedite the production.
    Now there are those who don't even like that, you know, so 
they stick their nose in there and change that where you can't 
do it. I regret saying that you all have changed it. The 
Administration has changed that part of the law which made 
those pilot projects so worthy. I hope you'll look at that with 
us and maybe have something to say this morning about that part 
of your Department.
    I know you have a slim budget for what you have to do. I 
commend you for what you are doing. I hope that we can get a 
reasonable appropriations bill without waiting into next year. 
I thank you very much. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Mr. Secretary, they 
haven't started the vote yet. If you would like to proceed we 
can obviously can take 6, or 8 or 10 minutes here and hear your 
statement or if you would like to wait and take a longer period 
after the vote, we can do that.

STATEMENT OF HON. DIRK KEMPTHORNE, SECRETARY, DEPARTMENT OF THE 
                            INTERIOR

    Secretary Kempthorne. Mr. Chairman, I'll abide by whatever 
you wish. I'm ready to go if you are.
    The Chairman. Why don't you go right ahead?
    Secretary Kempthorne. Alright. Mr. Chairman, thank you very 
much. I appreciate the comments of the chairman and the ranking 
member. Those of you who I served with, those are some of the 
great memories I will always have of a career path that I've 
had. For the new members of this committee it's a pleasure, in 
this new position, to work with you.
    I'm pleased to be here today to present a proposed 2009 
budget. I'd first like to thank you for the strong bipartisan 
support that this committee provided in enacting our budget 
request with fixed costs in our 2008 budget initiatives. I 
appreciate your leadership.
    In 2008 we chartered a course of excellence for our 
National Parks. We broadened our planning horizons to achieve 
healthy lands while securing energy for the Nation. We put the 
needs of the Indian country center stage. In 2009 we'll build 
on those commitments, but more challenges confront us, 
challenges that require action now.
    We're proposing four new initiatives in 2009 to address 
water crisis, manage our oceans, reverse the dramatic decline 
in wild birds and protect our borders. Our 2009 budget also 
retains many of the increases that you provided in key areas 
such as refuges. Our 2009 budget of $10.7 billion benefits 
every American, each day, in some way.
    The budget slightly exceeds our 2008 request. You'll see 
that our budget includes strategic reductions primarily in 
construction, land acquisition and congressional earmarks. It 
is $388 million or three and a half percent below the 2008 
enacted budget.
    Despite this overall decrease we propose operating 
increases of 4 percent over our 2008 for our land management 
bureaus. Strong funding of base operations supports ongoing 
programs in conservation, recreation and resource management on 
public lands. The budget will allow them to continue to serve 
America in continued and new ways through our 2008 and 2009 
initiatives.
    Last year we announced our National Park Centennial 
Initiative. We held listening sessions across the country. We 
asked Americans to tell us their vision for our parks. The 
public spoke and we listened. We're adding 3,000 seasonal park 
rangers this year to enrich visitor experiences. That stops a 
10-year decline.
    Our 2009 request for park operations is historic. We're 
requesting an increase of $161 million or 8 percent. Together 
with 2008 funding these 2-year increases total $283 million or 
14 percent. With these increases the total park operating 
budget is $2.1 billion.
    Our initiative also proposes the National Parks Centennial 
Challenge which would fund $100 million in mandatory funding to 
match philanthropic contributions to enhance our National Parks 
in time for the 100th anniversary of the park system in the 
year 2016. I'm particularly appreciative, Mr. Chairman, that 
you and Senator Akaka sponsored the Administration's proposed 
National Park Centennial Challenge Fund Act. We've received 321 
written letters of financial commitment from Americans across 
the country pledging $301 million of their money for centennial 
projects.
    Once Congress approves the Centennial Challenge Matching 
Fund legislation those pledges and the matching Federal funds 
will be available to benefit parks all around the country: 
large parks, small parks, parks in between. We have the goals 
and we have the projects. I look forward to continuing to work 
with you on the Centennial Matching Fund legislation.
    Interior's responsibilities extend beyond parks to 250 
million acres of public lands in the West. Lands key to 
communities and economies of the West. In some of these areas 
world class wildlife habitat sits atop world class energy 
reserves. We must maintain healthy lands, sustain wildlife and 
secure energy for the Nation.
    Our Healthy Lands Initiative launched in 2008 provides that 
holistic framework. It allows us to maintain wildlife corridors 
while providing continued access to significant energy 
resources. Our 2009 budget proposes a $14 million or 200-
percent increase over the 2008 funding level.
    Last year we also launched two initiatives in Indian 
country. One to battle the drug cartels invading reservations 
and the other to bring hope to Indian youth by improving their 
schools. Both of these initiatives received overwhelming 
support in Congress. Under the Safe Indian Communities 
Initiative we proposed an additional $16 million last year to 
battle the scourge of methamphetamine that threatens an entire 
generation of Native Americans.
    Congress supported our proposal and added an additional $8 
million to this initiative. The bipartisan message is clear. We 
must put these peddlers of poison off the reservation and into 
prisons. In 2009 we sustain the full $24 million in funding 
increases provided in 2008 and we propose to add $3 million 
more for the initiative for a total of $27 million.
    Under the Improving Indian Education Initiative we proposed 
increases of $15 million to help Native American children reach 
their full potential. Congress endorsed our vision for Indian 
education, funding our request and investing another $9 million 
bringing our initiative total to $24 million in 2008. In 2009 
we uphold our promise to Indian children. We sustain the 2008 
funding and provide another $2 million, investing a total of 
over $25 million.
    The issues of safety and education go beyond the budget. 
They're at the very heart of the future of Indian country. We 
must act now to ensure that the dreams of today's youth will 
become the realities of tomorrow.
    As I mentioned earlier we also have four new initiatives in 
our budget, initiatives that address some of the most critical 
issues facing this Nation. Last year, the National Sciences and 
Technology Council reported and I quote, ``abundant supplies of 
clean, fresh water can no longer be taken for granted.'' Water 
scarcity is not just a problem of the West. It is a problem of 
the Nation.
    America increasingly faces water scarcities particularly in 
areas of rapid population growth. We're seeing prolonged 
droughts and water conflicts in areas such as the Southeast 
where people are used to having unlimited water. We are 
proposing a Water for America initiative to ensure that 
communities have reliable water supplies this 21st century. 
Under this initiative we will partner with states to conduct 
the first water census of this Nation in 30 years.
    Our second new initiative advances our knowledge of oceans 
in particular ocean eco-systems. Under our Oceans Initiative 
we're proposing an additional $8 million to support the 
President's Ocean Action Plan. Our Ocean Initiative will 
broaden our knowledge, will undertake extensive mapping of our 
extended outer continental shelf.
    Coastlines and deep water are littered with marine debris 
ranging from soda cans and small plastic objects to derelict 
fishing gear and abandoned vessels. We're losing coastal 
wetlands that protect us from major storms and purify water and 
serve as nurseries for marine fisheries. Through our Ocean 
Initiative we will join with partners worldwide to embark on a 
global marine debris and coral reef campaign.
    Together we have another task before us, reversing the 
decline in bird populations across America. Our initiative 
addresses the sharp decline of many populations of wild birds. 
On average populations of common birds have plummeted 70 
percent since 1967. We had $9 million in 2009 for our Birds 
Forever Initiative to help us reverse these trends.
    Our budget sustains $36 million in refuge increases funded 
in the 2008 budget. We will improve our 200,000 acres of vital 
stop over habitat for migratory birds. That's the equivalent of 
over 150,000 football fields. We're also proposing the first 
increase in the sale price of the duck stamp in over 15 years. 
This increase will result in protections of an additional 
17,000 acres of habitat.
    Our final new initiative addresses another issue in the 
Nation's headlines--an issue that I raised with you last year 
and have witnessed first hand. That is border security. The 
Department of the Interior manages public lands along more than 
40 percent of our Southwestern border. Our employees, residents 
and visitors face daily dangers. In many locations families can 
no longer live or recreate without fear of coming across drug 
smugglers.
    As urban borders become more secure, illegal activity is 
shifting to remote areas. Drug cartels run violent drug 
smuggling operations across the border as evidenced by the 
nearly 3,000 pounds of cocaine and 740,000 pounds of marijuana 
seized in 2007. We're proposing an $8 million increase in the 
2009 budget to aggressively confront this problem, combined 
with increased funding in 2008 will place additional officers 
along the border.
    Another critical issue facing this Nation is energy 
security. With the price of oil rising ever higher it is 
imperative that we continue to offer access to our energy 
resources. Our new 5-year plan for off shore energy development 
provides access to an additional 48 million acres off shore.
    The Minerals Management Service will invest over $8million 
in preparations for new leasing activity as identified in the 
5-year plan. The lease sale in the Chukchi Sea last week 
generated $2.66 billion in bonus bids, a historic level for 
Alaska. We'll also help broaden the Nation's energy mix by 
providing opportunities for investment in renewable energy on 
public lands and off shore.
    As a Federal agency that touches the lives of each and 
every American we work best when we work together. We look 
forward to working with you as we advance the goals of this 
Department and this wonderful opportunity to serve our fellow 
citizens. Thank you, Mr. Chairman.
    [The prepared statement of Secretary Kempthorne follows:]

 Prepared Statement of Hon. Dirk Kempthorne, Secretary, Department of 
                              the Interior

    Mr. Chairman and members of this Committee, it is a pleasure to 
appear before this Committee today to discuss the President's 2009 
budget for the Department of the Interior and to update you on our 
progress in implementing our 2008 programs. Before I get into the 
details of our 2009 budget, I'd like to thank you for the support 
you've given me over the past two years.
    The Department of the Interior's mission is complex and 
multifaceted. Our programs and mission stretch from the North Pole to 
the South Pole and across twelve time zones, from the Caribbean to the 
Pacific Rim. Our extensive mandate rivals any government agency in its 
breadth and diversity--and its importance to the everyday lives of 
Americans. In a recent poll of Federal agencies, the Department of the 
Interior received the highest rating for its public service.
    Nearly every American lives within a one-hour drive of lands or 
waters managed by the Interior Department. With 165,000 facilities at 
2,400 locations, Interior is second only to the Department of Defense 
in managed assets. The Department's law enforcement agents, over 4,000, 
comprise the third largest civilian law enforcement presence in the 
Federal government.
    Approximately 31 million people in the West rely on drinking water 
provided through water systems managed by the Department. Interior 
irrigation systems deliver water to farmers who generate over half of 
the Nation's produce.
    The lands and waters we manage generate one-third of the Nation's 
domestic energy production. Managing these areas, Interior generates 
$18 billion annually in revenues that exceeds Interior's $10.7 billion 
appropriated budget.
    Interior fulfills special responsibilities to Native Americans as 
the manager of one of the largest land trusts in the world--over ten 
million acres owned by individual Indians and 46 million acres held in 
trust for Indian Tribes. In addition to lands managed in trust, the 
Department manages over $3.3 billion of funds held in over 1,800 trust 
accounts for approximately 250 Indian Tribes and over 370,000 open 
Individual Indian Money accounts. Interior also operates one of only 
two school systems in the Federal government, the Bureau of Indian 
Education school system. The Department of Defense operates the other. 
A total of $65.5 billion in revenues from offshore and onshore mineral 
leases collected from 2001 to 2007 provided resources for Tribes, 
States infrastructure and other Federal programs.

                      OVERVIEW OF THE 2009 BUDGET

    The 2009 budget request for current appropriations is $10.7 
billion, $388.5 million or 3.5 percent below the level enacted by 
Congress for 2008, excluding fire supplemental funding, but $59.0 
million above the amount requested in the 2008 President's budget. 
Permanent funding that becomes available as a result of existing 
legislation without further action by the Congress will provide an 
additional $6.0 billion, for a total 2009 Interior budget of $16.7 
billion. Including permanent funding and excluding 2008 fire 
supplemental funding, the 2009 budget for Interior is slightly above 
2008 amounts.
    The 2009 request includes $9.8 billion for programs funded within 
the Interior, Environment and Related Agencies Appropriation Act. 
Excluding fire supplemental funding, this is a decrease of $198.9 
million, or 2 percent, below the level enacted for 2008. The 2009 
request for the Bureau of Reclamation and the Central Utah Project 
Completion Act, funded in the Energy and Water Development 
Appropriations Act, is $961.3 million, $189.6 million below the level 
enacted for 2008.
    The 2009 budget sustains and enhances funding for parks and public 
land health, the safety of Indian communities, and Indian education. 
The 2009 budget funds these initiatives and addresses other nationally 
significant issues within a budget that maintains the President's 
commitment to fiscal restraint. We focus funding on these priorities 
while proposing reductions in construction and land acquisition, as 
well as programs that are duplicative or receive funding from 
alternative sources. We also propose to cancel some unobligated 
balances.
    In 2009, Interior will continue an exemplary record of producing 
revenue for the U.S. Treasury. The estimate for revenue collections by 
the Department in 2009 is $18.2 billion, an amount that exceeds 
Interior's current budget request. In 2008, the estimated collection of 
revenue is $18.2 billion, along with $2.2 billion in royalty oil that 
will be provided to the Department of Energy for the Strategic 
Petroleum Reserve. Our estimates do not fully reflect the increased 
value of the bidding on the February 6 Chukchi Sea lease sale, which 
generated unexpectedly high bids of more than $2.6 billion. The sale 
was the most successful in Alaska's history based on the number of bids 
received and tracts receiving bids.
    The 2009 budget assumes the enactment of several legislative 
proposals, many of which were presented in the 2008 President's budget, 
including legislation that would open the 1002 area of the Arctic 
National Wildlife Refuge to exploration, and the National Park 
Centennial Challenge Fund Act. The 2009 budget also assumes enactment 
of legislation that would authorize an increase in the price of the 
Federal Duck Stamp to $25. I will discuss the details of these 
proposals later in the testimony.

                          THE CHALLENGES AHEAD

    Interior's responsibilities are expanding as the Nation looks to 
its public lands for energy, water, wildlife protection, and 
recreation. Since 2001, the Nation has created 13 new parks and 15 
wildlife refuges. Population has grown dramatically near once-rural or 
remote public lands, increasing access to public lands and complicating 
land management. In the last ten years, 60 percent of the new houses 
built in America were located in the wildland-urban interface. Changing 
land conditions, including the effects of a changing climate, have 
heightened threats from fire and other natural hazards, complicating 
land management.
    The Department is improving program efficiency, setting priorities, 
and leveraging Federal funds through partnerships and cooperative 
conservation to meet these challenges. Interior's accomplishments have 
been many and varied, with noteworthy advances in management 
excellence.
    Interior has made progress on all dimensions of the President's 
management agenda--a result achieved despite decades-long challenges in 
Indian trust management, a highly decentralized organization structure, 
and a highly dispersed workforce. In 2001, Interior had 17 material 
weaknesses reported in the annual financial and performance audit. With 
the annual audit just completed for 2007, we have eliminated all 
material weaknesses. Despite these successes, as public lands become 
increasingly important to the economy, national security, and the 
public, continued success will require a strategic focus of resources 
to address emerging challenges, achieve key priorities, and maintain 
current levels of success.

                       INTERIOR'S ACCOMPLISHMENTS

    The Department's accomplishments exemplify Interior's core values: 
Stewardship for America with Integrity and Excellence. Our 
achievements, in combination with an outstanding workforce, create a 
strong foundation for continued stewardship of the Nation's resources. 
Since 2001, the Department has:

  <bullet> Restored or enhanced more than 5 million acres and 5,000 
        stream and shoreline miles through cooperative conservation.
  <bullet> Restored, improved, and protected wetlands to help achieve 
        the President's goal to protect, enhance, and restore 3 million 
        acres by 2009.
  <bullet> Improved park facilities for visitors by undertaking over 
        6,600 projects at national parks and earning a 96 percent 
        satisfaction rate from park visitors.
  <bullet> Reduced risks to communities from the threat of catastrophic 
        fire, conducting over 8 million acres of fuels treatments on 
        Interior lands through the Healthy Forests Initiative.
  <bullet> Enhanced energy security by more than doubling the 
        processing of applications for permits to drill and increased 
        the production of renewable energy with new wind, solar, and 
        geothermal projects.
  <bullet> Awarded $9.8 million to 140 Preserve America projects 
        involving public-private partnerships that serve as nationwide 
        models for heritage tourism, historic preservation, education, 
        and other Federal programs.
  <bullet> Leveraged a four-to-one investment through a water 
        conservation challenge grant program, generating more than $96 
        million for 122 water delivery system improvements and 
        conserving over 400,000 acre-feet of water to help meet the 
        water needs of people across the West.
  <bullet> Completed planned lease sales and generated a new five-year 
        plan for 2007-2012 that opens up an additional 48 million acres 
        to leasing and has the potential to produce ten billion barrels 
        of oil and 45 trillion cubic feet of natural gas over the next 
        40 years, enough to heat 47 million homes for 40 years. The 
        October 2007 Central Gulf of Mexico OCS lease sale generated 
        $2.9 billion, $1.6 billion more than originally estimated.
  <bullet> Removed the American bald eagle from the endangered species 
        list and put in place a set of management guidelines to secure 
        the future of our Nation's symbol.
  <bullet> Advanced protection of the Papahanaumokuakea Marine National 
        Monument in Hawaii, the largest marine protected area in the 
        world, with the publication of regulations codifying management 
        measures.
  <bullet> Hosted over 464 million visitors to parks, refuges, public 
        lands, and Bureau of Reclamation sites and increased the number 
        of fishing programs on refuges by 24 and the number of hunting 
        programs on refuges by 34.
  <bullet> Established a new Recreation Reservation Service, a unified 
        pass to public lands, and clarified entrance and recreation 
        fees, in coordination with other agencies.
  <bullet> Distributed over $79 million to individual Indian money 
        account holders whose whereabouts were previously unknown and 
        archived 400 million pages of trust documents in a state-of-
        the-art facility.

    Our 2009 budget continues investments the Congress provided in 2008 
for our top priorities. We continue our Centennial Initiative with 
record funding levels for park operations. We propose to augment 
funding for our landscape-scale Healthy Lands Initiative to protect 
wildlife and assure access to energy resources on public lands. We 
propose to sustain funding increases in 2008 to combat the 
methamphetamine scourge in Indian country and improve education 
programs for students in Indian schools.
    Fulfilling the President's commitment to cooperative conservation, 
since 2001, the Department has provided $2.5 billion in conservation 
grants to achieve on-the-ground protection, restoration, and 
enhancement of lands and waters with partners. This commitment 
continues with $321.7 million requested in 2009 for challenge cost 
share and partnership programs that leverage Federal funding, typically 
more than doubling the Federal investments with matching funds.
    We also propose four new initiatives. We request an increase of 
$21.3 million for the Water for America initiative that will enhance 
knowledge of water resources and improve the capacity of water managers 
to avert crises caused by water supply issues and better manage water 
resources to assist in endangered species recovery. We will advance 
efforts to improve the status of birds, including migratory birds, and 
avert further declines in bird populations with an increase of $9.0 
million for a Birds Forever initiative. The budget continues the $35.9 
million refuge funding increase provided by the Congress in 2008, which 
will restore 200,000 acres of bird habitat. The 2009 budget seeks an 
increase of $7.9 million to collect data that is needed to define U.S. 
jurisdiction of the extended continental shelf under the Law of the 
Sea, protect wildlife and habitat in ocean environments from marine 
debris, and conduct high priority research to support coastal 
restoration. Lastly, the 2009 budget includes $8.2 million to increase 
the protection of employees, visitors, lands and resources that are 
increasingly at risk from illegal activities at parks, refuges, public 
lands, and Indian lands along the border with Mexico.

                     THE NATIONAL PARKS CENTENNIAL

    Last May, we responded to the President's charge to prepare for the 
National Park Service's 100th anniversary. Our report to the President 
on the National Parks Centennial initiative encompassed the ideas and 
input from 40 listening sessions and 6,000 public comments. The report 
frames the ten-year effort to strengthen visitor services and other 
programs in parks in time for the National Parks Centennial. On August 
23, 2007, we announced more than 200 centennial proposals eligible as 
potential partnership projects in national parks as part of the 
National Parks Centennial Challenge.
    The Centennial Initiative proposes $3 billion in new funds for the 
National Park Service over the next ten years. Included in the 
Centennial Initiative is the ``Centennial Challenge''--the challenge to 
individuals, foundations, and businesses to contribute at least $100 
million annually to support signature programs and projects. Each year, 
donations would be matched by up to $100 million of Federal funding 
from the National Park Centennial Challenge Fund, the mandatory 
spending fund that would be established under S. 1253.
    When I appeared before this Committee last year, I was asked why I 
thought we could raise more philanthropic donations than we typically 
had been--around $27 million annually. We have received 321 written 
letters of commitment from Americans across the country pledging $301 
million dollars of their money for Centennial projects. I am 
particularly appreciative, Mr. Chairman, that you and Senator Akaka 
sponsored the Administration's proposed National Park Centennial 
Challenge Fund Act. Once Congress approves the Centennial Challenge 
Matching Fund legislation, those pledges and the matching Federal funds 
will be available to benefit parks all around the country--large parks, 
small parks and parks in between. We have the goals, we have the 
projects.
    What is needed now is for Democrats and Republicans in Congress to 
pass the National Park Centennial Challenge Fund Act. National Parks 
are not a Republican issue. They are not a Democrat issue. They are an 
American issue. Once this legislation is passed, it will be my 
responsibility to ensure that every philanthropic and public dollar is 
well spent.
    I greatly appreciate the support Congress has already shown for the 
Centennial Initiative. The FY 2008 Interior appropriations bill 
contains the $122 million in additional operations funding, which our 
parks will use to hire 3,000 seasonal national park rangers, guides, 
and maintenance workers; repair buildings; enroll more children in 
Junior Ranger and Web Ranger programs at the parks; and expand the use 
of volunteers in parks. In addition, the 2008 appropriation included 
$24.6 million in discretionary funding to match private philanthropic 
contributions for signature projects and programs, so that we can pilot 
the concept while the Congress works on passage of the Centennial 
Challenge authority.
    I look forward to continuing our collaborative relationship with 
the Congress as we pursue this and our other priorities and address 
emerging challenges of water scarcity, ocean management, declining bird 
populations, and borderland security.
    In 2009, our budget continues the President's commitment to the 
parks with a historic $2.1 billion budget request for the Operation of 
National Parks. This increase of $160.9 million, or 8 percent above the 
2008 enacted level would provide the largest budget ever for park 
operations. Cumulatively over two years, park operations increase by 15 
percent. This funding will allow the parks to preserve our Nation's 
natural and cultural heritage, improve the condition of parks and park 
facilities, and prepare a new generation of leaders to guide NPS into 
the 21st century. The budget also supports the President's proposed 
Centennial Challenge matching fund of up to $100 million annually.
    The 2009 budget will continue to build park operational capacity, 
including increases for core operations, facility management, U.S. Park 
Police operations, and youth partnership programs. The increase will 
improve the health of natural and cultural resources and continue to 
bring park assets into good condition using a predictive maintenance 
cycle. We will also develop a 21st century workforce with enhanced 
organizational capacity and employee development through a professional 
development program, performance management tools, and an expanded 
safety program. I am committed to addressing management issues raised 
in a recent report of our Inspector General on the U.S. Park Police.
    Complementing park operations, the 2009 budget includes a combined 
$25.0 million for Preserve America and Save America's Treasures. 
Launched in 2003 by the President and First Lady, the Preserve America 
initiative encourages States and local communities to partner with the 
Federal government to preserve the multi-textured fabric of America's 
story. The Administration has submitted legislation to the Congress to 
permanently authorize the Preserve America and Save America's Treasures 
programs. To date, 585 communities in all 50 States and the U.S. Virgin 
Islands have been designated as Preserve America communities.
    Through $9.8 million appropriated to the National Park Service 
through 2007, the program has supported 140 projects in communities 
throughout America. The 2008 appropriation will support an additional 
95 projects. The 2009 budget request includes $10.0 million for 
Preserve America grants, an increase of $2.6 million over the 2008 
enacted level. The budget also provides $15.0 million for Save 
America's Treasures grants, $4.0 million more for competitive grants 
than what was appropriated in 2008.

                        HEALTHY LANDS INITIATIVE

    In 2007, the Department initiated the Healthy Lands Initiative--a 
major, long-term effort to improve the health of public and private 
lands in the West. Through the Healthy Lands Initiative, Interior 
agencies are working with State and local governments, private 
landowners and other interested groups to conserve and restore vital 
habitat. This Initiative will preserve our public lands for recreation, 
hunting and fishing, and for their significant habitat for species, 
while helping to secure energy for this Nation. The Healthy Lands 
Initiative takes, for the first time, a landscape-scale approach to 
restoration and land-use planning. The Initiative considers the health 
of the land at a landscape scale instead of acre by acre.
    Using $3.0 million in 2007 as a model for our Healthy Lands 
Initiative, BLM funded improvements to 72,000 acres of BLM land. The 
investments improved wildlife habitat conditions on 45,896 acres of 
shrubs, grass and woodland; reduced woody fuels and improved the 
composition of herbaceous vegetation on 18,377 acres outside the 
wildland urban interface and 4,986 acres within the interface; and 
improved 580 acres of wetlands. BLM leverage this funding with partner 
investments to treat additional acres within the same critical 
watersheds on non-BLM lands.
    With Congress's support for the initiative, in 2008 we will be 
expanding these efforts to $7.9 million and improving the health of 
Western landscapes impacted by drought, wildfire, weed invasions, and 
stresses associated with population growth and increased development 
and use of the public lands. The Healthy Lands Initiative will restore 
and maintain habitat for many species such as the sage grouse, a 
species almost entirely dependent on sagebrush ecosystems. Some 72 
percent of sage grouse habitat is under Federal management. The current 
range of the greater sage grouse has declined an estimated 45 percent 
from the historically occupied range, prompting recent petitions to 
list the species under the Endangered Species Act. The Initiative will 
also focus on protecting wildlife corridors as we take a holistic 
perspective in our land use planning process for energy development and 
recreation.
    The 2009 budget provides $21.9 million for the Healthy Lands 
Initiative, an increase of $14.0 million over the 2008 enacted level, 
including an increase of $10.0 million that BLM will deploy to 
accelerate and increase efforts at the original six geographic focus 
areas; expand one of the focus areas; and add a seventh focus area in 
California. The Initiative includes increases of $3.5 million for USGS 
and $492,000 for FWS to provide critical scientific support and 
complement BLM's on-the-ground conservation and restoration efforts.

                        SAFE INDIAN COMMUNITIES

    Despite the fact that the Bureau of Indian Affairs falls under the 
jurisdiction of the Senate Committee on Indian Affairs, the programs of 
the BIA are of interest to many Senators on this Committee. In 2008, 
Interior proposed the Safe Indian Communities initiative to help Indian 
Country resist organized crime and foreign drug cartels. These cartels 
have taken advantage of the widely dispersed law enforcement presence 
on tribal lands to produce and distribute drugs, resulting in a violent 
crime rate in some communities that is ten to 20 times the national 
average.
    The 2008 enacted appropriation provided increases totaling $23.6 
million for the Safe Indian Communities initiative to increase our 
capacity to combat this growing epidemic. In 2009, we sustain this 
funding and request an additional $2.9 million, for a total Safe Indian 
Communities initiative of $26.6 million. With a cumulative investment 
of $50.2 million over two years, Interior will assist Tribes to 
suppress the production and distribution of methamphetamine by 
organized crime and drug cartels, address related effects including 
drug abuse, child neglect and abuse, and increase staffing at detention 
centers.
    In 2009, Interior will provide: 1) additional officers for law 
enforcement; 2) specialized drug training for existing officers; 3) 
public awareness campaigns for the Indian public; 4) additional 
resources to protect tribal lands located on the United States border; 
and 5) additional social workers. Combined, the 2008 and 2009 funding 
increases will put 193 additional law enforcement agents on the ground 
in targeted communities in Indian Country and invest in more training 
for the current force to more effectively combat the problem. The BIA 
will also expand the use of a mobile meth lab to train tribal police 
and others about methamphetamine labs, environmental and personal 
safety hazards, and interdiction and investigation strategies. Funding 
will target communities based on a needs analysis that looks at the 
violent crime rate, service population, and current staffing levels.

                       IMPROVING INDIAN EDUCATION

    In 2008, Interior proposed the $15.0 million Improving Indian 
Education initiative to enhance student performance in Bureau of Indian 
Education schools. As one of just two Federal school systems, the BIE 
system of 184 schools should be a model of excellence and achievement 
of the goals of the No Child Left Behind Act. Student performance, 
however, has lagged. In 2006, just 30 percent of Indian schools were 
achieving their annual progress goals. Through this initiative, the 
Department is implementing a set of education program enhancements to 
increase the number of schools reaching adequate yearly progress goals 
to 33 percent by 2009. Though we still have much work to do, our 
assessment for 2007 shows 31 percent of schools now achieving Annual 
Yearly Progress.
    The 2008 appropriation provided an increase of $24.1 million over 
the 2007 level for programs to improve student achievement. Our 2009 
budget continues the increased funding Congress provided for these 
programs and adds another $1.4 million over 2008 for certain activities 
for a total of $25.5 million. This request includes $5.2 million for 
Education Program Enhancements to restructure schools under the No 
Child Left Behind Act and for reading programs, tutoring, mentoring, 
and intensive math and science initiatives. In 2008, Congress provided 
$12.1 million for these enhancements. With the 2008 boost in funding 
and the continued $5.2 million in 2009, BIE will focus on improved 
student achievement. The budget also includes a $6.3 million increase 
in funds allocated to all schools to improve per student funding. 
Funding allocated by formula is the primary source of funding for BIE's 
170 elementary and secondary schools and 14 dormitories. This funding 
directly supports all schools for core costs of operating education 
programs such as salaries for teachers, aides, administrators, and 
support staff; supplies; and classroom materials.
    The 2009 budget increases funding for four new initiatives: Water 
for America, Birds Forever, Ocean and Coastal Frontiers, and Safe 
Borderlands.

                           WATER FOR AMERICA

    In 2007, the National Science and Technology Council reported that 
``abundant supplies of clean, fresh water can no longer be taken for 
granted.'' The Council of State Governments echoed this concern, 
concluding that ``water, which used to be considered a ubiquitous 
resource, is now scarce in some parts of the country and not just in 
the West . . . The water wars have spread to the Midwest, East, and 
South, as well.''
    Competition for water is increasing because of rapid population 
growth and growing environmental and energy needs. These water needs 
are escalating at a time of chronic drought and changes in water 
availability resulting from a changing climate.
    In 2009, our budget includes an increase of $21.3 million for a 
Water for America initiative to help communities secure reliable water 
supplies through information, technologies, and partnerships. This 
collaborative effort, which involves the Bureau of Reclamation and the 
U.S. Geological Survey, will help address the water needs of the 
nation.
    Knowing how much water is available--and how much we consume--lies 
at the foundation of good water management. Yet this Nation has not 
completed a water census in over three decades. Our Water for America 
initiative will fill this void. The U.S. Geological Survey request 
includes an additional $8.2 million to begin funding the first water 
census in 30 years. USGS will begin a nationwide assessment of water 
availability, water quality, and human and environmental water use. The 
census, planned for completion by 2019, will generate information to 
assist others in managing water in a context of competing demands. The 
census will provide a national groundwater information system, new 
technology that integrates surface and groundwater information, and 
better measurements that result in better management of water 
resources.
    For more than 100 years, USGS has collected, managed and 
disseminated data on stream behavior. The USGS operates its 
streamgaging network of 7,000 gages in cooperation with State, local, 
municipal, and tribal partners. The 2009 budget will modernize 350 
gages and re-establish 50 gages discontinued in the past two decades to 
improve capability to ensure a consistent, historical record of 
streamflow.
    The Bureau of Reclamation will recast its water conservation 
programs and will merge Water 2025 and the Water Conservation Field 
Services program to stimulate water conservation and improved water 
management through an integrated approach that addresses urban, rural, 
and agricultural uses of water throughout the West. Through the use of 
West-wide criteria to competitively award grants, this new water 
conservation challenge grant program will stretch water supplies 
through water conservation, technology, reuse and recycling, and new or 
improved infrastructure development. This program will leverage $15.0 
million in Federal dollars with State and local funds. We will also 
protect endangered species and their habitats while protecting water 
for traditional purposes with an increase of $8.9 million. Funding will 
be used to acquire water to increase flows in the Platte River; improve 
tributary habitats for spawning on the Columbia and Snake Rivers; 
restore habitats on the Yakima River basin, the Middle Rio Grande 
River, and the Klamath basin, and improve endangered species conditions 
in the California Bay-Delta.
    The Bureau of Reclamation's 2009 budget request of $919.3 million 
is offset by $48.3 million in funds from the Central Valley Project 
Restoration Fund Offset. This request supports Reclamation's mission of 
managing, developing, and protecting water and related resources in an 
environmentally and economically sound manner in the interest of the 
American people. The budget emphasizes reliable water delivery and 
power generation by requesting more than $396 million to fund 
operation, maintenance, and rehabilitation activities at Reclamation 
facilities.
    To address important infrastructure funding needs, the budget 
includes an increase of $15.5 million for the Bureau of Reclamation's 
Safety of Dams program. This will allow the Bureau to address 
correction actions at Folsom Dam and other high priority projects.
    Reclamation is currently developing programmatic criteria for a 
Rural Water Program as required under the Reclamation Rural Water 
Supply Act of 2006. Reclamation expects to begin appraisal level 
studies in 2009. The 2009 budget includes $39.0 million for two ongoing 
authorized rural water projects: $24 million supports the 
Administration's commitment to complete construction of ongoing rural 
water projects including ongoing municipal, rural and industrial 
systems for the Pick Sloan-Missouri Basin Program--Garrison Diversion 
Unit in North Dakota and the Mni Wiconi Project in South Dakota. The 
first priority for funding rural water projects is the required 
operations and maintenance component, which is $15.0 million for 2009. 
For the construction component, Reclamation allocated funding based on 
objective criteria that gave priority to projects nearest to completion 
and projects that serve tribal needs.
    The $50.0 million budget for Animas-La Plata funds the completion 
of major project components including the Ridges Basin Dam, Durango 
Pumping Plant, and Ridges Basin Inlet Conduit; enables the Bureau to 
begin filling Lake Nighthorse; and begins construction of the Navajo 
Nation Municipal Pipeline.
    The Bureau will complete removal of the Savage Rapids Dam in 2009. 
The budget includes $22.7 million for the Middle Rio Grande project to 
continue to focus on the protection and recovery of the silvery minnow 
and southwestern willow flycatcher.
    The budget request for CALFED is $32.0 million, continuing 
implementation of priority activities that will resolve water conflicts 
in the Bay-Delta of California. Funds will be used for the 
environmental water account, storage feasibility studies, conveyance 
feasibility studies, science, implementation of projects to improve 
water quality, and overall program administration.

                             BIRDS FOREVER

    In June 2007, the National Audubon Society issued a report, Common 
Birds in Decline, based on analysis of the Society's Christmas bird 
counts and breeding bird surveys performed by the U.S. Geological 
Survey. The report indicated significant declines occurring in 20 
common species. On average, populations of common birds have plummeted 
70 percent since 1967.
    As manager of one-fifth of the nation's lands, Interior, working 
with this Nation's citizens, can help reverse these declines. Since 
2004, Interior has improved the status of five migratory bird species. 
Current efforts focus on ensuring that more than 62 percent of the 
nation's migratory bird species thrive at sustainable levels. I 
understand that the U.S. Fish and Wildlife Service (FWS) and the 
Migratory Bird Treaty Act are subject to the jurisdiction of the 
Committee on the Environment and Public Works. However, I would like to 
briefly focus on the FWS budget and our Birds Forever initiative.
    On October 20, 2007, the President announced a new effort to 
conserve migratory birds. This effort included cooperative conservation 
with Mexico to protect birds that know no border, expanded migratory 
bird joint ventures, and production of a State of the Birds report. The 
Department's Birds Forever initiative builds upon the President's 
initiative.
    Our budget sustains the FWS refuge budget increase of $35.9 million 
provided by the Congress in 2008. Conserving migratory birds is a 
primary goal of the Refuge System and the increased funding in 2008 
will support migratory bird conservation and habitat protection. More 
than 200,000 acres of habitat will be improved, some of which will 
directly benefit migratory birds.
    Our 2009 budget also proposes to improve the status of wild birds, 
including migratory birds, and avert further declines in populations 
with $9.0 million in increased funding for FWS joint venture 
partnerships, inventory and monitoring, and habitat restoration 
programs and the U.S. Geological Survey's strategic habitat 
conservation and monitoring efforts such as the breeding bird survey. 
These funds, together with refuge increases, will help reverse the 
decline in bird populations by focusing on species of greatest concern 
and leveraging Federal investments through partnerships.
    The initiative targets 36 species that are part of the FWS Focal 
Species Strategy. By emphasizing these priority species, benefits will 
accrue to other species as well because they often have similar 
conservation needs and utilize the same habitats. Employing this 
strategy, FWS and USGS will improve understanding of these species, 
restore habitat, and monitor species status and trends. Through 
collaborative projects with States and others, these efforts will lead 
to improved protection of habitats that are important to these bird 
species. Interior will complete action plans for 30 focal species and 
coordinate them with State Wildlife Action Plans.
    Interior collaborative efforts with nonprofit organizations, State, 
and Federal programs through Joint Ventures will set conservation 
priorities and increase investments through extensive leveraging. 
Interior will focus on Joint Ventures along the coasts and central 
flyways including the Atlantic Coast, Texas and Gulf Coast, and Prairie 
Potholes and Playas. Working in coordination with these programs 
through the Birds initiative, States will be able to leverage their 
funds against federal grant program dollars to target multi-state bird 
conservation priorities. The Fish and Wildlife Service has signed Urban 
Bird Treaties with cities such as New Orleans and Houston to preserve 
bird habitat in urban environments. With five treaties in place, FWS 
will sign up more cities and promote partnerships that will conserve 
parks and tree islands for bird habitat and engage the citizens in 
conservation activities.

                      OCEAN AND COASTAL FRONTIERS

    Healthy and productive oceans, coasts, and Great Lakes waters are 
vital to America's prosperity and well-being. The President's U.S. 
Ocean Action Plan sets forth a pioneering vision for ocean management 
premised on regional partnerships, State leadership, and Federal 
coordination.
    Interior has extensive ocean and coastal responsibilities, managing 
35,000 miles of coastline, 177 island and coastal refuges, 74 park 
units comprising 34 million acres, 92 million acres of coral reef 
ecosystems that include 3.5 million acres of coral reefs, and 1.8 
billion underwater acres of Outer Continental Shelf lands. Interior 
also assists the U.S. Territories and Freely Associated States in the 
management of 3.6 million square miles of oceans in the U.S. 
Territories and Freely Associated States. The Department also conducts 
the science needed to guide better decision-making in managing these 
resources.
    The 2009 budget request includes $7.9 million to support the 
Department's diverse ocean, coastal, and Great Lakes program activities 
and to implement the highest priorities of the U.S. Ocean Action Plan. 
Included is an increase of $4.0 million for mapping the extended 
continental shelf to assure that the United States defines the 
boundaries for these areas potentially rich in energy and mineral 
resources.
    Our budget also funds partnerships to reverse the trend of marine 
debris accumulating in waters and coasts of Midway Atoll National 
Wildlife Refuge and conserve coral reefs and improve ocean science at 
the Palmyra Atoll National Wildlife Refuge. Marine debris kills marine 
life, interferes with navigation safety, negatively impacts shipping 
and coastal industries, and poses a threat to human health.

                      SAFE BORDERLANDS INITIATIVE

    The Department's land management bureaus manage lands along 793 
miles, or 41 percent, of the southwest border. This includes seven 
national wildlife refuges, six national parks, lands managed by the 
Bureau of Reclamation along 12 miles of the border, and public lands 
managed by the Bureau of Land Management along 191 miles of the border. 
In addition, five Indian reservations are on the international boundary 
with Mexico.
    These remote, once pristine landscapes are home to many unique 
plants and wildlife, some of which are endangered species. However, the 
situation along our international border with Mexico has changed. In 
some locations, our employees, residents, or visitors are facing 
significant risks from illegal activities and portions of the public 
lands are closed to visitors. Employees who live on site and residents 
of Indian communities contend with the potential threat of vandalism, 
theft, and confrontation with illegal activities. Wildlife populations 
and their habitats and cultural resources are affected and damaged by 
these activities.
    Increased border enforcement in urban areas has resulted in a shift 
in the flow of illegal drugs and unauthorized people to rural areas and 
the lands managed by the Interior Department. The number of illegal 
aliens crossing public lands has increased 11-fold since 2001. Narcotic 
traffickers, smugglers, and other criminals, who operate extensively 
near the border, impact public lands and resources.
    There has been loss to human life. National Park Service Ranger 
Kris Eggle was shot and killed in 2002 at Organ Pipe Cactus National 
Monument by a drug runner. At San Bernardino National Wildlife Refuge, 
drug smugglers threatened an officer and his family at his home if he 
didn't return a load of marijuana seized earlier in the day. These are 
not isolated incidents. Interior employees are concerned that they are 
under constant surveillance by drug smugglers who establish observation 
posts on our lands and are equipped with assault weapons, encrypted 
radios, night vision optics, and other sophisticated equipment. 
Employees cannot go to some areas of some of the parks, refuges, and 
other public lands without an escort. The impacts to lands and 
resources are extensive, including abandoned vehicles and personal 
property, roads and trails through sensitive areas, and elevated 
threats to at-risk species.
    The Department is requesting an $8.2 million increase for our Safe 
Borderlands initiative to enhance safety of public land visitors, 
residents, and employees and reduce the impacts affecting Interior-
managed lands along the southwest border. The Safe Borderlands 
initiative targets resources toward multiple bureaus and high-priority 
areas. The Department will coordinate border efforts among the land 
management bureaus and the Bureau of Indian Affairs, deploying 
additional law enforcement personnel into five high-priority areas with 
the highest safety risks. We propose to focus on Interior borderland 
responsibilities, including public lands management and visitor and 
employee safety.
    We also propose to mitigate environmental damage along the 
southwest border. Trails and illegal roads made by smugglers are 
destroying cactus and other sensitive vegetation impacting the 
ecological health of many of the national parks, wildlife refuges, 
national monuments and conservation areas Interior manages. Projects 
include restoration of Arivaca Creek in the Buenos Aires National 
Wildlife Refuge; repairing and maintaining roads and trails on BLM 
lands; improving signage for visitors; assisting with environmental 
compliance for border infrastructure projects; removing tons of 
abandoned personal property such as vehicles from bureau and tribal 
lands; and closing abandoned mine lands on BLM lands in New Mexico and 
California where illegal aliens hide.

                  SUPPORTING THE DEPARTMENT'S MISSION

    The 2009 budget aligns resources to achieve these and other high-
priority goals guided by the Department's integrated strategic plan. 
The Department's strategic plan links the Department's diverse 
activities into four common mission areas: Resource Protection, 
Resource Use, Recreation, and Serving Communities. A fifth area, 
Management Excellence, provides the framework for improved business 
practices, processes, and tools and a highly skilled and trained 
workforce.
    Key to attaining these strategic goals is our 2009 request for 
fixed costs. Pay and benefits for the Department's 70,000 employees are 
a significant cost component of Interior's core programs, comprising 51 
percent of operating budgets. The proportion of Interior's budget 
committed to personnel costs places it among the top three Federal 
agencies. This workforce composition largely reflects the need to 
maintain staff at the geographically dispersed locations that serve the 
public including 391 parks, 548 refuges, and 71 fish hatcheries.
    Interior's programs by their very nature require staff. Interior 
continues to utilize the services of over 200,000 volunteers and 
extensive seasonal employees. However, the workforce capacity of the 
Department's programs is an essential ingredient for the uninterrupted 
delivery of programs and services to the American public.
    The 2009 budget includes $142.5 million to keep apace with most 
increased costs in pay and benefits and other fixed costs. The pay and 
benefits component is $128.6 million, including a 3.5 percent 2008 pay 
raise, a 2.9 percent 2009 pay raise, and a 3.0 percent increase in 
health benefits. A total of $22.5 million in pay and health benefits 
costs is absorbed. There is a reduction of $16.9 million for one less 
pay day in 2009. The request fully funds nondiscretionary bills from 
others, including space rental costs and associated security charges; 
workers compensation and unemployment compensation; and centralized 
administrative and business systems, services, and programs financed 
through the Working Capital Fund.

                        OTHER BUDGET PRIORITIES

    In addition to the initiatives already highlighted, the 2009 budget 
includes funding for programs key to achieving the Department's goals 
and objectives.
    Cooperative Conservation Programs.--Through partnerships, Interior 
works with landowners and others to achieve conservation goals across 
the Nation that benefit America's national parks, wildlife refuges, and 
other public lands. The 2009 budget includes $321.7 million for the 
Department's cooperative conservation programs, $10.4 million more than 
the 2008 enacted level. These programs leverage Federal funding, 
typically providing a non-Federal match of 50 percent or more. They 
provide a foundation for cooperative conservation to protect endangered 
and at-risk species; engage local communities, organizations, and 
citizens in conservation; foster innovation; and achieve conservation 
goals while maintaining working landscapes.
    Challenge cost share programs in FWS, NPS and the Bureau of Land 
Management are funded at $18.1 million. These cost share programs 
provide resources to land managers to work with adjacent communities, 
landowners, and other citizens to achieve common goals through 
conservation and restoration of wetlands, uplands, riparian areas and 
other projects.
    The 2009 cooperative conservation budget incorporates the 
Department's $21.9 million Healthy Lands initiative. Building on the 
$7.9 million enacted in 2008 for Healthy Lands, the 2009 budget 
increases resources for this multi-agency initiative to enlist States, 
local and tribal governments, industry and non-government entities to 
restore habitat on a landscape scale.
    The 2009 budget for FWS cooperative conservation programs proposes 
$14.9 million for the Migratory Bird Joint Ventures program, including 
an increase of $4.0 million to focus on improving the status of focal 
species of birds as part of the Migratory Bird initiative. The 2009 
budget also includes $13.2 million for the Coastal program, $48.0 
million for the Partners for Fish and Wildlife program, $4.9 million 
for the Fish Passage program, and $5.2 million for the National Fish 
Habitat Action Plan.
    The 2009 request for cooperative conservation programs includes 
$195.9 million for FWS grant programs, an increase of $1.9 million. 
This includes $42.6 million for the North American Wetlands 
Conservation Fund, an increase of $666,000 above the 2008 enacted 
level. The 2009 budget for the Cooperative Endangered Species 
Conservation Fund is $75.5 million (including $80.0 million in new 
budget authority reduced by a cancellation of $4.5 million in 
unobligated balances). This request is an increase of $1.7 million 
above the 2008 level. The 2009 budget includes $4.0 million for the 
Neotropical Migratory Bird program, a reduction of $470,000 from the 
2008 level, and $73.8 million for the State and Tribal Wildlife Grant 
program, sustaining the 2008 funding level.
    Enhancing Energy Security.--The Interior Department helps to meet 
the Nation's energy needs and ensure energy security. Roughly one-third 
of the energy produced in the United States each year comes from 
Federal lands and waters managed by Interior. Interior's 2009 budget 
enhances energy security with a program that seeks to increase 
production while achieving important environmental protections, 
attaining energy conservation goals, and expanding the use of new 
technologies and renewable energy sources. The 2009 budget provides 
$528.1 million for energy-related programs, an increase of $15.1 
million over the 2008 enacted level.
    The BLM will continue to support implementation of Section 349 of 
the Energy Policy Act to address the environmental risks posed by 
legacy orphaned wells. The 2009 request includes an increase of $11.2 
million for the remediation of the Atigaru site on the Alaska North 
Slope. In addition, BLM will increase its capacity for conducting oil 
and gas inspections in 2009.
    In 2009, as in 2008, legislation is proposed to repeal the permit 
processing fund and the prohibition on charging cost recovery fees for 
processing applications for permits to drill. Estimated cost recovery 
collections for Applications for Permit to Drill are $34.0 million in 
2009, an increase of $13 million from the 2008 proposed level. The 2009 
budget relies on permanent legislation to allow cost recovery for APDs, 
rather than the $4,000 APD fee included in the 2008 Consolidated 
Appropriations Act.
    In 2009, MMS will apply $8.5 million to increase environmental 
studies, resource assessments, and leasing consultations in areas of 
new leasing activity in Alaska and the Gulf of Mexico as identified in 
the 2007-2012 Five Year Plan. These lease sales could produce as much 
as 10 billion barrels of oil and 45 trillion cubic feet of natural gas 
over the next 40 years, enough energy to heat 47 million homes for 40 
years. With an additional $1.0 million, MMS will implement its 
alternative energy responsibilities by funding environmental work and 
permitting for offshore alternative energy projects. This increase 
builds on the increased funding level provided in 2008 for alternative 
energy and provides a total funding level of $6.6 million.
    The MMS will also use a $1.1 million increase to improve its 
information technology system to keep pace with industry's use of 
geoscientific analysis of resources and ensure that lease bids meet 
their fair market value; provide $2.0 million for improvements to 
mineral revenue compliance operations; and apply $1.7 million to 
implementing automated interest billing, allowing MMS to streamline and 
expedite interest invoicing, enhance internal controls, reduce manual 
intervention, allow the closure of audit cases sooner, and redirect 
staffing to other high-priority projects.
    Climate Change.--With lands that range from the Arctic to the 
Everglades, Interior's managers are observing the sometimes dramatic 
effects of a changing climate, including melting permafrost and melting 
glaciers, apparent long-term changes in precipitation patterns, dust 
storms, and sea level rise. In this dynamic context, Interior managers 
need the information, tools and resources to understand on-the-ground 
landscape changes and develop strategies to adapt to these changes. As 
one of the largest land managers in the world, Interior is positioned 
to pioneer adaptive management approaches to address the effects of 
climate change.
    Interior's science agency, the U.S. Geological Survey, has been an 
active participant in the Federal Global Climate Change Science 
project. In 2008, the Congress provided an increase of $7.4 million to 
expand high-priority research and establish a National Global Warming 
and Wildlife Science Center.
    Work has begun to examine the most pressing issues faced by land 
managers, including the impacts of melting permafrost on energy and 
other infrastructure, modeling of watersheds to better manage timing 
and delivery of water by taking into account changing precipitation 
patterns, and investigation of the potential for geologic formations to 
sequester carbon. Interior has also undertaken habitat restoration to 
promote carbon sequestration and has pioneered use of alternative 
energy and energy conservation in its facilities and transportation 
systems. Approximately 18 percent of Interior's facility electricity 
comes from alternative energy technologies, a ratio six times greater 
than required for the Nation in the Energy Policy Act.
    The 2009 budget for the U.S. Geological Survey continues its 
climate change program of $31.4 million, sustaining $5.0 million of the 
increases enacted in 2008 by the Congress. The 2009 budget will focus 
on priority climate change needs to fill critical information gaps. The 
2009 budget and the Department's climate change management priorities 
will benefit from the results of the Secretary's Task Force on Climate 
Change. The three subcommittees that comprise the task force will guide 
Interior's comprehensive approach to the study and modeling of the 
impacts of climate change on lands, waters, and wildlife, as well as 
guide adaptive management programs for the Department's land managers.
    Indian Trust.--From 1996 through 2008, the Department will have 
invested $4.4 billion in the management, reform, and improvement of 
Indian trust programs. These investments have allowed Interior to 
better meet fiduciary trust responsibilities, provide greater 
accountability at every level, and operate with staff trained in the 
principles of fiduciary trust management. The 2009 budget proposes 
$482.3 million for Indian trust programs. This amount includes a net 
program increase of $2.9 million over the 2008 enacted budget. The 2009 
Unified Trust Budget reflects savings from the completion of certain 
trust reform tasks as well as new investments in probate services.
    The 2009 budget of $482.3 million for Indian trust programs 
includes $181.6 million in the Office of the Special Trustee and $300.7 
in the Bureau of Indian Affairs. The budget for Office of the Special 
Trustee includes $125.2 million for operation of trust programs, an 
increase of $1.2 million above the 2008 level. The 2009 budget proposal 
includes $56.4 million to support the Office of Historical Trust 
Accounting. The Office of Historical Trust Accounting, which is 
included in the Unified Trust Budget, plans, organizes, directs, and 
executes the historical accounting of 365,000 Individual Indian Money 
and Tribal Trust accounts. The OHTA expects to allocate approximately 
$40 million to historical accounting for individual Indian accounts, 
with the balance used for tribal trust accounting.
    The remainder of the funding supports work on tribal trust cases, 
for a total of $16.4 million. At present, there are 102 tribal trust 
lawsuits, including a class action case seeking certification of a 
class of over 250 Tribes. The workload associated with these cases 
includes tribal reconciliation reports, document production, data 
validation, litigation support, analyses of mismanagement claims, 
historical accountings, and settlement negotiations.
    The 2009 BIA budget provides $300.7 million to meet the 
requirements outlined in the Fiduciary Trust model and continue trust 
reform initiatives, including a funding increase of $10.6 million that 
will address a number of priorities activities including the probate 
backlog.
    The 2009 budget also includes an increase $2.6 million for BIA and 
OST to meet the ongoing demand for probate services, while continuing 
to reduce the excess probate caseload. This funding increase will also 
support the Office of Hearings and Appeals and their role in resolving 
probate cases.
    The 2009 budget reduces funding by $9.8 million and eliminates the 
Indian Land Consolidation program. Although the program is terminated 
in 2009 the Department will explore other options for addressing the 
critical issue of fractionation.
    Financial and Business Management System.--The Financial and 
Business Management System, an enterprise-level, integrated, 
administrative management system, is replacing the Interior 
Department's existing legacy systems. When fully implemented, the 
project will support the business requirements of all Interior bureaus 
and offices including core accounting, acquisition, personal property 
and fleet, travel, real property, financial assistance, budget 
formulation, and enterprise management information.
    In 2006, the Minerals Management Service and the Office of Surface 
Mining were successfully migrated to the Financial and Business 
Management System. These bureaus are now conducting financial and 
accounting operations on this new system. In 2007, the acquisition 
module was deployed to MMS and OSM. In 2008, the Department anticipates 
that it will deploy core financial, acquisition, property, and grants 
components of FBMS to BLM. The 2009 budget request of $73.4 million 
includes an increase of $33.3 million for additional deployments that 
will eventually allow the Department to retire duplicative legacy 
systems currently in operation, including 27 acquisition systems, 16 
finance systems, 43 vendor databases, and 107 property management 
systems.
    Payments in Lieu of Taxes.--PILT payments are made to local 
governments in lieu of tax payments on Federal lands within their 
boundaries and to supplement other Federal land receipts shared with 
local governments. The 2009 budget proposes $195.0 million for these 
payments, an increase of $5.0 million over the 2008 President's budget.

                         LEGISLATIVE PROPOSALS

    The 2009 budget is accompanied by legislative proposals that will 
affect receipt or spending levels in 2009 or in future years. These 
proposals will be transmitted to the Congress for consideration by this 
Committee and other authorizing committees of jurisdiction.
    Many of these legislative changes were presented in the 2008 
President's budget, including proposals for: full payment of bonuses on 
all new coal leases at the time of lease sale, modification of the 
Federal Land Transaction Facilitation Act, net receipts sharing for 
energy minerals, discontinuation of the mandatory appropriation from 
the BLM Range Improvement Fund, reallocation of the repayment of 
capital costs for the Pick-Sloan Missouri Basin program, and 
authorization for the San Joaquin River Restoration settlement.
    The budget also assumes the enactment of legislative proposals to 
repeal provisions of the Energy Policy Act related to permit 
processing, geothermal revenues and geothermal payments to counties, 
and ultra-deepwater research. The budget assumes enactment of 
legislation that would open the 1002 area of the Arctic National 
Wildlife Refuge to exploration with lease sales to begin in 2010, 
generating estimated bonus bids of $7 billion in 2010 and future 
streams of revenue from royalty collection once production commences.
    The 2009 budget assumes enactment of legislation to provide a new, 
dedicated source of funding for the Centennial Challenge providing up 
to $100.0 million per year for ten years of mandatory funding to match 
contributions for projects and programs that will fulfill the 
commitment to prepare parks for their next century.
    The 2009 budget also assumes enactment of legislation to authorize 
an increase in the price of the Federal duck stamp. The price of the 
stamp has remained at $15.00 since 1991. At the same time, the price of 
land has increased significantly in the past 17 years. The Duck Stamp 
fee increases will generate more revenues to support the acquisition of 
fee title and easement areas that would provide 17,000 additional acres 
of important breeding, migration resting, and wintering areas for 
birds.
    The 2009 budget proposes to cancel $5.0 million from multiple 
accounts, as the balances have remained unused for some time. The 
budget proposes to cancel $24.7 million of balances in the Naval Oil 
Shale Reserve Account that are excess to the estimated remediation 
costs and to cancel $4.5 million in the Cooperative Endangered Species 
Fund for uncommitted funding that was recovered from funds surplus to 
project needs.
    The 2009 budget proposes $34.0 million in increased cost recovery 
fees for the Bureau of Land Management oil and gas program and 
estimates an increase of $11.0 million in offsetting collections from 
rental receipts and cost recovery fees by the Minerals Management 
Service's OCS program.

                               CONCLUSION

    Our 2009 budget will--in its entirety--make a dramatic difference 
for the American people. We will continue efforts to improve our 
national parks, protect our wildlife and its habitat, and make 
investments in Indian Country for safe communities and Indian 
education. In addition, we will help communities address water supply 
needs, conserve wild birds and ocean resources, improve the safety of 
public lands along the border for employees and visitors, and continue 
to address other ongoing mission priorities. We look forward to working 
with this Committee to enact the National Park Centennial Challenge 
Fund Act and the other legislative proposals needed to meet these 
challenges this year. This concludes my overview of the 2009 budget 
proposal for the Department of the Interior and my written statement. I 
will be happy to answer any questions that you may have.

    The Chairman. Thank you very much. I gather the vote has 
been delayed a few more minutes so let me start with some 
questions and then defer to Senator Domenici.
    One of the issues that both Senator Domenici and I have 
been focused on is a project that you are very familiar with 
called the Navajo-Gallup Project out in our State.
    Senator Domenici. Which one was that?
    The Chairman. The Navajo-Gallup Project. Mr. Secretary, 
your efforts in issuing the project's draft EIS is much 
appreciated. But there's more that we need to do.
    The State of New Mexico and the Navajo Nation and the city 
of Gallup have invested at least 25 million dollars toward 
water delivery systems that will reduce the cost of the project 
and ensure the delivery of project water to Navajo and non-
Navajo citizens. Unfortunately both last year's and this year's 
budget contain no money to finish the environmental impact 
statement and to ensure that reclamation is working with the 
project participants to account for current investments, both 
which have the potential to save the Federal Government a great 
deal. Will you be able to reallocate funding in 2008 to 
complete the Navajo-Gallup environmental impact statement and 
to finalize the feasibility studies and maximize the cost 
savings to the Federal Government?
    Secretary Kempthorne. Mr. Chairman.
    The Chairman. Yes.
    Secretary Kempthorne. Last year I indicated to both you and 
Senator Domenici that we would actively work on this project 
and other Indian water rights issues within the State of New 
Mexico. We have been doing so. My water team has been in New 
Mexico on five different occasions and we've had extensive 
conversations with members of your staff and State government 
as well as the tribal government.
    You are correct. At this point we lack $260,000 to complete 
the EIS. So that is an area that we do flag. We realize that 
that is a great concern to New Mexico and to you two gentlemen. 
So it's something we would like to work with you so that we can 
complete that EIS.
    The Chairman. Let me ask about off road vehicle use. The 
Forest Service has mandated that all National Forests need to 
revise their off highway vehicle policies to allow off road 
vehicles only on those routes and areas that are designated for 
off road use. Will the BLM adopt a similar policy by requiring 
all BLM districts to revise their policies to deal with this 
issue as well?
    Secretary Kempthorne. Mr. Chairman, I can't tell you that 
there is a current directive for them to revisit that. I will 
tell you that the vast majority of our BLM is multiple use 
taking into account the variety of utilizations including 
recreation that the public enjoys. So we'll communicate with 
U.S. Forest Service and we'll look at what their suggestions 
are and then see what application that might happen at BLM. But 
again, our BLM properties are multiple use.
    The Chairman. I think that the Forest Service lands are 
generally multiple use too. But I think they have found that 
some additional regulation in this area is appropriate. Some 
restrictions in this area are appropriate. I think it is 
something that would be useful to look at.
    With regard to hard rock mining reclamation, the State of 
New Mexico has a great many abandoned hard rock mines. In an 
estimated 15,000 of those are openings that are connected or 
resulted from hard rock mining. I think this is true throughout 
the West.
    Senator Domenici and I are working on legislation that will 
relate to this, but the Office of Surface Mining recently came 
out with an interpretation of the Surface Mining Act Amendments 
of 2006 that limits the ability of the State of New Mexico and 
other western States to use a portion of their coal abandoned 
mine land funds for hard rock reclamation. This is something we 
need to try to fix by legislation. Would you be able to support 
legislation to correct this problem?
    Secretary Kempthorne. Mr. Chairman, I'm aware of the issue. 
I'm aware that a portion of those funds are directed for coal 
specific activity. I would be certainly willing to have 
discussions with you and see what proposals and if we can't 
find a path forward with regard to that.
    The Chairman. Right. Senator Domenici, go ahead.
    Senator Domenici. I'm not sure that you are aware of this. 
If not, just tell me. You'll find out. But New Mexico had 
emergency drought wells, water wells, as a result of funding 
appropriated in 2007. The USBR began construction of several 
water wells for communities in New Mexico. When do you 
anticipate these wells will be completed, and is there enough 
funding to benefit more communities in addition to the funding 
necessary for those for their completion? Are you aware of 
this?
    Secretary Kempthorne. Senator Domenici, I'm not.
    Senator Domenici. Right.
    Secretary Kempthorne. But I will look into that and I will 
get back to you with a response.
    [The information referred to follows:]

Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed are responses prepared by the 
Department of the Interior and its bureaus to questions submitted by 
the Committee following the February 13, 2008, hearing on the fiscal 
year 2009 Budget Request. We apologize for the delay.
    During the hearing, Senator Domenici asked Secretary Kempthorne a 
question relating to the construction of emergency drought wells in New 
Mexico, including when we anticipated completion of the construction 
and whether funding was available to benefit more communities. At that 
time, Secretary Kempthorne committed to providing Senator Domenici with 
a response, and I am happy to include information received from the 
Bureau of Reclamation in this letter.
    According to Reclamation, it has allocated $12 million to the 
Drought Program and funded a total of 42 projects under this authority. 
Ten of the projects are in New Mexico and 2 are on the Navajo Nation, 
with $4.5 in total funding allocated to these specific projects. The 
New Mexico/Navajo Nation projects are expected to be completed in fall 
2008. On March 31, 2008, Reclamation entered into an interagency 
agreement with the Indian Health Service (IHS) transferring 
responsibility for the construction of four of the New Mexico wells to 
the IHS. Reclamation has also entered into contracts with other 
entities for the design of the six remaining wells, and construction is 
anticipated to begin this summer.
    Construction of the first of 2 Navajo Nation wells began last 
month, with the second to begin this month. Of the $12 million 
originally allocated, approximately $520,000 remains available for new 
projects. Together with funding appropriated in fiscal year 2008 and 
other funding carried over, a total of approximately $1.7 million 
remains available for emergency drought assistance this fiscal year.
    Thank you for the opportunity to provide this material to the 
Committee.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.

    Senator Domenici. Alright. Let me talk about oil shale for 
a minute. I do intend to get together with the Senator from the 
State of Colorado and talk a little more about this issue. But 
I'm extremely disappointed by a 1-year moratorium in the fiscal 
year 2008 Omnibus Appropriations Act which makes funds 
unavailable to publish final regulations for commercial oil 
shale.
    Mr. Secretary, has the Administration been able to continue 
the work on oil shale regulations despite this provision?
    Secretary Kempthorne. Mr. Chairman, we have. Or excuse me, 
Senator Domenici, we have. As you noted we do have pilot 
projects: five that are in Colorado, one that is in Utah.
    Senator Domenici. This is oil shale I'm talking about.
    Secretary Kempthorne. Yes, I believe we have the pilot 
projects on oil shale.
    Senator Domenici. Excuse me.
    Secretary Kempthorne. With regard to the moratorium that 
does not allow us to proceed to a final regulation. We fully 
understand that and we are complying. I will tell you that we 
are proceeding however, with the draft programmatic EIS with 
regard to oil shale that will allow public comment to be taken.
    I believe that we are allowed to proceed on draft 
regulations. But we just are precluded from a final. So we will 
respect that. I did submit a letter that was in opposition to 
the moratorium, but I respect the moratorium. I believe we're 
in compliance with the spirit of it.
    Senator Domenici. Right. So you're on the side of those who 
passed the Energy Policy Act and said that we should proceed. 
That was a bipartisan deal. You are attempting to enforce the 
provisions of that law with your letter that you just 
described. Is that correct?
    Secretary Kempthorne. That is correct, Senator Domenici. We 
do believe and that's why we have the pilot projects that the 
oil shale, we need to determine what is the technology that can 
utilize to bring that resource. But again we do follow the law 
and the law currently does not allow us to go forward with that 
final regulation.
    Senator Domenici. Mr. Chairman, I have about 8 or 10 more 
questions. I'm going to submit them. You can proceed as you see 
fit.
    The Chairman. Ok.
    Senator Salazar.
    Senator Salazar. Thank you very much, Chairman Bingaman and 
Senator Domenici. Secretary Kempthorne, thank you for your 
distinguished service to our country. I appreciate your work.
    Secretary Kempthorne. Thank you very much.
    Senator Salazar. No one has spent a lot of time on 
commercial oil shale leasing with my colleague, Senator 
Domenici. But I will just say this that 80 percent of the oil 
shale reserves are located in the State of Colorado. I work 
very hard in a bipartisan basis on this committee to help pass 
the 2005 Energy Policy Act.
    In my view what is happening is we're still moving forward 
with doing all the research and development that has to take 
place for us to see whether or not oil shale can be 
commercially developed. But a delay in the finalization of the 
regulations for commercial oil shale leasing, it seems to me, 
is driven from a common sense point of view of the research and 
development that is currently taking place. It is an issue 
which I would hope to be able to discuss further with Senator 
Domenici.
    Because I do think that one of the things I've often said 
to my colleague is that this committee has worked so hard to 
pull together some very significant pieces of energy 
legislation since 2005. He had the list here in a committee 
hearing that we had last week.
    I'm a proud member of this committee and the many 
achievements that we've had for the last 3 years. Had it not 
been for the two Senators from the land of enchantment leading 
us in this bipartisan effort, we would not have those 
achievements. So, the oil shale issue, you know, Senator 
Domenici, you and I can talk about and see how we can deal with 
it.
    Let me just ask a couple questions that I wanted to ask 
with respect to the budget. The first has to do with what is a 
disruption of what has been a traditional sharing of the 
Federal leasing revenues between the Federal Government and 
State government. Last year also, the Administration proposed 
changing that formula to, I believe, a 52-48 share. I think 
that I have heard that maybe it's a 51-49 share. But that has 
continued on through this year.
    I'm proud to say that we have a bipartisan effort to try to 
get that formula back to its traditional 50-50 split. That 
legislation is sponsored by Senator Barrasso, Senator Enzi, 
Senator Tester, Senator Bingaman and others. I would hope that 
as we move forward that we can have your support as a Western 
understanding Secretary of the Interior about the importance of 
that 50-50 traditional split.
    Secretary Kempthorne. Mr. Chairman, Senator Salazar, I do 
understand your point of view. I'm sure that if I were in my 
previous position as Governor of Idaho I would thoroughly 
understand it. I will note for the record that this program was 
in place up until the year 2000. Then it was discontinued.
    In 2008 the appropriators did reinsert it. In 2009 we do 
have it in the budget. It is a 49-51 split. It is to cover the 
administrative cost, so.
    Senator Salazar. Ok. We will be back on that. I'm sure that 
you will be hearing both from Republican and Democratic 
Senators who will be supporting the legislation that we have.
    I want to quickly shift over to an issue that's also a 
budgetary issue relating to the Naval Oil Shale Reserve in 
Colorado and Anvil Points. From that legislation, a trust fund 
was set up in which the provisions under the law did not allow 
the money from that trust fund to be dispersed until clean up 
of Anvil Points occurred. It was certified by your Department.
    You sent us a letter a couple of weeks ago and talked to 
both Senator Allard and myself about how you were moving 
forward with that. In the President's budget, $24.7 million of 
the money that's set forth in that trust fund essentially has 
been taken to fund the activities of the Federal Government. In 
my view, Secretary Kempthorne, that is a theft on the part of 
the Federal Government of money that should have been 
distributed under a different kind of formula, the 50-50 
formula between the State of Colorado and the Federal 
Government. So I would hope that you would be able to help us 
as we move forward to try to correct what I think is an 
injustice to the State of Colorado.
    Secretary Kempthorne. Senator Salazar, as we have read the 
law and the interpretation of that transfer act, the key point 
is certification. We have not yet been able to certify. The 
reason I was able to send you sir, and Senator Allard, the 
letter is based in large part because on December 23, Governor 
Ritter of Colorado gave agreement to our plan for the clean up 
of Anvil Point.
    We believe that by June we can define the full scope of 
this that our engineers are working with the State of Colorado 
and that we can determine what is the cost of that. The 
certification, once that occurs, which again I believe can be 
June 1, then the State is entitled to receive future revenue 
into that account. At no point does the law allow us to take 
what has currently accumulated and distribute to the State.
    It is only at the point of certification of future revenue. 
The revenue source is, on a monthly basis, anywhere from one to 
$2 million. So there will be a new revenue stream for the State 
of Colorado once the certification occurs.
    Senator Salazar. My time is up, but I will only say, 
Secretary Kempthorne, that the money that has been accumulated 
in that trust fund essentially is coming from the bonus 
payments and the lease royalty revenues that would otherwise 
have been distributed both to the State and Federal Government. 
So for the calculations that you just went through which would 
end up taking this money and putting it into the Federal 
treasury is an abandonment of the traditional rules we've had 
under the Mineral Leasing Act with respect to how we distribute 
those moneys. So that's another one of those issues of 
contention that we have in our State.
    Mr. Chairman, I have a whole host of other questions, but 
hopefully we'll have a chance to get through them. If not, I'll 
submit them for the record for a response.
    Secretary Kempthorne. Mr. Chairman, may I just say.
    The Chairman. Yes, go right ahead.
    Secretary Kempthorne. Senator Salazar, I do understand your 
point of view. Again, I hope you understand our point of view 
that this is the interpretation of the law that we believe is 
in fact the law. So if it is subject to any further discussion 
we'd be happy to have it. But that's our interpretation.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman, and 
I'd like to follow up on Senator Salazar's first question, Mr. 
Secretary, about the Administration's proposal to deduct this 2 
percent from the State share of Federal mineral revenues. It 
says it's for administrative expenses.
    I will tell you, Mr. Secretary, I've been all around the 
State of Wyoming, and the people of Wyoming find this 
offensive. They find it unacceptable. I could ask questions 
about this for the whole 5 minutes. I may, and then maybe if we 
have a second round of questions, go into some other things.
    About 20 States were affected. It's $45 million. I look at 
this and ask what analysis was used by the Administration to 
determine this level of administrative deduction?
    Secretary Kempthorne. Senator, again I would go back to the 
history of this issue where up until the year 2000 it was an 
administrative charge that was assessed. It was stopped. In 
2008 it was an item that the appropriators did include in the 
budget. In 2009, it therefore continues.
    Senator Barrasso. We're going to try and reverse that, Mr. 
Secretary. It's my understanding that my staff has already 
asked your Department what it truly costs to administer the 
Federal mineral royalty collection and auditing for Wyoming. I 
don't know if you have a figure on that. Right now, the impact 
on the people of Wyoming is about $21 million. It is difficult 
for us to believe that that truly is what it costs the 
administration to do the kind of administrative work it's 
talking about.
    Secretary Kempthorne. Senator, I'm sorry I do not have a 
number for you.
    Senator Barrasso. When we take a look at this amount of 
money and we look at what our State does in terms of collecting 
information, auditing, all the mineral severance taxes from all 
the lands, well beyond that of just Federal lands in Wyoming, 
we do it in Wyoming for about a fifth--a fourth of that cost, 
about $5 million. We look at this and say if Washington is 
really interested in efficiency perhaps, then the people of 
Wyoming ought to do all the collection of all the money.
    We could save a lot of money. Then give this back to you, 
your 50 percent and save money for both the people of Wyoming 
and the Federal Government. I don't know if either Department 
considered that alternative of having the folks of Wyoming do 
our own auditing and it will save money in the long run.
    Secretary Kempthorne. Senator, we'd be happy to have a 
discussion with them. I believe we're going to.
    Senator Barrasso. If I could turn to another topic, Mr. 
Chairman. That would be the issue of Sylvan Pass which is the 
area between Yellowstone, that you're very familiar with and 
the folks in Cody, Wyoming, where this is a big issue, in Park 
County. The record of decision was signed in 2007 by the 
National Park Service. It provides for winter use in 
Yellowstone and Grand Teton National Parks.
    The decision included several policies that are 
controversial in Wyoming, not the least of which is access to 
the Park through Sylvan Pass at that East entrance. I 
understand that a group of local citizens and the Park Service 
have had meetings to discuss future management of the pass. I 
also understand that there is a June 1, 2008, deadline to 
finalize an agreement.
    Is the Park prepared to make meaningful changes to the 
decision in order to meet the mission in the pamphlet that you 
brought to my office? I'm talking about the first piece of 
legislation that established Yellowstone Park that said it is 
there for the enjoyment of the people.
    Secretary Kempthorne. Right. Senator, I appreciate the 
question. The citizens of that community have been very 
helpful. The Park Service has been having very good discussions 
and dialog. We're very mindful of the desire for that pass to 
remain open. That's a key access point.
    We're also mindful of a safety issue with regard to 
avalanche. I believe what ultimately is going to be resolved is 
that as long as safety is maintained and we do not have an 
avalanche warning situation that we can continue to have access 
through that pass.
    Senator Barrasso. Thank you very much, Mr. Secretary. I 
look at this from a health standpoint, and I know safety is 
always an issue. In the 35 years that this has been going on 
there with the pass there has not been any, sort of, loss of 
life. Although in the park, loss of life happens every year. 
This past year there have been several heart attacks, motor 
vehicle accidents. These have not occurred near Sylvan Pass or 
because of winter use, but at other places in the park.
    Secretary Kempthorne. Yes.
    Senator Barrasso. Mr. Chairman, with your permission if 
there's going to be another round of questions I may wait to 
start the second set until that time.
    The Chairman. That will be fine.
    Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman. Mr. 
Secretary, it's great to have you back before the committee.
    I've been sitting listening to an interesting dialog going 
on here and your reaction to it: a moratorium on final rules on 
oil shale, a cut in royalties to the States, and the balancing 
act that has to go on for the continued development of our 
natural resources. While States want it done in an 
environmentally sound way, they also want to be rewarded for 
the impact that occurs. There is some balance in the mind of a 
citizen of the State of Wyoming or Colorado or Idaho that 
they're being compensated for those complications that might 
occur as a result of development of resources on public lands.
    I think it is phenomenally counter productive that in a 
rather arbitrary way, from a financial standpoint that these 
kinds of things occur. It seems to be off balance if there is 
no reward for the gains that are made for the national public 
to the State public. How can we justify development? Now that's 
a limited logic, but it is a logic that exists in our States.
    I'm going to transform you now as Governor of Idaho, once 
upon a time ago, to Lemhi County and to Idaho County and 
suggest a $33.9 million cut in PILT in counties that are 
tremendously strapped for resource, really is unacceptable. We 
can't live with that. I'm glad the chairman is a champion of 
PILT. I've worked with him and want to continue to work with 
him on it.
    I'd ask you to take a trip to Fort McMurray, Alberta, 
Canada where one of the world's renaissance in oil tar sands 
development is going on. Now the molecular make up of tar sand 
verses shale and all of that, it's not apples to oranges. It's 
more like oranges to nectarines. They're both citruses, if you 
will.
    But Alberta led some years ago and they allowed their 
companies to lead at a time that was unprofitable to do so into 
an area of profitability today. They're verging on two million 
barrels of what's called bitumen a day produced up there. 
They're doing it in a--it's not an in situ concept of the kind 
that Shell is attempting to deal with the oil shale. It's more 
of a leaching process, but it involves heat underground. The 
environmental impact appears to be limited.
    My point is this, a billion dollars a day is going off 
shore of this country to buy oil. Senator Domenici suggests 
that that is a drain of money that will make us an increasingly 
poor Nation. As I told you as you entered this new position as 
Secretary of the Interior, you would be, in part, in play with 
the largest oil reserves in our Nation and some of the largest 
in the world. I'm amazed that we can't perform in the 
responsible way that Alberta is performing today in developing 
those resources and making ourselves less limited.
    Now having said all of that let me go to the outer 
continental. You've given an explanation for the Department's 
efforts there as it relates to your concerns and our concerns 
about the health of the oceans. In the outer continental I see 
your budget is proposing a USGS study in inventory of the OCS. 
Does that inventory include seismic activity for the purpose of 
determining potential reserves, subsurface or subfloor?
    Secretary Kempthorne. Senator, it does not. It would be the 
mapping that we do not currently have.
    Senator Craig. But it would--one of the things we don't 
currently have are modern, current evaluations of reserves 
based on current technology uses. Most of our reserve 
evaluations are decades old. But this would not include that.
    Secretary Kempthorne. It would not include it. It would be 
a natural follow on.
    Senator Craig. Ok. Last question at least for this round. 
Idaho went through its worst fire season in history. Big burn 
in Idaho, two million acres, a quarter of that which burned in 
the Nation. I see some shifts going on here. Your budget moves 
the wild land fire account of BLM to the Office of the 
Secretary because fire management is handled in the local 
bureaus in the Department. I understand that.
    I mentioned the importance of this recently when I just 
held a fire summit out in Idaho with local, State, Federal and 
BLM was there. They're a big player, as you know. In fact one 
of the biggest BLM burns in history occurred in the Murphy 
complex last year, mostly in Idaho, partly in the Jar Bridge in 
Nevada.
    Talk to us about what you see this doing. The kind of work 
that you, I would hope, are doing cooperatively with the U.S. 
Forest Service. Both in part, Interior and Forest Service 
budgets, call for huge cuts in very important areas which would 
seem to leave holes in the Agency's combined preparedness as we 
go into what, if historic trends exist, would be another 
historic fire season.
    Secretary Kempthorne. Senator, first I'd like to say with 
that extraordinary fire season the heroes are the men and 
women, those firefighters, that were out there in the line. I 
know that you have traveled to the front line. I know you've 
seen it. The absolute peril that these courageous men and women 
put themselves into to protect lives and property and resources 
is incredible. They deserve our great appreciation.
    Senator Craig. Without question.
    Secretary Kempthorne. I also had a meeting with fire 
managers via teleconference last week. We're seeing the nature 
of fires changing. We're seeing a fire season that begins 
earlier and lasts longer. We're seeing a fuel load that 
continues to build. We're seeing trees that are stressed 
because of the scarcity of water.
    We have made an emphasis on the initial attack. Rather than 
letting fires to get out of hand and to the point that you 
simply cannot turn them. We now have policy of the initial 
attack with 97-percent success on that initial attack.
    We also share resources with local units of government 
which often are first responders. In the past it has been the 
sharing of both training and equipment, now it is more in the 
training and in that partnership that exists with State and 
local.
    Senator Craig. Can I interrupt you there to say if your 
policy becomes initial attack and the Forest Service is this 
and BLM enforcers of this lands abut each other. Are you not in 
conflict?
    Secretary Kempthorne. No. We have the same policy.
    Senator Craig. Oh, well, it wasn't practiced in Idaho last 
year on initial attack in many fires. It was done based on the 
ability to contain, the cost involved. Some fires, not BLM, 
Forest Service, some fires were allowed to burn. I think you 
ought to look at that in relation to this cooperative effort 
because my reaction and I think most Idahoans would suggest 
it's not in sync.
    Secretary Kempthorne. We will have that discussion. As you 
know the National Interagency Fire Center in Boise, Idaho is 
the combined efforts of U.S. Forest Service, BLM, Interior.
    Senator Craig. Yes.
    Secretary Kempthorne. But Interior's and BLM is that we 
attack the fire.
    Senator Craig. Yes, it is that.
    Secretary Kempthorne. I went down to the Murphy Complex. I 
met with the ranchers down there who suffered terrible 
devastation of their land, but we also had a fire crew. We 
asked the captain of that crew what did you experience. What 
were your orders? Did you attack? After he explained all that 
they had done, he received a standing ovation from those 
ranchers.
    So, the other thing, Senator, that is very much part of 
this budget and U.S. Forest Service is the hazardous fuels 
reduction. It is critical. I would also add that the Wild Land 
Urban Interface. It is estimated today that 60 percent of new 
homes are now being built in a Wild Land Urban Interface. 
Without acknowledgement of that, we're in trouble. We're now 
directing that much of the hazardous fuels reductions are 
toward those Wild Land Urban Interfaces.
    Again the Angora fire that was in the Lake Tahoe area, you 
could fly over that and you could see lines where you had had 
fuels reduction and how it helped the firefighters. Too, I 
would just note the high school in that community was just five 
trees deep from being lost, but it wasn't lost because 
ironically a vast majority of those firefighters had at some 
time graduated from that high school and they weren't going to 
lose it. So again it shows you the tremendous courage of these 
firefighters.
    The Chairman. Why don't we see if Senator Murkowski can get 
her 5 minutes in on this first round before we rush to this 
vote? Go right ahead.
    Senator Murkowski. Thank you. I appreciate it and thank 
you, Mr. Secretary for being here this morning. I just received 
the Alaska Lands Transfer Acceleration Act report this morning. 
It was delivered to my office just as I was on my way here. So 
if I haven't been as attentive to your comments, it's because 
I've been reviewing the report.
    We had expected it a couple of months ago and we've had a 
little bit of an opportunity to find out where we are with it. 
My questions to you, at least on this first round, relates to 
where we are with the Land Transfer Acceleration, which is a 
huge priority in the State of Alaska.
    We've talked a little bit about the budget. You've 
indicated that even though I guess it's a net reduction of $2.9 
million, that in your opinion, that's not bad because it could 
have been a heck of a lot worse. From our opinion it's a heck 
of a lot worse because we're not going to be making the goals 
that we set out when we passed this Act several years ago.
    Looking at the report, the paragraph that concerns me 
probably the most states here that the principle obstacle to 
completion of the land transfer is the massive amount of 
surveys still needed for issuance of final patents. We knew 
that this was going to be the case all along. Why have we not 
seen within the budget the support required to do these 
surveys?
    I understand that just within the Cadastral Survey area of 
the budget we've got a net decrease of $1.1 million. We're 
never going to be able to meet our goals if we can't get the 
funding for the surveys. Give me your assessment as to what I 
can tell my constituents about the promises that this country 
made to fully and finally convey lands to the State, to Alaska 
natives and to finish this project.
    Secretary Kempthorne. Senator, I'm very mindful based on 
conversations I've had with you and with Senator Stevens and 
with the Governor that your statehood is going to be celebrated 
in 2009. I know the objective was that we would be able to 
truly celebrate. There will be approximately 96 percent of the 
lands will have been identified, transferred in 2009, by 2009. 
But you are correct in identifying that it is the cost of the 
surveys, therefore to allow the patent.
    In a priority basis in this budget of 2009 we have $33 
million that allow us to go and continue to identify the 
remaining lands. So in constrained budgets, we've maintained 
that priority to get the identification done and then 
acknowledging that we do need to have the funds for the survey.
    Senator Murkowski. It's not just the surveys. I also notice 
in the report that because of cost considerations, there was no 
Alaska field office established that would allow for 
adjudication. There's still some adjudicative resources that 
have been diverted.
    We simply haven't put the effort to make it all come 
together. I'm not minimizing that this is not a complicated 
process. We knew it because of the overlapping claims that are 
out there.
    But we also agreed that in order to meet the goals, it 
would require an aggressive effort and that aggressive effort 
was going to have to have the requisite funding behind it. I 
need to express my dismay that we haven't been able to commit 
those resources to keep the promise that we made to the State 
of Alaska. You need to know that I will keep pushing. I'm sure 
Senator Stevens will keep pushing on this because 50 years, we 
think, is far too long to wait.
    For some with the native lands, they've been waiting for, 
in excess of, 50 years. So we've got to figure out how we 
allocate the resources, working together with all of the 
agencies to make this, to realize this. Mr. Chairman, I know 
we've got a vote and I do have more questions of the Secretary, 
but I'm assuming we're going to have a second round when we 
come back?
    The Chairman. Mr. Secretary, are you able to stay if we 
take about a 15 minute break and then come back?
    Secretary Kempthorne. I would be happy to.
    The Chairman. We appreciate that.
    Secretary Kempthorne. Mr. Chairman, may I just go through 
that----
    The Chairman. Yes, go right ahead.
    Secretary Kempthorne [continuing]. Issue with Senator 
Murkowski. BLM has added additional staff on this project and 
that's based on the 2004 activity to accelerate this land 
transfer.
    Senator Murkowski. Yes. We just need more.
    Secretary Kempthorne. Yes, we do.
    Senator Murkowski. We need more. Ok. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. Senator Domenici, did you want to 
make any statement before we break for this vote?
    Senator Domenici. I can't come back so I just would like to 
make a statement. I have just been trying to put together a 
series of facts about what's happening to our country because 
of our dependence upon foreign oil. Let me just make a 
statement.
    We are now expecting to spend $400 billion a year on oil 
that we are going to need for our own country, principally for 
transportation use, $400 billion a year. The conclusion 
everybody's going to have to make whether they like it or not 
is that we are getting poorer as a people and as a Nation as a 
result of this gigantic, sucking up of our resources annually 
to pay for oil.
    Second, nobody knows how long this great country can sit by 
and do that and remain a powerful Nation, nobody knows. But we 
do know we're getting poorer and those others, some of them 
small countries, are getting richer and richer. We get poorer 
and poorer.
    I wonder if there are some things that we did not do, Mr. 
Chairman, over the past year, 2 years, while we worked so hard 
on energy matters. If there are some things we didn't do 
because we didn't quite have in mind the urgency of the 
situation. This situation almost cries out for the United 
States to go to war, not war against any country, but mobilize 
itself like it's having a war on dependence and act like the 
great country that it is. Otherwise, that dependence is going 
to kill.
    It's an incredible situation. I, myself, am going through, 
Mr. Chairman, what we passed over or what we refused to vote on 
or passed, didn't pass by one vote or the like. I'm going to 
come up with that and see if I could submit it to you or 
someone saying is it worth re-considering.
    Would we consider these differently if we knew the 
situation? I'm not sure what the American people would say 
about some of these if they quite understood $400 billion a 
year for the foreseeable future is from us to another country 
saying, thank you. You have it and we'll get poorer by the day. 
Thank you.
    The Chairman. Thank you very much and we will reconvene in 
about 15 minutes.
    [Recessed.]
    The Chairman. Ok. Why don't we get started again here and 
just do a second round of 5 minutes each and see if that 
satisfies people's need to ask questions. We hope it does. 
Senator Barrasso I think is next.
    Senator Barrasso. Thank you very much, Mr. Chairman. I 
wanted to first, Mr. Secretary, ask about the Range Improvement 
Funds. Wyoming ranchers, ranchers all around the country, 
depend on Range Improvement Funds. It's their grazing fees that 
pay half of the bill. The program in the past has completed 
valuable projects to improve range land health--improve 
livestock management.
    This current budget eliminates the improvement funds. It 
just sends the grazing fees back to the Treasury. It seems to 
me that the work won't get done, so I have concerns. Can you 
just visit with me a bit about if you find these programs 
successful, if money has been used successfully in the past, 
and why this is not included for the future?
    Secretary Kempthorne. Yes. Senator, you're accurate. BLM 
will continue some activity with regard to the range. I will 
also say that you see that we're putting as a real priority the 
Healthy Lands Initiative that is going to be of great benefit. 
There's been a tendency in the past to look at these issues on 
an acre to acre basis instead of mountain top to mountain top.
    We need to take this bigger look. So there is a tremendous 
increase in the Healthy Lands Initiative which, I believe, is 
going to benefit many of the ranchers and the farm families and 
the people in the West.
    Senator Barrasso. If I could just move to another topic 
that would be the abandoned mine lands payment under the Office 
of Surface Mining. In looking through this I couldn't find the 
exact line, but as you know, these funds are to be distributed 
in the form of mandatory funding beginning with this current 
fiscal year. We have the amount that goes to each of the 
different States. The number in Wyoming is in the $80 to $90 
million range, supposed to be made in 7 equal installments over 
the next years.
    It seems only the Federal Government can translate equal in 
seven installments into what has now turned into a grant 
program an uncountable number of unequal grants. It is 
something that we find bizarre.
    I visited with all members of the Legislature in Wyoming 
this past Sunday. They had many questions on this because they 
have a number of possible proposals. Under the Department 
rules, it seems to me each one is going to require an 
individual line of credit. But there's not really any 
additional staff that you have to work on this. There's not 
really any funding that's included in your budget to process 
all of these requests instead of just making the seven equal 
installments.
    Can you give me and can you give the people of Wyoming the 
assurance that we need that this distribution decision that's 
been made by the Administration is not going to overwhelm your 
Department's resources and we're actually going to get the 
money?
    Secretary Kempthorne. Yes. Senator, first, I will note that 
the States that are eligible for this are finding that in 
virtually every case the total dollar amount is doubling from 
what has previously been available to a State. The solicitor 
has reviewed the law and again, this is the opinion that the 
law states that we must now do it in, as you have identified, 
over the period of 7 years. So one-seventh of the amount each 
year and that it is in the form of a grant as opposed to 
directly transferring to the States where they would be the 
beneficiaries of any interest earned, etc.
    Senator Barrasso. It's fascinating because you've sat on 
both sides of the bench here--and for those who participated in 
writing the law, who wanted nothing but clarity in the law--
that all of a sudden someone can flip that so that the money 
doesn't go right to the States.
    This is money that's been collected for the last 30 years 
by the Federal Government, and the people of Wyoming have still 
been waiting for the first penny. The spigot has not yet been 
turned on. That's what we're waiting for. That's why the 
Legislature, who is meeting today and I'm going to go back and 
visit with them next week, continues to ask the questions and 
wants to make sure that as requests come to you that you have 
the man power and the available resources to make sure that 
those checks go out in the full amount.
    Secretary Kempthorne. That--and, sir, that's the full 
expectation. Too, I know you don't mean it, but as you say I've 
been on both sides, that I'm not the one that flipped it.
    Senator Barrasso. No, no, absolutely, sir--but from an 
administrative standpoint.
    Secretary Kempthorne. Right.
    Senator Barrasso. This is continuing to be a major problem 
for the people of Wyoming.
    Secretary Kempthorne. Too, it probably doesn't make some of 
these decisions easier for you, but I do have empathy because I 
have sat in your seats literally. As a Governor, I understand 
what it is and I believe in States' rights. But I have to 
respect the brand I ride with now and hopefully that experience 
I've had in the past helped me be more effective in being a 
good partner with those of you here.
    Senator Barrasso. Mr. Chairman, I have pages of questions: 
Coal lease, bonus payments, endangered species. With your 
permission I'll just submit these in writing?
    The Chairman. That would be most appreciated.
    Senator Barrasso. Thank you, Mr. Chairman.
    [Laughter.]
    The Chairman. Senator Craig.
    Senator Craig. Thank you, Mr. Chairman. For your emotional 
situation I have two. Alright, fine enough. For your staying 
power, Mr. Secretary, they'll be limited.
    I'm going to take us back to fire again because I think 
it's something that we are not dealing with well as a Nation 
nor are our two primary agencies, Forest Service, USDA and 
Interior dealing with it well. You're bringing to us a fire 
budget that's based on 10-year averages. That's what OMB does. 
They do their 10-year dance and they bumped you up just a 
little bit.
    What they did not take into account was the $700 billion we 
put in supplementals. We put in two early on in the year and 
five later on in the year. I offered the five in Interior 
because it was obvious to us that we simply weren't going to 
make the grade.
    You are current in your funds for services down a couple 
hundred million dollars that they haven't dealt with yet. You 
are the two primary agencies that cooperate. You've mentioned 
the Interagency Fire Center that are multiple agencies. 
Interior part or BLM, Forest Service and U.S. Fish and Wildlife 
Service and it's a very important resource for the region, if 
not the Nation.
    Idaho went through its worst fire season in a long while. 
Our air quality in Idaho was the worst summer ever. Even the 
folks of the Boise Valley began to grumble a bit because a lot 
of that smoke came off the fires and settled into the valleys. 
Even some of our recreationalists didn't see the beautiful, 
pristine State they thought they were coming to visit and play 
in. Our outfitters lost millions of dollars in cancellations.
    So this is a very real problem. Not only the loss of 
habitat, the loss of wildlife, the loss of watershed, putting a 
lot of people at risk, you mentioned the firefighters. As we 
all have great respect for. But we also lost a lot of public 
land resource that ultimately can be made into dollars.
    I am extremely frustrated at a Congress and agencies that 
just don't quite get it yet. Forest Service is probably, in 
fire fighting, so dysfunctional today that they really can't 
deal with it. Their money is gone. It's dried up. They don't 
know how to fund them, and we haven't come up with a solution 
yet.
    BLM is a bit different. But you also tradeoff the Forest 
Service a bit. They do a little bit of your fire fighting. 
There's a resource exchange there. It helps make you look a 
little better than you really are, in my opinion.
    But you're not bad. You're right to engage the ground and 
the people on the ground because there are problems out there 
as it relates to coordination. But I really believe that you, 
the Secretary of the Interior, and the Secretary of 
Agriculture/the Assistant Secretary in charge of the U.S. 
Forest Service ought to sit down and come up with a plan to 
fund fires realistically and honestly and fairly.
    Yes, I understand the urban wildlife, or urban interface. I 
understand trophy homes. I know what's going on out West as it 
relates to we're not fighting to save resources anymore, we're 
fighting to save human structures. That's changed the dynamics 
of it a little bit.
    But I look at your budget and I just don't see that it's 
adequate. I think you're hoping we'll bail you out. Your 
response to that.
    Secretary Kempthorne. The response would be we will fight 
whatever fires nature throws at us. Whether it's Congress 
bailing us out, we're going to do what is necessary to protect 
lives, properties and the resources. That is our 
responsibility. That's our mission.
    Senator Craig. Yes.
    Secretary Kempthorne. We do base a budget that's on a 10-
year average of the past forest fire season. If you had a 5-
year average it would be higher dollar amounts.
    Senator Craig. In a few years it will get there.
    Secretary Kempthorne. Because the nature of these fires are 
changing dramatically.
    Senator Craig. Very much so.
    Secretary Kempthorne. There is a warming that is taking 
place. The drought is expanding. I would also say that in 
addition to what you're talking about, Senator Craig, we're 
doing all that we can to be just as aggressive on the re-
restoration----
    Senator Craig. Yes.
    Secretary Kempthorne [continuing]. Of the resource so that 
we don't just have land that's lost all of its vegetation.
    Senator Craig. Yes.
    Secretary Kempthorne. You have erosion problems. We have 
taken measures such as the pre-positioning of fire assets. When 
we determine that because the Santa Ana winds were setting up 
last fall in California, we actually had rolling stock and 
personnel in place and C-130s prepared to go. Then when the 
fire did ignite, as horrible as that fire was, it would have 
been far worse if we hadn't pre-positioned.
    Senator Craig. That's correct.
    Secretary Kempthorne. So we're incorporating as many of 
these new techniques and technologies as possible. Bark beetle 
infestation. Again, Senator, I know you're so familiar with 
this because we're both from Idaho where we've seen bark beetle 
infestation. Where we're not getting seasons that during the 
winter are long enough they're killing the beetle and it just 
comes back in the spring and it continues to grow.
    So it's a series of these elements that all combine. So I 
understand what you're saying.
    Senator Craig. Thank you. Last question, water census. 
Critical to the West. Critical to the Nation. Could you give us 
a little more on what you see that doing for us as a country?
    Secretary Kempthorne. Yes. Senator, we have not had a water 
census in 30 years. We have stream gauges which are measuring 
tools. We need to put in additional stream gauge in a variety 
of the watersheds. We need to go back and put in new stream 
gauges in a variety of areas that have the latest of 
technology.
    It's going to allow us to modernize equipment that is 
currently deployed but it's also going to allow us to increase 
the number of gauges. So that we can then come to some decision 
on an acknowledgement that water is finite. It is not 
unlimited.
    It's also going to allow us to look at desalinization and 
how that might--that technology might be made to be cost 
effective. We'll integrate information of all of these 
different watersheds. As you know we've been working with the 
Southeast, with Georgia, Florida, Alabama because they're in 
drought. Now you see North Carolina, South Carolina, Maryland.
    Interestingly enough, Senator, I--last week when I had a 
briefing on during the next 6 months where do we believe that 
we'll begin to see the outbreak of fires. I was expecting to 
see the traditional map and that during those 6 months it would 
be in the West. It was the East coast and it was Texas.
    Senator Craig. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    Secretary Kempthorne. Thank you very much.
    Senator Craig. We're glad to have you with us.
    The Chairman. Senator Wyden hasn't had a chance. Go ahead.
    Senator Wyden. Mr. Chairman, I'm happy to have----
    The Chairman. We've had one round of questions and Senator 
Salazar participated in that as did the rest of us. So you go 
ahead.
    Senator Wyden. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary. As you know at my request the Inspector General for 
your Department is looking at a variety of instances where 
there's been political interference in a number of the 
Endangered Species Act decisions. I've been very troubled about 
this because I think it's a triple whammy of waste.
    The first instance of waste in taxpayer's money occurs when 
the decisions are made by political interference. Then when the 
tainted decisions get challenged, you've got to go through 
these formal reviews to determine whether the decision is 
tainted. Finally after the wrong doing is exposed, then you 
have to go out and re-do the decision that has been tainted by 
political experience. So the bottom line is the taxpayer, under 
what's been going on in Interior, ends up spending three times 
to get the right decision instead of just once if you didn't 
have all of this political interference.
    I think a lot of this stems from some of the ethical 
practices that have been tolerated at the Department of the 
Interior. I want to ask you specifically about a change that 
you made. You have put in place something called the Ten Point 
Plan, the model of the ethical workplace. You've got something 
called a Conduct Accountability Board that would review the 
allegations of wrong doing and has become clear it got off to a 
pretty rough start when the first chairman then, Mr. Limbaugh, 
resigned to become a lobbyist.
    But what I need to understand and maybe I'm missing 
something. So I want you to walk through this with me. Your 
Conduct Accountability Board as it's been constituted can only 
review matters referred to it by the Deputy Interior Secretary, 
that's Miss Scarlet or the Chief of Staff.
    So if that's the way it unfolds and I want you to make sure 
I am getting this correctly. Someone like Steven Griles, who 
engaged in these flagrant, ethical abuses and was the 
predecessor of Miss Scarlett, if he was still at Interior based 
on what I've been able to sort out. What I'm curious about is 
whether he could have said whether his own ethical charges 
would have been eligible for Board Review. Now maybe there are 
some other policies that speak to this.
    Secretary Kempthorne. Right.
    Senator Wyden. But as we've looked at the Conduct 
Accountability Board it does seem to say that they review 
matters referred to by the Deputy Interior Secretary, now Miss 
Scarlett or the Chief of Staff. So----
    Secretary Kempthorne. Right.
    Senator Wyden. [continuing]. Maybe enlighten me on how this 
works.
    Secretary Kempthorne. Senator, I appreciate the question. 
First, the Conduct Accountability Board never existed before. 
Because of issues raised by the Inspector General, because of 
activities that had taken place internally, I determined that 
we needed to have that.
    One of the things that was identified was the fact that 
there was a sense that those who may be in a management tier 
would not be held to the same standards as everybody else 
working at Interior. This Conduct Accountability Board was then 
put in place to deal with that. The--allowing the Deputy 
Secretary and the Chief of Staff to make a determination of 
what would go to that board was so that they weren't getting 
everything that came.
    It's to deal with those areas where we now have a situation 
that there is disagreement or that we need to have a thorough 
review. We've received an information report from the Inspector 
General. I will also add that on that Conduct Accountability 
Board are two career members by design.
    Now you say, what about a hypothetical where could a Deputy 
Secretary make a determination that they may be involved in an 
issue and they would say I'm not going to let this go to the 
board. I meet on a monthly basis with our Inspector General. I 
would hope future Secretaries would continue that policy.
    It is in that meeting, one on one, that the Inspector 
General tells a Secretary what may be under examination. What 
is a finding? What is a flash report or if there's concerns 
about particular personnel. You can well imagine that if it 
deals with someone who has the ability that could defer having 
information go to the board a Secretary is going to step in.
    Senator Wyden. So, what you're saying is that my analysis 
is right with respect to how the Deputy Interior Secretary, now 
Miss Scarlett, previously Mr. Griles or the Chief of Staff can, 
in effect, make judgments about what would be eligible for 
board review. But you're saying on your watch you would step in 
if that was the case on the grounds that it was inappropriate. 
That's what you're really saying.
    Secretary Kempthorne. Senator, No. 1, I have--I believe, 
firmly, in the personnel that I have in that Deputy Secretary 
position, in that Chief of Staff position, individuals, that if 
they feel there is any question that may appear to influence 
their reputation they're going to recuse themselves and they're 
going to identify it.
    Senator Wyden. One would hope, but, you know, Mr. 
Secretary, after the run at your agency, and Mr. Griles, Mr. 
Abramoff, Julie McDonald. The fact that every time we turn 
around people from around the country are talking to us about 
political interference at the Department. It doesn't really 
breathe a lot of confidence and that is my concern.
    Secretary Kempthorne. Senator if I may respond to that.
    Senator Wyden. Sure.
    Secretary Kempthorne. Rick Cusick, who is the Executive 
Director of the Office of Government Ethics. I asked him to 
please come into my Department, to bring his team and to review 
what are our practices at the Department of the Interior and 
what are the best practices that are utilized throughout the 
Federal Government. I believe that we've identified something 
like there are 80 best practices, of which Interior already had 
in place, 60 plus and now moving on the others.
    I believe that Interior in other circles is actually being 
utilized as examples of some positive. I was also invited last 
year down to the Ethics Officers Association, some 600 
individuals, who are the Ethics Officers throughout the Federal 
Government to give a presentation of what we've done in the 
Department. Now I can't sit here and tell you that there won't 
be other issues in the future because we're dealing with 
humans. But I have a high regard for the employees that work at 
the Department of the Interior.
    Yes, there have been problems. Yes, there have been actions 
taken. Yes, people have--are paying consequences.
    Senator Wyden. Mr. Secretary, let's not turn this into a 
referendum about the nature of the employees. These are 
phenomenal people. This is about the political leadership.
    This is about an agency that has been racked by ethical 
transgressions where your own Inspector General has stated that 
short of a crime. This is his words. Short of a crime, anything 
goes. That's what your Inspector General has said. He is 
looking at Julie McDonald now to really determine what the 
implications are today both with respect to species and wasting 
money.
    This is not about rank and file employee at the Department 
of the Interior. Those are professional people. They do an 
extraordinary job and they shouldn't be subject to the kind of 
political interference that has racked this agency.
    Let me turn now, if I could to----
    The Chairman. Could you get through yours?
    Senator Wyden. I'd be glad to wait for another round.
    The Chairman. Why don't we do that.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Secretary, I 
just want to tie up the line of questioning about the Land 
Transfer Acceleration Act. At the present rate of 
appropriations and given where we are when would you estimate, 
give me a best guess estimate, in terms of when we will see 
completion of the State, the Native Corporation Lands, the 
allotees. When will this process be patented and closed out?
    Secretary Kempthorne. Yes. Senator, what I'd ask is if 
you'd let me review that and make a determination of what we 
believe would be the timeframe.
    Senator Murkowski. Ok. I'd appreciate it. Because in 
looking at this status report it gives me great concern that 
we're looking at several decades. So I'd like to have a better 
handle on that if I can.
    I want to ask you, we've had conversations about the polar 
bear, certainly a big focus up in the State of Alaska right 
now. There's several other petitions to list right now. We've 
got the Pacific walrus. We've got the ribbon seal, clearly some 
issues that are facing us in Alaska that will have a severe 
implications for what happens up there.
    Within the budget you're proposing to cut the Pacific 
Walrus Distribution Survey as well as the Walrus Cooperative 
Research Program with the Alaska natives. Further in the budget 
you've got a budget only calling for $42,000 increase in 
funding for the listing program. In view of all that's 
happening up there right now and recognizing that we may see 
additional listings come forward, do you think that this is 
adequate?
    We know that the only way that we'll be able to be prepared 
with these listings is if we have the research. That research 
takes money. Are we going to be ready?
    Secretary Kempthorne. Senator, it's a very valid question. 
I appreciate your emphasis on the research because that's what 
we're endeavoring to do.
    Senator Murkowski. Yes.
    Secretary Kempthorne. Utilizing research such as by the 
U.S. Geologic Survey. If I may go back to your point about 
walruses and your reference that it's been cut, but in the 
Minerals Management Service, in their budget are three 
different studies with regard to walrus and NOAA is also doing 
a study on the walrus. So we're continuing those efforts.
    Specifically to your question. We believe we do have the 
funds necessary in 2009 to deal with the issues that we will 
have with regard to the Endangered Species Act.
    Senator Murkowski. We hope so because, again, we need to 
make sure that we've got that scientific research. We've got 
the basis for the decisions that moving forward will be 
absolutely critical to us. So I do hope that you're right 
there.
    I want to ask just one last question for you. This is 
regarding the letter that you have received from, I believe 
it's 47 of us here in this Senate that have asked that law 
abiding citizens be allowed to carry firearms, consistent with 
the laws and in the parks and in the refuges. Can you give a 
status on this? Can you indicate whether or not you're looking 
at granting that exemption or where we are with that, please?
    Secretary Kempthorne. Senator, I would say that when I 
receive a letter from one Senator, I take it seriously, or one 
member of the House. To receive a letter from 47 Senators, I 
take very seriously. So we will review and I will respond to 
that letter. I think----
    Senator Murkowski. Do you have a time you're looking at?
    Secretary Kempthorne. It will be in the near future. I 
think you can appreciate that as we're dealing with the roll 
out of the budget and then preparing for these series of 
hearings. This has been----
    Senator Murkowski. I know there's an awful lot of people 
that are very anxious about this and are looking to see that 
such an exemption would be made available.
    Mr. Chairman, I do have some additional questions 
remaining, but I will be submitting those to the record. I 
thank you for your responses today.
    Secretary Kempthorne. Thank you very much.
    Senator Wyden. [presiding]. I thank my colleague. I want to 
now turn, Mr. Secretary to the ramifications from these ethical 
transgressions for the budget. Now in the past year since the 
resignation of Ms. McDonald there have investigations launched 
by the Inspector General and by the General Accounting Office 
into almost two dozen endangered species decisions. The Fish 
and Wildlife Service has stated that seven endangered species 
decisions weren't correction.
    This is the comment to the Fish and Wildlife Service though 
it will not address four of those until ``funding is made 
available.'' So what we're seeing is your own folks are saying 
that these ethical transgressions need to be corrected and they 
aren't being corrected because of budget issues. Now fiscal 
2009 proposes a budget for the endangered species of $146.8 
million and that's a decrease of about $6 million from the 
fiscal 2008 enactment of $153 million.
    So my question, Mr. Secretary, is given all these 
investigations and the likelihood that more decisions will 
require further funding. How would you see Fiscal `08 funding 
be made available to revise the affected decisions?
    Secretary Kempthorne. First, Senator, I would point out 
with regard to the issue of those decisions, there were 400 
that Mr. Dale Hall, the Director of the U.S. Fish and Wildlife 
Service did undertake to review utilizing regional directors of 
the U.S. Fish and Wildlife Service. We also brought on Dr. Jim 
Mosher, who's a Ph.D. biologist who has been reviewing this. 
There are seven that have been identified.
    The funding is available for the review. We believe that in 
2008 the one issue will be able to be resolved. The others 
would be in 2009.
    Senator Wyden. So you would see the fiscal 2009 budget 
rectifying the shortfall that your own people have identified.
    Secretary Kempthorne. I believe so.
    Senator Wyden. Ok. Now in early December, the Fish and 
Wildlife Service and that was again very recently acknowledged 
that former Deputy Assistant Secretary Julie McDonald had 
inappropriate influence over endangered species science. The 
conservation organizations that look at this kind of thing 
estimated that $25.2 million is required in FY 2009 for species 
listing to assist in reducing the backlog of needed endangered 
species decision. This is about $7 million above the fiscal 
year enacted budget of $18.26 million.
    Now the President's budget further cuts funding for 
endangered species despite growing needs for listing, 
protection and now revision of the decisions that the 
Department's personnel have interfered with. My question would 
be, how do you propose fulfilling your obligation of protecting 
endangered fish, plants and wildlife in reducing this very 
substantial backlog while spending less money.
    Secretary Kempthorne. Senator, it is a matter that we do 
have to prioritize, which we will do. We do. We actually have a 
slight increase over the 2008 enacted.
    Also I will tell you that the Healthy Lands Initiative part 
of our approach is not waiting until a species gets to the 
point that it is either threatened or endangered. But if we can 
help that species, that's why. For example, you see the Bird 
Initiative which is included.
    It keeps the funding source of the refuges at $36 million 
which Congress placed in the 2008 budget. We add to that $9 
million additional to help us with a large variety of birds, so 
that we don't get to the point that they're threatened or 
endangered.
    Senator Wyden. Now, I would also like to get a sense of 
what the costs to the taxpayers have been from Ms. McDonald's 
political interference. Talking here about: staff time, agency 
resources for reviewing a policy decisions, the triple whammy 
that I have described. Can you get back to us say within a 
month and give us your estimates of the costs incurred to 
taxpayers from just Ms. McDonald's political interference?
    Secretary Kempthorne. We'll examine that and see what 
evaluation we can leave.
    Senator Wyden. Now the wrong doings of people in the 
Department have had another effect. The $153 million allocated 
for FY 2008 to the Fish and Wildlife Ecological Service for 
endangered species protection has also raised concerns about 
whether that is being used both efficiently and appropriately. 
What can you tell us in terms of assurances about the moneys at 
the Fish and Wildlife Ecological Service?
    Secretary Kempthorne. Just that, again based upon their 
level of professionalism, the serious nature of the projects 
which they work on. Again, I think it is something that is----
    Senator Wyden. I'm not going to repeat myself. This is not 
about the employees down at the ground level. This is about the 
question of political interference.
    I hope you'll take another look at it because it's one 
thing to talk about these employees. I know many of them in my 
State. They're extraordinarily professional.
    But they're concerned about is that their hands are being 
tied. I'm concerned about the Fish and Wildlife Ecological 
Service and what's being done there. I hope you'll get back to 
me in writing.
    Secretary Kempthorne. Senator Wyden if I may. Director Hall 
has issued guidance to the Fish and Wildlife Service with 
regard to science and ethics. If you'd like I'll make his 
memorandum* part of the record.
---------------------------------------------------------------------------
    * Document has been retained in committee files.
---------------------------------------------------------------------------
    Senator Wyden. That would be welcome. I think what we've 
seen in the past is there've been an awful lot of guidances and 
they have not always been honored, Mr. Secretary. I think 
that's why you've got the Inspector General looking into such 
an array, almost unprecedented array of ethical transgressions 
is that these guidances aren't being followed. The message, I 
regret, has not been one that shows a sense of urgency that I 
think is warranted particularly given the history.
    Now let's talk about some things again that I think are 
pretty clear. On the budget the Department is proposing a cut 
in payment in lieu of taxes in a program. This is of enormous 
importance to rural communities. They're hanging by a lifeline.
    I go for town meetings in these communities and people ask 
me about these ethical transgressions, no moneys being chewed 
up to try to deal with those. The PILT Program is being cut. 
What's going to be done for all those communities if your 
budget cut goes through?
    Secretary Kempthorne. The history of the PILT funds, the 
Payment in Lieu of Taxes, from 1977--1995 was held constant at 
$100 million. In 1995 there was an effort to begin adjustments 
for inflation. No administration has ever provided the full 
funding for the PILT.
    This year's budget, the President's proposal, last year it 
was $190 million that was proposed and now it's $195 million 
that's proposed. That's at the level that it's been for some 
years. But at least it does have an increase for inflation.
    Senator Wyden. Let's see the number that we have, FY 2009 
budget for PILT proposes funding at $195 million a reduction of 
$33.9 million or 15 percent. Do we have math wrong? I----
    Secretary Kempthorne. No, that's the number that I decided 
as well.
    Senator Wyden. I think what you're suggesting is what the 
President proposed, not what was enacted.
    Secretary Kempthorne. That is correct.
    Senator Wyden. But, you know, the bottom line is out in the 
real world these people are saying, based on the information I 
have, is that there would be a significant PILT, you know, cut 
with the FY 2009 budget proposing PILT funding at $195 million 
which would be a reduction of $33.9 million. I think the 
message that concerns me is that cut on top of the enormous cut 
in the County Payments, you know, Program, is another one, two 
punch on the rural West. I mean the program is pretty much 
being decimated in the small amount of money on the county 
payments side.
    The small amount of money that has been, you know, targeted 
is depended on ``offsets'' that the Congress would come up 
with. In the past I've furnished the Administration offsets 
that they supported in the past and they've spent the money on 
something else. So I want to give you the last word on the PILT 
and the County Payment issue.
    But I hope you'll take another look at this. Because the 
combination of the PILT cut plus the shellacking that the 
County Payments, you know, Program is going to take is a huge 
one, two punch on the rural West, on rural America. I've been 
in rural counties in my State where they're talking about 
calling out the National Guard. They just cannot pay for the 
essential services.
    I know you know about this because you come from a State 
like mine where the Federal Government owns most of the land. 
So will you take another look at the PILT and the County 
Payments situation and see what you can do to beef those up?
    Secretary Kempthorne. Senator, we'll look at them, of 
course. One of the things too when you talk about these rural 
communities, again, Senator Craig would indicate, I'm very 
familiar with them. Part of it is in a resource management 
plans that we can have plans that allow for additional harvest 
of timber that is a source of income for some of these counties 
and would help us with the reduction of some of the fuel load 
which is adding to the fire problem.
    Senator Wyden. I hope you and the Administration will 
support the Thinning bill that I'm going to be introducing, you 
know, shortly which responds directly to what you're talking 
about. I think there is a lot of merchantable timber, you know, 
out there. I think we could get it, consistent with protecting, 
you know, old growth.
    I'm willing to take some tough stands in terms of doing it. 
I think, for example, people ought to have a right to appeal a 
question about a timber practice. But they shouldn't have a 
constitutional right to a 5-year delay. So we're going to be 
showing you legislation before long.
    Secretary Kempthorne. Good. I would very much like to see 
that.
    Senator Wyden. Let me leave you with one last point if I 
might, Mr. Secretary. I think you and I shared a very favorable 
history in the Congress. When I came to the Senate I think if 
not the first, I was one of the first two or three to support 
the Kempthorne Endangered, you know, Species, you know, 
legislation. Still have the welts on my back to show for some 
of that.
    So I'm interested in sensible, natural resources policy. 
But I'll tell you in both of these areas, on the ethical side, 
on the budget side, on the priorities, you know, side. I hope 
there'll be some changes in the last 10 months. We've known 
each other a long time and I think I can pretty much leave it 
at that.
    You've got another, you know, 10 months. The ethical 
transgressions that have taken place at this agency are giving 
a bad name to a wonderful agency. One that has scores of 
dedicated professional people.
    You've got to get to the bottom of it. You've got to get to 
the bottom of it. You've got to send a different message. I 
think that's what the Inspector General is doing.
    We've got to get on top of these budget issues. So, I hope 
that you'll use what you've got, 10, 11 more months, whatever 
the number is on both of those fronts and why don't I give you 
the last word for purposes in the morning.
    Secretary Kempthorne. Alright. Senator, I appreciate that. 
I agree. I enjoyed our friendship when we were both colleagues 
in the Senate.
    We've had some very good conversations together. I 
appreciate your diligence. I appreciate your Western 
perspective. I appreciate your support of my efforts to bring 
reform to the Endangered Species Act.
    One of the things I find so ironic are people today that 
are being affected by the Endangered Species Act that now say 
that they wish they would have supported what we were trying to 
do. But they were waiting for the ultimate solution, whatever 
that was. That's been a number of years ago.
    It brings me no solace when I have people that should have 
been with us to now say we were right. Because now we're 
adhering to an Endangered Species Act as written and it is the 
law. It leads to our administration of that law. But we'll do 
what is right for the species.
    Much of the discussion here today was about our environment 
but also our energy security. We're charged with both to 
somehow help, aggressively, lessen reliance on foreign energy. 
In the 5-year, and unfortunately I was not able to respond, but 
in the 5-year plan which we have offered and is now the 5-year 
plan for off shore continental shelf in this budget is $8.5 
million. So that Minerals Management Service can do all the 
environmental examinations necessary so that we do it right. 
There's 48 million new acres that are included in that, of new 
exploration opportunities.
    The initiatives, the fact that in this 2008 we were able to 
establish four new initiatives that were plus up by Congress in 
a bipartisan effort. I believe, and I know I would have 
appreciated as a Senator to see something I voted for the 
previous year that it comes back and it is still there. It 
wasn't just a one time whim. The plus ups are retained in those 
four initiatives. We've added four new initiatives dealing with 
critical crisis that, I think, the country will be facing 
whether it's in water or oceans or the decline of birds, the 
border security.
    So, they're--I'm enthusiastic about the responsibility we 
have, but I'm very serious about the challenges to carry it 
out. I appreciate, Senator Wyden, what you have said with 
regard to ethics. I will do my utmost. I will do my level best.
    That's why I've invited people like Rick Cusick to come in. 
That's why I hired--I have a new team of ethics officers. So 
that many of these transgressions--I don't, I hope you don't 
leave the impression that I have been here for years and have 
done nothing about it.
    The first thing I did. The first person I met with a year 
and a half ago when I became Secretary was our Ethics Officer. 
The fact that we have Bureau Directors, Assistant Secretaries, 
that put out their communications about ethics. So I think this 
has been a good discussion this morning. I appreciate it. Look 
forward to working with you.
    Senator Wyden. I think I've got to give you another last 
word, Mr. Secretary. Because I just want to make the link 
between policy and the ethics side. Because I think your point 
about the Endangered Species Act really highlights the need for 
the ethical, you know, changes.
    What we sought to do several years ago and I still happen 
to think by and large it's the right way to go was to empower 
people at the local level to get more of the decisionmaking out 
of Washington, DC, so you would say what works in rural Idaho 
or rural Oregon wouldn't work in the Bronx. You need to have, 
you know, flexibility on the ground as it relates to species. 
You make judgments, you know, about what ought to be protected 
in Washington, DC, as part of a Federal debate, but you really 
tailor the restoration plans to what will make sense for 
stakeholders at the local level.
    But to do that we've got to get these ethical changes in 
place. When we have situations like the Inspector General 
cranking up more investigations and the situation with Mr. 
Limbaugh, you know, who when I got your letter and I understand 
the timing and the dates and all the rest. But he was the first 
person. He resigned to go to a lobbyist. It doesn't send the 
right message. I hope that we can turn that around and you feel 
free to comment again if you'd like.
    Secretary Kempthorne. Alright.
    Senator Wyden. We'll make this the absolute last word for 
purposes of the morning.
    Secretary Kempthorne. Ok. First, I don't want to leave an 
impression that somehow Mr. Limbaugh has done something wrong. 
That's a dedicated public servant, a professional. He left the 
employment of the Federal Government. A lot of us will whether 
voluntary or not in 10 months.
    So, I just must say that while he was here, we were 
fortunate to have him. Now you mention about the local level 
and I totally agree. I believe in States' rights. That's why I 
voluntarily left the U.S. Senate to go run for Governor.
    I believe in the United States of America. One of the 
things that's in this budget are the cooperative conservation 
grants, some $320 million. I could show you example after 
example of very exciting things that are taking place on the 
ground through volunteers, through partnerships with local, 
State, tribal governments. They're exciting.
    Out in our neck of the woods, Big Sky Country, I was in 
Montana. I stood in a meadow surrounded by approximately 100 
people, most of whom were ranchers and their families, 
interspersed with Federal and State officials. This was the 
Black Foot Challenge. The Black Foot River where the story 
about a river runs through it is written.
    They were so proud of what they had done together in a 
collaborative process and it had to break down a culture of 
mistrust because the local ranchers didn't trust the Federal 
Government. But ultimately they saw that they wanted to see the 
conditions and the heritage of their land continue and that 
there were some suggestions by the Federal officials. The 
essence of the Black Foot Challenge is that some decades ago 
they decided that the most effective way to get water from 
point A in the North to point B in the South was to not to have 
all this meandering of a natural stream flow, but you plumb the 
thing.
    It cutoff the water resource to the entire stretch of the 
Eastern land. They lost the water fowl. They lost the fish. 
They lost the aquatic plants.
    They went back and they took the plumbing out. They're 
putting back in the meandering. As I stood in the middle of 
that meadow with their maps and their charts, I said, ladies 
and gentlemen, you're going to be surprised by what I say 
standing here in Montana. But you have just described and if I 
just changed a few names on the maps you have just described 
the Everglades. It's the same thing.
    Decades ago a decision was made to get water from here to 
here a straight line is the best way. Now that we're going back 
and taking out some of that plumbing which is ultimately the 
goal, you're going to see the return of water fowl, of aquatic 
species. You're going to see the fish come back.
    I can go on and on about the examples. It is so exciting. 
In Minnesota, the National Wildlife Refuge and what's been done 
there. So there's this new era of cooperation between citizens 
and those who have the honor of serving as public servants 
whether Federal, State, local, tribal governments. It's very 
exciting.
    We're in constrained budget times. But we're going to do 
the very best with the money we have to fulfill our mission.
    Senator Wyden. Last word was yours, Mr. Secretary. We're 
adjourned.
    Secretary Kempthorne. Thank you, Senator Wyden.
    [Whereupon, at 12:27 p.m. the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

     Responses of the Department of the Interior to Questions From 
                            Senator Bingaman

                        DEPARTMENTAL MANAGEMENT

    Question 1. What level of funding is included in the Budget request 
to implement the appeals/hearings requirement for the hydropower 
licensing provisions of the Energy Policy Act of 2005? How many such 
appeals have been initiated to date? How many appeals have been 
resolved? Please provide a listing of all such appeals and a 
description of the outcome (settled, including whether conditions were 
modified; Departmental condition upheld; or other condition adopted).
    Answer. The FY 2009 budget includes $400,000 to meet the appeals/
hearings requirements of the hydropower licensing provisions of the 
Energy Policy Act of 2005. As of March 18, 2008, the Department of the 
Interior has received and resolved 11 appeals as follows:


----------------------------------------------------------------------------------------------------------------
                Docket Number                       Case/Project Name                    Disposition
----------------------------------------------------------------------------------------------------------------
DCHD 2006-01                                  Idaho Power Company v. Bureau           May 16, 2006-Dismissed by
                                                                       of Land Management (HellsAdministrative Law Judge based on a
                                                           Canyon Complex)   Stipulation providing for revision
                                                                             of the conditions and withdrawal of
                                                                                            the disputed issues
----------------------------------------------------------------------------------------------------------------
DCHD 2006-02                                  Public Service Company of New       August 28, 2006--Dismissed by
                                                     Hampshire v. Fish and                      Administrative Law Judge pursuant
                                               Wildlife Service (Merrimack   to a Settlement Agreement providing
                                                                    River)    for revision of the prescriptions
                                                                             and dismissal of the request for a
                                                                                       trial-type hearing (TTH)
----------------------------------------------------------------------------------------------------------------
DCHD 2007-01                                  Avista Corporation v. Bureau     January 8, 2007--Administrative Law
                                                of Indian Affairs (Spokane   Judge issued a decision containing
                                                      River and Post Falls             findings of fact. (The ALJ's
                                                                 Projects)   authority is limited to findings of
                                                                             fact and does not extend to taking
                                                                                       action on the conditions
                                                                                                    themselves)
----------------------------------------------------------------------------------------------------------------
                                                  PUD NO 1 of Pend Oreille      Administratively rejected, 2-1-
                                                          Cnty--Box Canyon                               2006. License issued prior to
                                                                                             enactment of EPAct
----------------------------------------------------------------------------------------------------------------
                                               PUD NO 2 of Grant County vs   Settled 2006 at the beginning phase
                                                  FWS, BOR (Priest Rapids)                               of TTH
----------------------------------------------------------------------------------------------------------------
                                              PUD NO 1 of Chelan County vs   Alternative challenge only (no TTH
                                                         FWS (Rocky Reach)     challenge). Settled May 2006 and
                                                                                          alternative withdrawn
----------------------------------------------------------------------------------------------------------------
                                                PACIFICORP vs FWS (Condit)                  Pending FERC action
----------------------------------------------------------------------------------------------------------------
                                              South Carolina Pub Serv Auth   Dismissed & Stipulated--not a full
                                                    vs FWS (Santee-Cooper)                                  TTH
----------------------------------------------------------------------------------------------------------------
                                                Progress Energy Carolinas,      Settled at the beginning of the
                                              Inc. vs FWS (Yadkin-Pee Dee)                       TTH, 9-11-2007
----------------------------------------------------------------------------------------------------------------
                                                                        FPL EnerSettled at the beginning of the
                                                        vs FWS (Bar Mills)                      TTH, early 2006
----------------------------------------------------------------------------------------------------------------
                                               PACIFICORP vs FWS (Klamath)    TTH concluded 10-2-2006. Decision
                                                                                               favorable to FWS
----------------------------------------------------------------------------------------------------------------

                      MINERALS MANAGEMENT SERVICE

    Question 2. What is the status of the Kerr-McGee (Anadarko) 
litigation relating to the Outer Continental Shelf Deep Water Royalty 
Relief Act? Does the Administration intend to pursue an appeal on the 
merits? When is that determination expected?
    Answer. Kerr-McGee filed suit against the Department of the 
Interior in the Western District of Louisiana's Federal District Court 
over the enforceability of ``price threshold'' clauses in deepwater 
leases from sales during the years 1996-2000. The Court granted summary 
judgment in favor of Kerr-McGee Oil and Gas Corporation on October 30, 
2007. On December 21, 2007, the U.S. Department of Justice filed a 
timely notice of appeal with the Federal District Court to protect the 
interests of the United States in the Kerr-McGee litigation. DOJ's 
office of the Solicitor General is currently deciding whether to 
further pursue this appeal. If this ruling stands, the total 
implication of lost royalty to the Government is estimated to be in the 
range of $23 to $32 billion.
    Question 3. The Energy Policy Act of 2005 contains a provision 
providing royalty incentives for natural gas production from deep wells 
in shallow waters of the OCS. The Department also extended such relief 
administratively prior to enactment of that provision. Please provide a 
list of the price thresholds that have applied under the administrative 
and legislative royalty relief provisions for deep gas produced in 
shallow water. What is the justification for the level of the price 
thresholds? Have these price thresholds ever been triggered?
    Answer. Four different price thresholds apply to deep gas royalty 
relief in shallow water in the Gulf of Mexico (GOM), depending on when 
the host lease was issued and when the well qualifying for that relief 
began producing. Three price thresholds are applied under the 
administrative royalty relief provisions and one additional price 
threshold is applied to the royalty incentives contained in the Energy 
Policy Act of 2005. The following table shows those price thresholds 
and the leases to which they apply.


----------------------------------------------------------------------------------------------------------------
                                                               Applies to the Royalty Suspension Volume (RSV)
   A price threshold (PT)  in year 2006 dollars of. . .          earned by a qualified deep well that starts
                                                                               producing. . .
----------------------------------------------------------------------------------------------------------------
(PT#1) $4.00 per MMBtu                                        Within the first 5 years on a shallow water lease
                                                                                                 issued in OCS Lease Sale 178 (March 2001), unless it
                                                                         converted to the RSV terms provided in
                                                                      administrative regulations issued in 2004
----------------------------------------------------------------------------------------------------------------
(PT#2) $5.72 per MMBtu                                        Within the first 5 years on a shallow water lease
                                                                                                 issued in OCS Lease Sales 180, 182, 184, 185, or 187
                                                            (August 2001-August 2004), unless it is converted to
                                                            the RSV terms provided in administrative regulations
                                                                                                 issued in 2004
----------------------------------------------------------------------------------------------------------------
(PT#3) $9.88 per MMBtu                                       Between March 2003 and May 2009 on a shallow water
                                                              lease under regulations that became effective May
                                                                                                           2004
----------------------------------------------------------------------------------------------------------------
(PT#4) $4.47 per MMBtu                                            After May 2007 on a shallow water lease under
                                                              regulations issued as a result of the mandates in
                                                                                  the Energy Policy Act of 2005
----------------------------------------------------------------------------------------------------------------

    The first 3 price threshold levels were established in connection 
with royalty incentive programs that would expire after 5 and 6 years. 
The price threshold initially selected for the 2001 sale (PT#1) was 
based largely on an analysis of gas prices expected at the time of the 
lease sale. The levels selected for later lease sales (PT#2) and the 
administrative program formulated in 2003(PT#3) were raised in an 
effort to encourage accelerated drilling at a time when gas production 
from the shallow water of the GOM was sharply declining. The higher 
price threshold levels were designed to enhance the incentive to drill 
and produce quickly by increasing the chances that the relief would be 
realized before longer term gas sources (deep water, LNG, Alaska) 
become significant by increasing the chance that the relief would be 
realized. The lower price threshold selected for the Energy Policy Act 
regulation (PT#4) reflects a determination that high gas prices have 
generally replaced the incentive provided by royalty relief, that the 
incentive in the administrative program has not achieved results that 
justify the forgone royalties involved, and the fact that the Energy 
Policy Act provides no expiration date for the added ultra-deep 
incentive.
    Price threshold #1 has been triggered every year but 2002 and price 
threshold #2 has been triggered every year after 2002. Only one lease 
with a qualifying deep well issued under these lease-based price 
thresholds has produced (the remaining leases issued in those years 
have converted to thresholds under MMS regulations (PT#3)). The price 
threshold #3 has not been triggered (in 2006, 34 leases produced with a 
deep gas RSV-that production represented about 2 percent of total gas 
production from the GOM in 2006). Assuming price threshold #4 remains 
unchanged in the final rule, it would be triggered for 2007 and 
royalties would be due on production covered by the EPAct royalty 
relief provisions for 2007. However, it is not likely that any well has 
yet met the other EPAct criteria for this relief.
    Question 4. Will oil and gas activities in the area covered by the 
most recent OCS lease sale in the Chukchi Sea have impacts on polar 
bears? What analysis has the Department done on this issue? What are 
the views of the Fish and Wildlife Service?
    Answer. The Chukchi Sea Sale 193 EIS concluded that routine 
activities including seismic surveying, geotechnical studies, and 
exploration drilling would likely have slight adverse effects on polar 
bears. Any routine activities that may affect polar bears would be 
subject to compliance with the Marine Mammal Protection Act (MMPA) and 
with the ESA. The MMPA provides for an authorization process to limit 
unintentional effects. The issuance of MMPA authorization would not 
allow any more than a negligible level of adverse effects to polar 
bears.
    To support the EIS analysis, MMS completed an Oil Spill Risk 
Analysis. Potentially significant impacts to polar bears could result 
from accidental crude oil spills during production and transportation 
activities. The potential for a large spill to contact coastal 
concentrations of polar bears is influenced by spill timing, location, 
and size; wind and current patterns; and spill response. The 
Department's selection of Alternative IV decreased this risk by keeping 
potential platforms farther offshore. Based on this and an informal 
determination that these effects would not ``jeopardize the continued 
existence'' of the polar bear population, the MMS and U.S. Fish and 
Wildlife Service jointly agreed that conferencing under the provisions 
of ESA was not necessary at that time.
    The FWS recently listed the polar bear as a threatened species 
under the Endangered Species Act (ESA) because of loss of sea ice 
habitat. In its listing decision, FWS stated that oil and gas 
exploration, development, and production activities do not threaten the 
species throughout all or a significant portion of its range based on:

  <bullet> Mitigation measures in place now and likely to be used in 
        the future;
  <bullet> historical information on the level of oil and gas 
        development activities occurring within polar bear habitat 
        within the Arctic;
  <bullet> the lack of direct quantifiable impacts to polar bear 
        habitat from these activities noted to date in Alaska;
  <bullet> the current availability of suitable alternative habitat; 
        and
  <bullet> the limited and localized nature of the development 
        activities, or possible events, such as oil spills.

    The FWS also issued an Interim Final Rule under section 4(d) of the 
ESA that states that if an activity is permissible under the stricter 
standards imposed by the Marine Mammal Protection Act; it is also 
permissible under the Endangered Species Act with respect to the polar 
bear. This rule will ensure the protection of the bear while allowing 
for the continued development of natural resources in the arctic region 
in an environmentally sound way.
    Question 5. Section 388 of the Energy Policy Act of 2005 gave MMS 
the responsibility to authorize alternative energy projects on the OCS. 
What is the status of your implementation efforts?
    Answer. MMS has made significant progress implementing its new 
alternative energy authority on the OCS. As an important first step in 
establishing a new program that will involve frontier areas of our 
Nation's Federal OCS, MMS initiated and completed a programmatic 
environmental impact statement (PEIS) that analyzed in a high-level 
fashion the types of environmental and socioeconomic impacts 
anticipated to result from all phases of offshore alternative energy 
development (e.g., initial site assessment, construction, commercial 
operation and ultimate decommissioning). In this PEIS, MMS analyzed the 
anticipated impacts from wave energy, wind energy and ocean current 
energy activities on the OCS. MMS issued the draft PEIS in March 2007, 
subsequently held pubic hearings in April and May, and issued a Final 
PEIS in November 2007. MMS published its Record of Decision this 
January and formally adopted 52 environmental best management practices 
that will be considered in evaluating and authorizing any alternative 
energy project on the Federal OCS.
    MMS is near completion of its proposed rulemaking for alternative 
energy and alternate use activities on the Federal OCS. In December 
2005, MMS issued its Advance Notice of Proposed Rulemaking soliciting 
comments from the public on a broad array of issues pertinent to 
establishing a comprehensive regulatory program for issuing leases, 
easements, and rights-of-way that assures safe and environmentally 
responsible development of alternative energy projects on the OCS. MMS 
has been careful and deliberate in the development of this rulemaking 
as we recognize the importance of these regulations in providing a 
clear roadmap for entities interested in exploring alternative energy 
opportunities offshore, and in satisfying our Nation's need for 
diversified, non-fossil sources of energy to coastal regions with ever-
increasing demands for electricity. MMS is on schedule to publish a 
proposed rule by this summer for public review and comment, and a final 
rule by the end of this year.
    In order to encourage alternative use, in November 2007 MMS 
announced an interim policy for authorizing limited resource data 
collection and technology testing in advance of final rules. This 
policy would not authorize the construction of wind turbines, nor would 
it authorize commercial energy activities or offer any priority right 
or preference in subsequent commercial lease sales. As a result of the 
announcement of this Interim Policy, we have over 40 viable nominations 
to date, from entities interested in developing projects on the Federal 
OCS on both the East and West coasts. MMS intends to announce shortly 
its next steps for authorizing limited leases under this interim 
policy.
    MMS recently completed its draft Environmental Impact Statement 
(EIS) review, as required by the National Environmental Policy Act, for 
the proposed Cape Wind energy facility off the coast of Massachusetts 
on Federal submerged lands in Nantucket Sound. The draft EIS was made 
available for public review and comment this January, and MMS held a 
series of public hearings on the draft EIS in Massachusetts March 10th 
through 13th. MMS expects to finalize its environmental analysis for 
the project by the end of this year.
    The MMS has also dedicated significant resources towards promoting 
the critical environmental studies work necessary to educate and inform 
the MMS and other Federal agencies as they move forward in evaluating 
and authorizing these new technologies in frontier ocean environs. In 
addition to the programmatic EIS discussed above, in June of 2007, MMS 
held a workshop among industry, regulators and scientific experts to 
identify offshore alternative energy information needs. MMS held a 
northeast and mid-Atlantic bird workshop in February 2008 to identify 
priority bird study needs, identify potential mitigation measures, and 
build partnerships to carry out collaborative research. In addition, 
MMS has established a new Alternative Energy component of its 
Environmental Studies Program. Through this MMS Environmental Studies 
Program, MMS has already identified proposed alternative energy-related 
studies for FY 2009 and FY 2010.
    Question 6. When will the proposed rules be published? Can you 
describe the basic approach that the agency will take in authorizing 
these projects? Do you anticipate a lease by application process, some 
other form of authorization based on applicant nomination, or a 
competitive lease sale process patterned after the five-year program 
for oil and gas leasing? How long do you expect it will take for a 
project to be authorized?
    Answer. MMS is near completion of its proposed rulemaking for 
alternative energy and alternate use activities on the Federal OCS. In 
December 2005, MMS issued its Advance Notice of Proposed Rulemaking 
soliciting comments from the public on a broad array of issues 
pertinent to establishing a comprehensive leasing program that assures 
safe and environmental responsible development of alternative energy 
projects on the Federal OCS. MMS has been careful and deliberate in the 
development of this rulemaking as we recognize the importance of these 
regulations in providing a clear roadmap for entities interested in 
exploring alternative energy opportunities offshore, and in satisfying 
our Nation's need for diversified, non-fossil sources of energy to 
coastal regions with ever-increasing demands for electricity. MMS is on 
schedule to publish a proposed rule by this summer for public review 
and comment, and a final rule by the end of this year.
    The basic approach contemplated in the draft proposed rulemaking is 
similar to our oil and gas leasing program in which there is 
competitive lease issuance followed by subsequent plan reviews at the 
initial site assessment and commercial operation phases. By statute, 
MMS is required to determine if there is competitive interest for each 
proposed lease, easement, or right-of-way. If there is competitive 
interest, MMS will conduct a lease sale to ensure a fair return in 
exchange for private use of our Nation's OCS. The proposed regulations 
will include provisions for environmental protection, coordination with 
affected states, payments, bonding and financial assurance, 
decommissioning, inspections and enforcement.
    Initially, we expect to both entertain individual project 
applications for alternative energy leases, as well as propose regional 
areas for alternative energy leasing through a call for nominations. In 
either scenario, MMS will conduct a lease sale if it is determined 
there is competitive interest in a given area, as required by 
subsection 8(p)(3) of the OCS Lands Act (amended by Section 388 of 
Energy Policy Act). Initially, we do not expect to develop a 5-year 
leasing program for alternative energy as we are required to do for oil 
and gas, but our regulations will offer the flexibility to adopt 
appropriate leasing programs as development increases offshore and such 
a program proves useful.
    Once regulations are finalized for the program, we believe MMS can 
begin evaluating lease requests immediately, and potentially authorize 
one or more commercial leases within 2 years.
    Question 7. Last fall, MMS published a call for applications for 
authorization to collect data on the OCS relating to alternative energy 
development? How many applications did you receive? How many have been 
approved?
    Answer. In light of the fact that our program regulations have not 
been completed within the timeframe originally contemplated (November 
2007), MMS announced an interim policy for authorizing limited resource 
data collection and technology testing in advance of final rules. This 
policy would not authorize the construction of wind turbines, nor would 
it authorize commercial energy activities or offer any priority right 
or preference in subsequent commercial lease sales. In response to our 
announcement of this Interim Policy, we have over 40 viable nominations 
to date, from entities interested in developing projects on the Federal 
OCS on both the East and West coasts. MMS intends to announce shortly 
its next steps for authorizing limited leases under this interim 
policy.
    Question 8. How many acres of the OCS are under lease but not 
producing oil and gas?
    Answer. Currently there are about 7,740 active Federal OCS leases 
encompassing about 43 million acres in the Gulf of Mexico and offshore 
California and Alaska. About 6,085 of those Federal OCS leases (34.8 
million acres) are not producing oil and gas: 31.31 million acres in 
the Gulf of Mexico; 0.18 million acres off California, and 3.35 million 
acres offshore Alaska. Primary terms for these leases are set at 5 to 
10 years, depending on water depth, and are extendable only by 
activities leading to production or actual production of oil or gas to 
ensure that acreage is not acquired and held out of production.

          OFFICE OF SURFACE MINING RECLAMATION AND ENFORCEMENT

    Question 9. The Department has interpreted the Surface Mining 
Control and Reclamation Act Amendments of 2006 as prohibiting the use 
of previously unappropriated state share balance payments for abandoned 
hardrock mine reclamation. This is despite the fact that section 409 of 
SMCRA has allowed non-coal reclamation to be undertaken with these 
funds for many years. This interpretation is a big problem for New 
Mexico and other western states. Will you work with me to remedy this 
problem?
    Answer. I understand and appreciate your concerns. However, Section 
409 of SMCRA limits funding for non-coal reclamation to state share and 
historic coal share AML funds. The previously unappropriated state 
share balance funds you refer to actually remain in the AML Fund. 
Uncertified states and Indian tribes may still use State or Tribal 
share and historic coal share monies from the AML Fund for non-coal 
reclamation subject to Section 409 of SMCRA. States are also receiving 
replacement funding from the Treasury as provided for by the 2006 
amendments in Section 411. Those replacement funds fall outside the 
authorization in Section 409 for non-coal reclamation. Further, Section 
411 itself limits use of those replacement funds by uncertified states 
to the priorities described in Section 403 related to coal AML 
problems.
    We are ready, of course, to work with you as appropriate to address 
this issue.
    Question 10. The Surface Mining Control and Reclamation Act 
Amendments of 2006 provide for the repayment of unappropriated state 
and tribal share balances over seven years. Please provide a chart 
showing the expected annual payments of unappropriated balances to each 
state and tribe under these provisions.
    Answer. The following chart shows the total unappropriated balance 
to be distributed in seven equal annual payments and the actual first 
year fund distribution made for Fiscal Year 2008. We expect to provide 
the same annual payment as in FY 2008 for the next six years, FY 2009 
through FY 2014. The last year's distribution will be slightly adjusted 
to correct for rounding and distribute the exact amount due to each 
state and tribe as shown in the chart.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 11. There has been concern over recent years regarding the 
level of funding for state regulatory grants. Please provide a chart 
showing on a state-by-state basis the funding for the regulatory 
program over the past 10 years. What are the trends in funding and why?
    Answer. The most significant trend in regulatory grant funding is 
that it was basically unchanged from FY 2002 through FY 2007. Total 
funding over the past 10 years increased 27%, but the majority of the 
increase was in FY 2008. The increase was in response to States that 
experienced serious difficulties in continuing to operate their 
regulatory programs on flat or decreasing funding.
    Question 12. The SMCRA Amendments of 2006 provided that Indian 
Tribes can be granted primacy to administer the regulatory program 
under Title V on lands within their reservations. What is the status of 
implementation of this provision? Has any tribe applied for primacy? 
Please describe your work with the Tribes with respect to regulatory 
primacy.
    Answer. We are currently considering rulemaking to further define 
some issues, such as what might constitute a partial program. We are 
currently in the process of consultation with those tribes with coal 
reserves on tribal lands regarding whether to undertake rulemaking and, 
if so, the possible content of proposed regulations.
    In addition to the primacy provisions, the 2006 amendments provide 
for 100 percent funding of the costs of developing, administering, and 
enforcing an approved Tribal program. Also, under the Energy Policy Act 
of 1992 and Section 710 (i) of SMCRA, the Department, through the 
Office of Surface Mining, provides grants to the Crow and Hopi Tribes 
and the Navajo Nation to assist them in developing regulations and 
programs for regulating surface coal mining and reclamation operations 
on Indian lands. The grant amounts are based on each Tribe's 
anticipated workload to develop Tribal regulations and policies, to 
assist OSM with surface coal mine inspections and enforcement 
(including permitting activities, mine plan review and bond release), 
and to sponsor employment training and education concerning mining and 
mineral resources. These grants fund 100 percent of the Tribal primacy 
development activities.
    With this in mind, the Department's budget request includes an 
increase of $500,000 to support implementation of tribal primacy in FY 
2009.
    Question 13. OSM is in the process of revising permanent program 
regulations relating to excess spoil and stream buffer zones that many 
believe will facilitate the use of mountaintop removal coal mining in 
the eastern United States. I have voiced concern about this rulemaking, 
and I understand that others share my concern. What is your time table 
for issuing the final rule?
    Answer. As you know, OSM published a proposed rule and associated 
draft EIS in August 2007, and took public comments on those documents 
until November 23, 2007. We anticipate publishing a final rule by the 
end of 2008.

                       BUREAU OF LAND MANAGEMENT

    Question 14. Section 365 of the Energy Policy Act provides 
mandatory funding from lease rentals for the pilot project to improve 
Federal oil and gas permit coordination. However, the Budget apparently 
proposes to replace this mandatory funding with a new user fee. I have 
several questions about BLM's implementation of this program.
    Question 15. How much of the funding under the program will be used 
to pay for positions in BLM during FY 2008? Of these, how many 
positions have been dedicated to inspection and enforcement? Please 
provide a listing of new positions funded by office and job function. 
Please describe the positions you anticipate funding in FY 2009.
    Answer. In FY 2008, $9.1 million will go towards labor costs to 
fund the positions listed on the tables in Attachment 1 and 2 (same 
positions displayed by function and office, respectively). An 
additional $10.3 million will go toward operating costs. Of the 
positions listed in Attachment 1, 43 total positions are for inspection 
and enforcement (41 in BLM and 2 with state agencies in New Mexico) and 
22 total positions are for monitoring (16 in BLM, 2 in the Forest 
Service, and 4 with state agencies in Montana, Utah and Wyoming). The 
tables provided as Attachments 1 and 2 reflect new positions and do not 
include the existing positions that were funded with base oil and gas 
program funding. Attachment 1 lists positions by function, and 
Attachment 2 lists positions by field office. The BLM anticipates 
funding all of the positions listed in the tables provided as 
Attachments 1 and 2 (same positions displayed by function and office, 
respectively). No additional positions are proposed at this time.
    Question 16. How many positions have been paid for in the Fish and 
Wildlife Service with these new funds? The Forest Service? Please 
provide a listing of new positions funded by office and job function. 
Please describe the positions you anticipate funding in FY 2009.
    Answer. Full time equivalent (FTE) of 15.75 positions in the Fish 
and Wildlife Service have been paid for with Pilot Office funds. 
Additional USFWS FTE are funded with USFWS base funds. Nine positions 
in the Forest Service have been paid for with Pilot Office funds, with 
3 additional positions pending in Farmington for FY2008. The tables 
provided as Attachments 1 and 2 reflect new positions and do not 
include the existing positions that were funded with base oil and gas 
program funding. Attachment 1 lists positions by function, and 
Attachment 2 lists positions by field office. In FY 2009, we anticipate 
funding all of the positions listed in the tables provided in 
Attachments 1 and 2 (same positions displayed by function and office, 
respectively) plus the additional three Forest Service positions 
pending in the Farmington Field Office for FY 2008. No additional 
positions are proposed at this time.
    Question 17. What assumptions does the FY 2009 Budget make with 
respect to leasing in the Arctic National Wildlife Refuge? Please 
provide the specific information and data supporting the assumptions 
contained in the Budget with respect to revenues. What assumptions does 
the Budget make regarding: (1) the price of oil; (2) the timing of 
production; and (3) the magnitude and location of oil production? What 
assumptions does the Budget make regarding bonus bids and what is the 
basis for each assumption? Did you look at comparable lease sales? If 
so, please provide the specific information as to the location, timing, 
resource estimates, and bonus bids for each comparable sale. What 
infrastructure do you assume will be necessary for production from the 
Arctic Refuge? How many miles of pipeline within the Refuge will be 
required, given your assumptions regarding the magnitude and location 
of production?
    Answer. These assumptions have not changed substantively from 
previous years' budget requests. ANWR bonus bid estimates are based on 
expected values of the most recent information we have on geologic 
probability curves and risks, as well as probability functions for 
costs and prices. Adjustments were made based on the past lease sale 
history in the North Slope area of Alaska, which lowered some of our 
earlier estimate of the value and does not reflect more recent sale 
activity. The general list of assumptions for this revenue analysis is 
given below:

          1. The geologic inputs were based on the joint analysis by 
        staff experts of the USGS and BLM regarding oil potential and 
        probabilities using the most recent USGS estimates of the oil 
        and gas resources of the 1002 area of ANWR (Arctic National 
        Wildlife Refuge, 1002 Area, Petroleum Assessment, 1998, 
        Including Economic Analysis U.S. Geol. Open File Report 98-34, 
        1999) and the various updates including Undiscovered oil 
        resources in the Federal portion of the 1002 area of the Arctic 
        National Wildlife Refuge: an economic update U.S. Geol. Survey 
        Report 2005-1217.
          2. Economic inputs regarding oil pricing were based on Energy 
        Information Administration's March 2005 scenarios for long 
        range average delivered price of crude oil.
          3. The current calculations were also based on the following 
        assumptions:

  <bullet> We assumed that the first lease sale (and resulting bonus 
        bid collections) will be in FY 2010;
  <bullet> We assumed no production (and hence no royalties) will occur 
        until at least 10 years after first lease sale;
  <bullet> We assumed that 2 sales will be held, the first in FY 2010, 
        the second in FY 2012;
  <bullet> We estimated that 1.4 million acres would be offered in the 
        first sale and 850,000 acres will be sold based on previous 
        North Slope sales.

    The assumption on the price of oil is based on the DOE/EIA Annual 
Energy Outlook price scenarios. No production is anticipated from ANWR 
until 10 years after the first lease sale, and there are no specific 
estimates on production. The FY 2009 Budget request assumes that if 
Congress authorizes development during FY 2008 that lease sales would 
be scheduled in 2010 and 2012. It also assumes bonus bids of $7 billion 
in the first lease sale and $1 billion in the second lease sale. There 
are no lease sales that can be used as true comparable sales although 
North Slope lease sale data was factored into the estimate.
    The estimates were developed based on a Monte Carlo Discounted Cash 
Flow model (a complex analysis that combines random number generation, 
probability, and multiple iterations of the exercise), using 35 known 
mapped structural prospects. Each prospect was run 1,000 times in the 
Monte Carlo model, with the condition that hydrocarbons exist, 
considering a number of differing factors. Similarly, the same was done 
for the one large stratigraphic play that covers approximately the 
northwestern third of the 1002 area. It is assumed that wells, 
processing facilities, and pipelines would be constructed to match the 
size (volume and area extent) and location of oil found. The 
infrastructure would have to satisfy the requirements stipulated by 
BLM. It is assumed that sharing of facilities and pipelines will occur 
whenever possible. These assumptions are applied for each iteration of 
the analysis.
    All infrastructure costs are the responsibility of the developer(s) 
and would be permitted by BLM. There were no specific assumptions made 
regarding the amount of pipeline or the magnitude and location of 
production. Estimates were based on the Monte Carlo analysis. All 
pipelines would be permitted by the BLM with costs borne by the 
operator(s). There are additional costs for shipping the oil through 
the Trans-Alaska Pipeline to Valdez and then by tanker to the lower 48.
    Question 18. What is the total amount of funding for the oil and 
gas I&E program included in the request for FY09? Please provide a 
table showing the funding for this program (both requested and enacted) 
for the previous 10 fiscal years.
    Answer. The President's 2009 Budget retains 2008 increases for 
domestic energy programs, plus an additional $400,000 to address 
inspection and environmental issues associated with energy development. 
This funding will be redirected from the oil shale program following 
the completion of funding in FY 2008 of the programmatic oil shale EIS. 
We will provide a table responding to this request under separate 
cover.
    Question 19. I had requested funding for additional inspectors in 
the Farmington Field office. How many additional inspectors have been 
added to this office in each of the past three fiscal years?
    Answer. In FY 2005, staff at the Farmington Field Office included: 
21 I&E inspectors, classified as Petroleum Engineering Technicians 
(PET) (14 PETs, 3 PET leads, 1 supervisory PET, 1 PET working as a 
Natural Resource Specialist focusing on environmental surface 
compliance, and 2 students training as PETs) and 3 Production 
Accountability Technician (PAT) auditors. In addition, support is 
provided by two PETs assigned to the Federal Indian Mineral Office for 
trust responsibilities on Navajo allotted leases, five Tribal I&E 
inspectors working under cooperative agreements with the Navajo, and an 
onsite State Office Coordinator, bringing the total staff count 
contributing directly to I&E to 32. No new additional staff was hired 
in FY 2005; however, 2 I&E PET inspectors, one supervisory PET, and 
three Tribal I&E inspectors were reassigned by consolidation to the 
Farmington Field Office from the BLM's Cuba, NM, office. The Cuba 
office inspects and audits Federal and Jicarilla Indian reservation 
lease activities.
    In FY 2006, the Farmington Field Office hired four additional PETs 
and two additional PATs, with mandatory funding provided under the 
Energy Policy Act of 2005. In FY 2007, the Farmington Field Office 
hired three additional PATs and one additional PET.
    Question 20. Are you planning to hire additional inspectors in 
offices where the workload is increasing due to coalbed methane 
production? Please provide specifics.
    Answer. Yes. Please see the response and table provided in response 
to Question 15. Each year the BLM prepares an Inspection and 
Enforcement Strategy for each Field Office that has oil and gas 
inspection responsibilities. Within this strategy each office 
identifies the number of inspectors and inspections it plans to 
complete during the year. Each office also identifies the total number 
of inspections that are necessary to be performed by law and policy. 
This information is also used to direct available funding to the 
offices that are not meeting the goal of the necessary inspections. In 
order to address the problem of not completing 100 percent of the 
inspections, the BLM will allocate FY 2008 funds to the areas of 
highest concern. It takes about 1-2 years to train staff to meet 
maximum effectiveness.
    Question 21. What is the total amount of requested funding for oil 
and gas NEPA compliance for FY09? Please provide a table showing the 
funding for NEPA compliance (both requested and enacted) for the 
previous 10 years.
    Answer. The BLM's FY 2009 Budget Request does not specify a funding 
amount for NEPA compliance within the Oil and Gas Management program. 
The costs of NEPA compliance are not individually tracked within the 
BLM's oil and gas financial management system. They are aggregated 
across various portions of the BLM's oil and gas budget, such as APD 
processing, processing of sundry notices, and inspection and 
enforcement.
    Question 22. What is the total backlog of APD's? Please provide a 
table showing the backlog over the last ten years and the number of 
APD's received, processed, and issued during each of the last ten 
years. Please display this information on a state-by-state basis.
    Answer. The tables below show the number of complete APDs pending 
at the end of year and the number of APDs received, processed and 
approved each year for the last ten years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 23. How many acres administered by the Forest Service and 
the BLM have been leased for oil and gas development during each of the 
past ten fiscal years? Please display this on a state-by-state basis 
and by agency.
    Answer. The following table lists the total acreage leased for oil 
and gas development during each of the past ten fiscal years. This 
acreage includes lands administered by the BLM, the Forest Service and 
other surface managing agencies, such as the Bureau of Reclamation and 
the Department of Defense. The BLM automated system for storing and 
retrieving information about oil and gas leases is not able to 
distinguish between different surface management agencies below the 
Section level. It is able to identify all the various administrative 
agencies which may lie within a given Section, but it is not able to 
precisely align the acreage included in an oil and gas lease to the 
various agencies that are identified within the Section. As a result, 
it is difficult to generate accurate reports distinguishing lease 
acreage between various surface managing agencies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 24. How many acres of lands administered by the Forest 
Service and the BLM in states west of the hundredth meridian have been 
under oil and gas lease in each of the past ten fiscal years? Please 
display by state and agency.
    Answer. The following table lists the total acreage under oil and 
gas leases in states west of the hundredth meridian at the end of each 
of the past ten fiscal years. This acreage includes lands administered 
by the BLM, the Forest Service and other surface managing agencies, 
such as the Bureau of Reclamation and the Department of Defense. The 
BLM automated system for storing and retrieving information about oil 
and gas leases is not able to distinguish between different surface 
management agencies below the Section level. It is able to identify all 
the various administrative agencies which may lie within a given 
Section, but it is not able to precisely align the acreage included in 
an oil and gas lease to the various agencies that are identified within 
the Section. As a result, it is difficult to generate accurate reports 
distinguishing lease acreage between various surface managing agencies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 24a. How much acreage is under lease but not producing?
    Answer. Approximately 32.8 million acres are under lease but not 
producing.
    Question 24b. How many of these acres are under lease with no 
drilling activity occurring?
    Answer. The BLM tracks the number of leases and acres in 
production; however, because drilling activity can be very short term, 
in some cases only two to three days, the BLM does not track how many 
acres under lease currently have drilling activity taking place.
    Question 25. How many wells were started on federal lands (BLM and 
Forest Service) in each of the past 10 fiscal years? Please provide by 
state. Please also provide the number of completions per state per year 
on federal lands.
    Answer. The number of wells drilled on Onshore Federal Minerals, by 
state, is shown in the table below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    26. Please list the total number of new federal oil and gas leases 
by state by year. Please list the total number of federal oil and gas 
leases by state by year.
    Answer. The number of new onshore Federal oil and gas leases by 
state for the last ten years is shown in the table below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 27. What is the current level of funding and what level is 
proposed for fiscal year 2009 for the administration of renewable 
energy development on public lands? Please provide allocation by energy 
type.
    Answer. Solar and Wind Energy administration is handled through the 
Rights-of-Way (ROW) program and issuance of a permit, and many costs 
are reimbursed through cost recovery from the project proponent. The 
Lands and Realty Program base funding would generally be used to cover 
costs associated with pre-rights-of-way application activities which 
are not cost reimbursable. In the FY 2009 budget, $762,000 is estimated 
for this type of renewable energy ROW activities. Geothermal Energy 
development is handled through funding authorized through Section 234 
of the Energy Policy Act of 2005 where 25 percent of receipts from 
Geothermal is available for administering the program. The President's 
Budget proposes to restore the disposition of geothermal revenue to the 
historical formula of 50 percent to the states and 50 percent to the 
Treasury. Should this occur, geothermal energy development will be 
funded in the range of $1 to $1.5 million for FY 2009 from Energy and 
Minerals base funding.
    Question 28. Please provide the status of implementation of the 
Geothermal Steam Act amendments contained in the Energy Policy Act of 
2005. Please describe all leasing activity subsequent to enactment of 
those provisions.
    Answer. The Final Geothermal Rule required by secs. 221-236 of the 
Energy Policy Act, was published May 2, 2007, and became effective June 
1, 2007. A Memorandum of Understanding between BLM and the Forest 
Service on Coordination of Leasing & Permitting (Sec 225) was finalized 
on April 14, 2006. The BLM and the Forest Service, with Department of 
Energy as a cooperator, are in the process of preparing a Programmatic 
Geothermal Environmental Impact Statement, with a Final EIS estimated 
to be completed by the end of the year.
    The table below illustrates the geothermal leasing activities by 
the BLM since August 8, 2005:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The first competitive geothermal lease sale was held on June 20, 
2007 for parcels in Utah and Idaho and the second sale on July 14, 2007 
for parcels in California and Nevada. The table below details the 
results of the two sales.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Nevada, Utah, Oregon, and California are accepting nominations for 
competitive geothermal leasing. Idaho will be accepting nominations in 
the near future. A competitive lease sale is tentatively scheduled for 
July 14, 2008, at the Nevada State Office. That sale is expected to 
offer parcels for the states of California and Nevada. Utah has 
received nominations and will be required to conduct a wilderness 
suitability analysis before those parcels can be offered for 
competitive sale.
    Question 29. Please provide a table displaying the level of funding 
requested (both in dollar amounts and as a percentage of the BLM 
budget) and enacted for each of the past 10 fiscal years for each of 
the following activities: Energy and Minerals; Land Resources; Wildlife 
and Fisheries Management; Recreation Management; and Resource 
Protection and Maintenance.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 30. Please describe the status of implementation of the 
EPACT provision requiring BLM to address the issue of abandoned, 
orphaned and idled oil and gas wells on lands administered by BLM? How 
many of each category of well (abandoned, orphaned, or idled) is 
located on BLM administered lands? Please provide the information by 
state.
    Answer. The BLM and the Forest Service have been working on a means 
of ranking orphaned, abandoned and idled wells as required by the 
Energy Policy Act of 2005 (EPAct). The BLM and the Forest Service, 
along with the Dept. of Energy, have finalized a priority ranking 
system for each of these three well categories. These ranking systems 
have been tested by select BLM and FS offices to determine their 
usefulness. In addition, as also required by the EPAct, a preliminary 
meeting was held with the Interstate Oil and Gas Compact Commission to 
discuss this program. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 31. What level of funding is requested for the reclamation 
of orphaned and abandoned wells on BLM lands?
    Answer. The BLM has not specifically requested funding for orphan 
wells, which do not have an identifiable owner, but approximately 
$250,000 to $500,000 in base funding is used to address the highest 
priority orphaned wells.
    Question 32. Section 1811 of the Energy Policy Act of 2005 requires 
the Department to enter into an arrangement with the National Academy 
of Sciences to undertake a report relating to water and coalbed methane 
production. Please provide your timeline for carrying out this 
provision of the law.
    Answer. The following timeline is provided for contracting with the 
National Academy of Sciences for a study on the effects of coal bed 
methane development on surface and ground water:

          a. Contract completed with NAS for Workshop (Phase I)--
        completed Dec. 30, 2007
          b. Conducted NAS Workshop in Denver--April 8-9, 2008
          c. Evaluate workshop findings--Est. June 2008
          d.Develop study design with NAS based on requirements of Sec. 
        1811 and the findings of the workshop--Est. August 2008.
          e. Contract with NAS for full study--Est. October 2008.

    Question 33. What is the current status of the proposed lease sale 
in the vicinity of Teshekpuk Lake in the National Petroleum Reserve-
Alaska?
    Answer. The Department is aware of the extremely valuable natural 
resources near Teshekpuk Lake. The draft supplement to the Northeast 
National Petroleum Reserve-Alaska Amended Integrated Activity Plan/
Environmental Impact Statement issued in August 2007 did not identify a 
preferred alternative. We are considering the comments we received on 
the draft plan and anticipate announcing a decision early this summer. 
An oil and gas lease sale in the NE NPR-A is planned for the fall of 
2008.
    Question 34. How many new mining claims have been located over the 
past 10 years? Please provide number of claims located by year.
    Answer. The following chart provides the information requested in 
the question.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 35. Please provide a table displaying the total number of 
mining claims in each state.
    Answer. The following table provides the information requested in 
the question. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 36. How many plans of operation for hardrock mines are 
pending with the BLM? Please provide a list by proposed mine and state.
    Answer. The table below displays Pending Plans of Operations and 
Pending Total Case Acres by state as of March 4, 2008. Breaking out 
this information by mine would take significant fieldwork.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 37. Approximately how many acres of federal lands are 
covered by open pit mines, tailings, waste facilities, plant site, or 
leach piles related to hardrock mines? What is the range in size of 
hardrock mines?
    Answer. The BLM does not routinely track mine size, rather it 
tracks the acreage authorized in Plans of Operations. The table above 
lists both pending and authorized plans of operations and associated 
acreage, which includes open pit mines, tailings, waste facilities, 
plant sites, leach piles and any other land directly affected by the 
plan of operation. The range in acreage for a Plan of Operations may be 
from 50 acres to 2,000 acres. The general consensus of the Program 
Office is that a typical plan of operations would encompass 70-80 
acres.
    Question 38. How many abandoned hardrock mine sites are there on 
BLM lands? How many of these sites pose a threat to public health and 
safety? What is the estimated cost to reclaim all abandoned sites on 
BLM land? How much funding is included in the Budget for FY2009 for 
hardrock AML reclamation?
    Answer. The BLM maintains an inventory of known abandoned mines 
located on the public lands. Most of these sites are abandoned hardrock 
mines. There has never been a comprehensive field inventory conducted 
of all abandoned mines, although BLM is currently reviewing and 
updating available data. As of February 1, 2008, the BLM's inventory 
contains 12,035 sites, of which 10,103 will require further 
investigation and/or remediation. In 2006, the BLM released its AML 
program strategic plan. Partnerships with Federal and State agencies 
are an integral part of the plan in order to foster effective 
collaboration in specified areas (such as a watershed), and to leverage 
funds efficiently. Each year, a committee uses AML priorities and 
established criteria to determine the highest priority projects to be 
funded. The FY 2009 budget includes $8.5 million in the Soil, Water and 
Air Management Subactivity for the Abandoned Mine Lands program. 
Coupled with other funds the BLM expends an average of $12 to $14 
million annually on abandoned mines.
    Question 39. What is the estimated value of hardrock minerals 
produced on federal lands in each of the past 10 years?
    Answer. Because no royalties are paid on hardrock mineral 
production, the Department does not require operators to report this 
information.
    Question 40. Please provide a table displaying the number of notice 
level hardrock mining operations by state.
    Answer. The table below displays both authorized and pending 
notices by state as of March 6, 2008.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    united stated geological survey
    Question 41. Does the President's Budget include funding for 
archiving initiative for the preservation of geologic and geophysical 
data as provided for by Section 351 of the Energy Policy Act of 2005? 
Please provide a status report on implementation efforts and a time 
line for implementation of this provision.
    Answer. The President's Budget includes $1,000,000 for the National 
Geological and Geophysical Data Preservation Program. Implementation 
and on-going activities include:

  <bullet> FY 2007--developed web-based applications to collect 
        inventory information, funded 35 States and 8 Geology Teams to 
        inventory holdings, co-funded (with the Energy Resources 
        Program) coal data rescue efforts in 4 States, funded 2 Geology 
        Discipline data rescue efforts, co-funded (with the Geospatial 
        Information Office) 2 Geology Discipline data rescue efforts, 
        co-funded rescue of industry seismic data, and funded 
        development and data entry for USGS Paleontology Database
  <bullet> FY 2008--will design, create and populate the National 
        Catalog of archived materials, will continue to fund State 
        projects to inventory geological and geophysical data 
        collections and will develop metadata on individual items in 
        those collections
  <bullet> FY 2009--continue developing and populating the National 
        Catalog, fund State projects to inventory and preserve 
        geological and geophysical data collections and develop 
        metadata on individual items in those collections

    Question 42. What level of funding is included in the Budget for 
the Mineral Information Team? Please provide funding levels for 
minerals information for each of the past 10 years.
    Answer. Request and Enacted levels are shown on the table below. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question 43a. Please provide the level of funding for the geology 
budget at USGS for each of the last 10 years?
    Answer. Enacted and Requested levels are shown on the table below. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question 43b. What is the justification for the large cut in this 
area?
    Answer. The decrease for FY 2009 includes the impacts of major 
budgetary restructuring (detailed below) and reduce congressional 
increases and earmarks, and are proposed in order to meet the 
President's commitment to reduce the deficit and balance the Federal 
budget by 2012 while providing funding for priority initiatives.
    Question 43c. What specific programs and projects do you assume 
will be cut?
    Answer. The 2009 budget request includes proposed decreases as 
follows: (1) Mineral Resources Program reduction of -$25.4 million; (2) 
a program change of -$10.3 million from Earth Surface Dynamics Program 
(ESD) resulting from a budget restructure that moves funding for Global 
Change activities into a new integrated Global Change budget activity, 
and--$3.0 million for elimination of the remaining ESD program; (3) -
$3.0 million in the Earthquake Hazards Program (EHP) Earthquake Grants 
program, and (4) general program decreases of -$1.9 million in EHP; -
$492,000 in Volcano Hazards Program (VHP); -$492,000 in Global Seismic 
Network (GSN); and -$984,000 in National Cooperative Geologic Mapping 
Program (NCGMP).
    Question 44. What activities is USGS undertaking in 2008 and 2009 
to support the U.S. Climate Change Science Program?
    Answer. The USGS conducts a significant number of studies that 
specifically address the strategic goals of the U.S. Climate Change 
Science Program (CCSP). The goals and USGS related activities include:

          CCSP Goal 1: Improve knowledge of the Earth's past and 
        present climate and environment, including its natural 
        variability, and improve understanding of the causes of 
        observed variability and change. Through studies such as those 
        on paleoclimate indicators, including those within geologic 
        sedimentary cores, tree rings, coral reefs and ice cores, the 
        USGS is providing important scientific information to help in 
        refining our knowledge of the Earth's past, present and future 
        climate variability and changes, as well as the relationship 
        between climate causes and impacts on biological, hydrological 
        and geological resources, causes and related impacts of climate 
        that can only be assessed through analysis of the geological 
        record.
          CCSP Goal 2: Improve quantification of the forces bringing 
        about changes in the Earth's climate and related systems, and;
          CCSP Goal 3: Reduce uncertainty in projections of how the 
        Earth's climate and related systems may change in the future. 
        The USGS is a leader in providing multidisciplinary science of 
        past environmental and climatic changes, conducting process 
        studies that explore the sensitivity of ecosystems to climate 
        change and variability, and forecasting potential future 
        changes and their effects on landscapes, land use, and 
        ecosystems. The combination of these studies provides 
        integrated long-term perspectives on the effects of climatic 
        changes and variability and on interactions through time among 
        climatic, geologic, biologic, and human systems. Understanding 
        the nature and magnitude of past climate and environmental 
        changes is necessary to provide a baseline against which to 
        identify the effects of humans as agents of environmental 
        change and to provide a long-term perspective on climate 
        variability that can be used in developing plans for ecosystem 
        restoration.
          CCSP Goal 4: Understand the sensitivity and adaptability of 
        different natural and managed ecosystems and human systems to 
        climate and related global changes, and;
          CCSP Goal 5: Explore the uses and identify the limits of 
        evolving knowledge to manage risks and opportunities related to 
        climate variability and change.

    In 2008, the USGS began development of a National Climate Effects 
Research and Monitoring Network that will track key indicators of 
climate change across the Nation, and link those changes through an 
intensive set of research watershed sites to climate change causes and 
effects. This will allow for the rapid and efficient development of 
scenario and forecast-based decision support tools that can be used by 
DOI resource managers and policymakers in their decision-making 
processes related to critical issues regarding impacts of climate 
change on trust resources. Current funding is being used to develop a 
pilot research site and initial monitoring capacities. Funding in 2009 
and beyond will be used to enhance these base programs and expand 
monitoring efforts in other areas. Subsequent efforts may include:

  <bullet> Information delivery to increase the preparedness of 
        resource managers and communities regarding changes in 
        freshwater resources.
  <bullet> Assessing the sensitivities and vulnerabilities of species 
        and habitats to climate change and climate variability.
  <bullet> Providing knowledge needed to increase the preparedness of 
        the Nation for hazards (such as coastal erosion, floods, 
        drought, landslides, wildfire, heat waves, and zoonotic 
        diseases) that may be associated with climate change.
  <bullet> Providing knowledge needed to reduce the net transport of 
        CO<INF>2</INF> from the biosphere and geosphere to the 
        atmosphere, and to monitor the performance of any future 
        CO<INF>2</INF> mitigation strategies.

    Question 45. A successful census would seem to require the active 
support of the states and local water users to ensure as comprehensive 
data set as possible. Does the USGS anticipate support from the states 
and local water users? How might the flow of information be improved to 
maximize the accuracy of the census?
    Answer. The USGS agrees that a successful census will require the 
active support of states and local water users to ensure comprehensive 
data sets for streamflow, ground-water levels, water quality, and water 
use.

  <bullet> Streamflow: At present, the Nation's more than 7,000 
        streamgages are operated under either the Cooperative Water 
        Program or the National Streamflow Information Program. The 
        Cooperative Water Program requires at least 50:50 matching 
        funds from state, local, and tribal partners, and the USGS 
        currently participates in several national and regional 
        stakeholder meetings a year to discuss the streamgaging 
        network.
  <bullet> Ground-Water Levels: The USGS maintains a database of water-
        level information for about 850,000 wells across the Nation; 
        more than 20,000 of these are actively measured. We are also 
        actively participating in the Federal Advisory Committee on 
        Water Information, Subcommittee on Ground Water, to design a 
        national ground-water-level database wherein Federal, state, 
        and local data will be readily accessible to all.
  <bullet> Water Quality: The U.S. Environmental Protection Agency 
        currently requires states to upload their water-quality 
        information to their national database. The USGS is currently 
        working with EPA to create a national water-quality data 
        portal.
  <bullet> Water Use: The National Water-Use Information Program 
        (NWUIP) is the Nation's only provider of unbiased scientific 
        information related to water usage. NWUIP will be working with 
        state and regional water agencies that have the responsibility 
        to collect and manage water use information that will be 
        important for the Census. Several steps can be taken to improve 
        the flow of information from state, regional and local water 
        agencies to the national water census. These include: robust 
        design of databases to accept information collected by other 
        agencies, definition of minimum data requirements that make all 
        data comparable at a specified level of analysis, rigorous 
        statistical sampling and estimation of water use data, and 
        matching of appropriate methods to available data and 
        objectives. The USGS plans to incorporate these improvements in 
        our water census activities.

    Question 46. Streamgauging--Are there currently any sites within 
NSIP that are being monitored and measured through remote sensing 
technologies? If so, are the results reliable and being pursued 
elsewhere?
    Answer. The USGS does not use space-based technologies for the 
measurement of streamflow. Discussions with NASA and testing with 
classified assets indicate that space-based technologies are not yet 
capable of yielding flow estimates at accuracies needed to manage 
streamflow. NASA continues to seek to improve space-based technologies.
    The USGS is developing on-site radar-based technologies to measure 
streamflow. Although their application is limited to stable stream 
channels and low-conductivity waters (fresh water and ice melt), these 
technologies show good potential for yielding high-accuracy streamflow 
estimates. Radar-based technologies have the potential for helicopter 
deployment on large or otherwise difficult-to-reach rivers. The USGS 
has conducted experiments on radar-based technology in Virginia, 
California, Oregon and Washington and plans to conduct additional 
experiments in Pennsylvania this summer.
    Question 47. Glaciers and Water--Has USGS done any extensive work 
to evaluate how the impacts of climate change on glaciers may affect 
water supply in the continental United States? If so, what are the 
results of that work?
    Answer. The USGS has not done any extensive work to evaluate how 
the impacts of climate change on glaciers may affect water supply in 
the continental United States. However, the USGS Benchmark Glacier 
Program, which began in 1957 as a result of research efforts during the 
International Geophysical Year, has now produced three glacier mass-
balance records that show the recent dramatic shrinkage of glaciers in 
three different climatic regions of the United States: South Cascade 
Glacier in the North Cascade Mountains of Washington, Wolverine Glacier 
near the southern coast of Alaska, and Gulkana Glacier in the interior 
of Alaska. These glaciers are representative of a large number of 
glaciers within each region. Since 1989, the cumulative net balances of 
all three glaciers have been in rapid, sustained decline.

                             INSULAR AREAS

    Question 48. Last year, in response to Committee concerns about the 
socio-economic crisis in the Northern Mariana Islands, you assured the 
Committee that you were closely monitoring the situation, and would 
keep us informed. In addition, the FY 08 Senate Interior Appropriations 
report directed OIA ``to fully describe the use of CNMI Initiative 
funding in future budget justifications, coordinate regular interagency 
meetings between Federal and local immigration, labor and law 
enforcement officials; and report annually to Congress on immigration, 
labor, and law enforcement conditions, issues, and trends in the 
CNMI,'' However, the FY 2009 Budget Justifications for the OIA do not 
mention the use of Initiative funding, or contain a description of 
developments and coordinating activities, but they do recommend that 
the FY 2008 increase be cut.
    Answer. We regret the oversight in not fully describing the use of 
funding in the budget justifications. However, the office of the 
ombudsman remains in full operation, providing services to workers and 
coordinating Federal activities with relevant Federal agencies.
    $750,000 for the CNMI Initiative will contribute to the hiring of 
employees to support some of the following activities:

  <bullet> An investigator with the U.S. Department of Labor's Wage/
        Hour division;
  <bullet> A solicitor with the U.S. Department of Labor;
  <bullet> A special agent with the Federal Bureau of Investigation;
  <bullet> An assistant United States Attorney;
  <bullet> An ICE or CBP agent (DHS);
  <bullet> A staff attorney in the Federal Ombudsman's Office;
  <bullet> A collection attorney and paralegal (to collect unpaid 
        worker awards); and
  <bullet> Several legal interns from the University of Hawaii law 
        school.

    Question 49. Will you work with the Committee and other Federal 
agencies to develop, maintain, and implement a plan to address the 
continuing labor, immigration, and law enforcement problems in the 
CNMI, including expansion of the Ombudsman's responsibilities?
    Answer. We will work with the Committee, Federal agencies, and the 
CNMI to develop a plan that recognizes the appropriate role of each 
agency. Expansion of the Ombudsman office will depend on the roles 
played by other agencies, the status of Federal immigration law, and 
the competing priorities that must be addressed by the Department.
    Question 50. Please report to the Committee within 30 days on the 
status of the Initiative and with a plan for the use of the FY 08 
Initiative funds including: existing and additional activities by the 
Ombudsman's office; population, workforce and other surveys; support 
for other Federal and CNMI agencies?
    Answer. Our planning process is on-going. We expect to report to 
the Committee shortly.
    Question 51. Do you agree to include a ``CNMI Initiative'' line 
item under ``Assistance to Territories,'' and a description of the 
program in future budget justifications?
    Answer. We will ensure that the Committee is fully informed in the 
future.
    Question 52. Under the Covenant agreement between the U.S. and the 
Northern Mariana Islands, the U.S. agreed to provide $27.7 million to 
support power, water, and other capital construction. However, because 
local revenues increased substantially in the 1990s, more than half of 
these funds have been re-allocated to other territories. The FY 2009 
budget proposes continuing this reallocation of Covenant assistance to 
the other territories.
    Answer. The allocation of funding among the territories is 
consistent with Public Law 104-134 enacted on April 26, 1996.
    Question 53. Given the dramatic deterioration in the Northern 
Mariana Islands' fiscal and economic health since 2005--a loss of 25 
percent of revenues--and the current crisis in power, water and other 
essential services, don't you think that it would be appropriate to 
reexamine the policy of reallocating Covenant assistance, and instead 
focus on the CNMI where the need is greatest, and where the assistance 
was originally targeted?
    Answer. Funds originally authorized for the CNMI under the Covenant 
were re-directed by the Congress in Public Law 104-134 (1996) to 
capital improvements in the territories of American Samoa, Guam, the 
Virgin Island and the CNMI. Although the CNMI could benefit from 
expenditure of the entire sum, the other territories have similar 
serious needs for infrastructure which would not be met if the current 
allocations were altered.
    Question 54. The Budget Justification states that the ``relocation 
of thousands of U.S. military personnel and their dependents from 
Okinawa, Japan to Guam will create huge challenges for the island's 
infrastructure in coming years and will be an important consideration 
for FY 2009 and subsequent budgets.'' However, there is no 
recommendation for funding in FY2009 to respond to this huge challenge.
    Answer. The Secretary of the Interior, the Office of Insular 
Affairs, and the Office of Management and Budget are engaged with the 
Interagency Group on Insular Affairs (IGIA), the DOD Joint Guam Program 
Office (JGPO), and the Government of Guam to address this matter. The 
Federal government faces a serious challenge to assign roles and 
resources among the appropriate agencies and stakeholders to meet both 
defense and civilian needs. Although no funding is currently requested, 
this is a high priority issue for the Department.
    Question 55. What steps are being taken to coordinate planning and 
funding among DOD, civilian departments, and OMB to assure that the 
civilian community in Guam will be prepared to cope with this 
redeployment?
    Answer. The Secretary of the Interior, the Office of Insular 
Affairs, and the Office of Management and Budget are engaged with the 
Interagency Group on Insular Affairs (IGIA), the DOD Joint Guam Program 
Office (JGPO), and the Government of Guam to address these challenges.
    Question 56. Do the redeployment plans for the region include 
likely construction projects in the CNMI, such as facilities on Tinian 
to support training activities?
    Answer. We understand that some use will be made of Tinian for 
training purposes. We are not fully apprised of what that will entail.
    Question 57. The House, and this Committee, have passed legislation 
(H.R. 3079) to extend U.S. immigration laws to the CNMI with special 
provisions to respond to the special needs of the CNMI and it is 
expected to be sent to the President soon.
    Question 58. Has the Interagency Group on Insular Affairs (IGIA) 
met to begin planning for implementation of this legislation?
    Answer to Questions 57 and 58. No. The legislation introduced in 
the Senate and House, was the subject of substantive change when it was 
reported by the House Committee on Natural Resources and subsequently 
passed by the House of Representatives. When we are certain of the 
final form of the legislation and Senate action, the Administration 
will take steps to begin implementation.
    Question 59. Would you briefly describe the tasks which Federal 
agencies, including OIA, will need to undertake when this bill becomes 
law, and the estimated cost of implementation?
    Answer. The Department of Homeland Security will shoulder most of 
the implementation of H.R. 3079 after action is taken by the Congress. 
Because of changes in the provisions of the bill, the cost of 
implementing the legislation has not been finalized.
    Question 60. The economic assistance provisions of the Compact with 
the Republic of Palau (P.L. 99-658) terminate at the end of fiscal year 
2009. This does not leave much time for the Administration to develop 
recommendations on future assistance and for Congress to properly 
consider them. If it becomes necessary, as a stop-gap measure, would 
you support extending U.S. program assistance to Palau, except for 
disaster response programs, so that Palau would be treated in the same 
manner as the Federated States of Micronesia and the Republic of the 
Marshall Islands under the Compacts approved in 2003 (P.L. 108-188)?
    Answer. The first discussions concerning the review of Palau's 
Compact of Free Association took place in Palau on March 10, 2008. It 
is premature to judge whether an extension of program assistance might 
be necessary. Palau's compact is markedly different from the original 
agreements with the FSM and the RMI, including the assumptions 
regarding future financial assistance.
    Question 61. What will be the reduction in financial assistance to 
Palau after FY 09, Palau's options to replace those funds, and the 
likely impact of the reduction?
    Answer. The final major payments under section 211 and section 221 
of the Palau compact are estimated to be $13,271,000 for fiscal year 
2009. This amount can be supplemented under the terms of the compact 
with $5 million drawn from the compact-funded trust fund. After fiscal 
year 2009, the compact allows Palau to withdraw $15 million annually 
from the trust fund. Palau will need to make fiscal adjustments to its 
tax and budget policies to deal with a $3 million annual shortfall for 
2010.

                        BUREAU OF INDIAN AFFAIRS

    The Navajo Regional Office has done a very good job of processing 
the rights-of-way approvals necessary to construct water supply 
pipelines on the eastern part of the Navajo reservation. That project, 
being funded by the State of New Mexico, will eventually hook into the 
Navajo-Gallup Project.
    Question 62a. Does the BIA have sufficient funding in 2008 and the 
2009 budget to continue processing those rights-of-way applications?
    Answer. The BIA has budgeted money for FY 2008 and 2009 that will 
enable it to continue processing these applications.
    Question 62b. Does the BIA have any funding in 2008 or the 2009 
budget to contribute towards the construction of the water supply lines 
in the Eastern Navajo area? Is water supply part of the Federal 
Government's trust responsibilities to Federally-recognized Indian 
tribes?
    Answer. Neither the FY 2008 nor 2009 budget requests include funds 
to contribute towards the construction of the water supply lines in the 
Eastern Navajo area as there is no authority for the BIA to request 
funds for a proposed settlement solution that has not been approved by 
Congress. Helping to secure and protect Indian water rights are a trust 
responsibility of the Federal government. Water supply needs of Indian 
tribes are currently being addressed by various federal agencies: 
Department of Agriculture programs, Environmental Protection Agency, 
Indian Health Service, the Bureau of Reclamation and the BIA.
    Question 63. Please outline the activities in 2008 and 2009 that 
are planned with the funding provided for the Navajo Indian Irrigation 
Project.
    Answer. In FY 2008, the BIA received $12,414,000 for the Navajo 
Indian Irrigation Project (NIIP). The funding will be used for:

  <bullet> Correction of the remaining transfer deficiencies.
  <bullet> Correction of Block 8 and 9, Stage 1 Pumping Plants and 
        laterals Transfer Inspection punch list items.
  <bullet> Ongoing Endangered Species Act compliance work as required 
        by U.S. Fish and Wild life Services. This work will meet BIA's 
        environmental commitments in the Finding of No Significant 
        Impact (FONSI) for this project. The Recovery Implementation 
        Program (RIP) activity is being undertaken in coordination with 
        Federal, State, and Tribal entities.
  <bullet> Power service to NIIP.
  <bullet> Construction management on present contracts, designs for 
        future work, and operation and maintenance work for completed 
        features during construction status of the NIIP.
  <bullet> Technical assistance to the Navajo Agricultural Products 
        Industry, the tribal agri-business.

    In FY 2009, the BIA has requested $3,242,000 to correct remaining 
deficiencies work identified by the OIG, $700,000 for BIA Program 
Coordination and $8,479,000 to initiate new construction on Block 9, 
Stages 2 & 3 to be managed and constructed by BOR.
    Question 64. How much funding was provided in 2008, and how much is 
in the 2009 budget, for the BIA's water rights negotiation and 
litigation program? How much for the water rights planning and 
assistance program?
    Answer. In FY 2008, $6.8 million was appropriated for Water Rights 
Litigation & Negotiation and $5.6 million was appropriated for Water 
Resource Management, Planning & Development.
    In FY 2009, the President's Budget requests $6.9 million for Water 
Rights Litigation & Negotiation and $5.8 million for Water Resource 
Management, Planning & Development.
    Question 65. How much funding did the BIA provide to the Middle Rio 
Grande Conservancy District in FY2007 for operations, maintenance, and 
betterment of irrigation facilities of the 6 Middle Rio Grande Pueblos? 
What specific work was performed with that funding? How much funding is 
recommended in the FY 2009 budget?
    Answer. The BIA obligated via contract modification $1,200,000 in 
FY 2007 for Middle Rio Grande Conservancy District (MRGCD) operation, 
maintenance and betterment work. The MRGCD manages water in the system 
by mowing, tree trimming, and dredging ditches as well as maintaining 
structures such as diversions, checks, gates, sluices and turnouts. The 
FY 2009 budget proposes $1.2 million for MRGCD work plus $160,000 for 
BIA administrative costs
    Question 66. Congress is trying to better understand the magnitude 
and response necessary to address the contamination issues that exist 
on the Navajo Nation as a result of uranium mining.
    Answer. Recently, the Bureau of Indian Affairs (BIA), Environmental 
Protection Agency (EPA), Department of Energy (DOE), Nuclear Regulatory 
Commission (NRC), and Indian Health Service (IHS) began working 
together to address public health and environmental impacts from 
historical uranium mining on the Navajo Reservation. Uranium mining has 
left the Navajo Nation with a legacy of over 500 abandoned uranium 
mines, four inactive uranium milling sites, a former dump site, 
contaminated groundwater, structures that may contain elevated levels 
of radiation, and prospective environmental and public health concerns.
    The federal agencies will assess and remediate contaminated 
structures, assess potentially contaminated water sources and assist 
affected residents, assess and as necessary require cleanup of 
abandoned uranium mines, continue the remediation of groundwater at 
inactive uranium milling sites, assess and cleanup the Tuba City Dump, 
and assess and treat health conditions.
    Question 67. What actions is the Department of the Interior 
currently undertaking to assess the scope of the contamination problem? 
Is the Department currently undertaking any remediation activity at 
this time? Is it likely that water resources on the Navajo Reservation 
have been contaminated as a result of Uranium mining?
    Answer. As noted in the response to the previous question, the 
several agencies engaged in this matter plan to assess and remediate 
contaminated structures, and an assessment of potentially contaminated 
water sources is planned. Since 1999, the BIA has been conducting 
assessment activities of uranium contamination of groundwater, springs, 
contaminant migration pathways, sources, and receptors for the purpose 
of formulating a final plan. Groundwater monitoring data indicates that 
the uranium plume in the groundwater extends to the west and southwest 
of the site. The Department is awaiting the results of further testing 
expected later this year in order to comprehend the extent of the 
problem.
    The BIA is currently assessing the need for an interim measure to 
prevent contamination of nearby water supplies. If an imminent threat 
to water supplies is identified, the agencies will determine the most 
appropriate authorities to achieve an interim remedy. These authorities 
might include a Superfund response or enforcement action.
    Question 68. Is there any funding in the 2009 budget to address the 
problem of radiation contamination on the Navajo Reservation?
    Answer. There is no funding requested for this in 2009. If 
monitoring and testing conducted in 2008 at the site of the Tuba City 
Dump indicate a need for interim remedial measures to mitigate 
potential threats to public health, funding will be redirected to 
address urgent needs.
    Question 69. What Indian water rights settlements are authorized 
but still awaiting completion of implementation activity? For those 
settlements, has the Administration requested sufficient funds in the 
FY'09 budget to keep implementation activity on a timeframe expected in 
the settlement legislation?
    Answer. Since Indian water rights settlements are unique and often 
complex agreements, some settlements take longer to fully implement 
than others. For example, settlements calling for the construction of 
irrigation facilities or other water infrastructure necessarily will 
take longer to be implemented than settlements that simply allocate 
already developed water resources. To the extent that implementation is 
measured by the appropriation of specific funds authorized in 
settlement legislation, only three settlements have not been fully 
funded. Those are the Truckee-Carson-Pyramid Lake Water Rights Act, 
Pub.L. 101-618, which has required on-going appropriations for the 
completion of the Truckee River Operating Agreement; the Colorado Ute 
Indian Water Rights Settlement Act (Animas LaPlata), Pub.L. No. 106-
554, which requires appropriations for continued construction of the 
Animas La Plata Project; and the Snake River Water Rights Act (Nez 
Perce), Public Law No. 108-447, which was enacted in 2004 and has a 
statutory funding schedule that extends to FY 2011. The Department's 
FY2009 budget contains funds to maintain the funding requirements of 
these settlements on the timeframes expected in the settlement 
legislation.

                         BUREAU OF RECLAMATION

    Question 70. What is the current schedule for completion of the 
Animas-La Plata Project? What activity is scheduled for 2008 and 
planned for 2009?
    Answer. Construction of the project is scheduled for completion in 
FY 2012, with close out activities expected to continue into FY 2013.
    Activities scheduled for FY 2008 include the completion of Ridges 
Basin Dam and appurtenant features; completion of Ridges Basin Inlet 
Conduit; the award of construction contracts for the relocation of 
County Road 211 and the relocation of utilities around the reservoir 
basin; the award of the first contracts for the construction of the 
Navajo Nation Municipal Pipeline; and testing of the Durango Pumping 
Plant and Ridges Basin Inlet Conduit in preparation for the initial 
filling of the reservoir in FY 2009. In addition to construction 
funding, this request includes funding for operation and maintenance of 
improvements for wetland and wildlife mitigation lands associated with 
the project.
    Activities planned for FY 2009 include the completion of 
construction and testing on Durango Pumping Plant; the start of the 
initial filling of Lake Nighthorse; continued construction of the 
Navajo Nation Municipal Pipeline; and continued work on the relocation 
of County Road 211 and utilities around the reservoir basin. In 
addition to construction funding, this request includes continued 
funding for operation and maintenance of improvements for wetland and 
wildlife mitigation lands associated with the project.
    Reclamation's budget proposes a massive cut for rural water 
projects. Several years ago, Reclamation proposed similar cuts due to 
the fact that it did not have an authorized rural water program. It now 
has an authorized program.
    Question 71a. What is the basis for the proposed cuts?
    Answer. The ``Rural Water Supply Act of 2007,'' Public Law 109-451, 
authorized a rural water supply program in Reclamation to address rural 
water needs in the 17 western United States. The FY 2009 President's 
budget includes $1 million for this program to provide assistance to 
non-Federal entities to conduct appraisal investigations.
    Prior to the authorization of the ``Rural Water Supply Act'', 
Congress authorized several individual rural water projects. Funding in 
the amount of $39 million is included in the FY 2009 President's budget 
request for these rural water projects, which are separate and distinct 
from any projects that may be authorized under the Act.
    Question 71b. What are the financial implications of the proposed 
cuts on the Fort Peck, Garrison, Lewis & Clark, Mni Wicone, North 
Central Montana, and Perkins County Projects? Will costs increase for 
those projects if funding is slowed or stopped?
    Answer. The FY 2009 President's budget request includes $26.2 
million for the Mni Wiconi rural water system and $12.76 million for 
the Garrison rural water system. In all cases, if funding is slowed or 
stopped, the costs to complete the projects will increase as a result 
of inflation and rising prices for materials.
    Question 72. It does not appear that Reclamation's budget includes 
any funding to initiate the loan guarantee program authorized by the 
Rural Water Supply Act of 2006 (P.L. No. 109-451).
    Answer. Reclamation's 2008 appropriation included $1 million in 
funding for Title II. Since the program is still under development, it 
is anticipated that there will be carry over funds to continue the 
initiation of the program in 2009. Therefore, no additional request has 
been made for FY09.
    Question 73. What is the basis for the Administration's delay in 
establishing the loan guarantee program? What is the status of the 
criteria that the Secretary is to establish which identifies the 
entities and projects for which loan guarantees will be available?
    Answer. Reclamation is drafting a regulation to implement this 
program.
    Question 74. Elephant Butte Irrigation District and El Paso Water 
Improvement Dist. No.1, recently signed a settlement agreement related 
to operation of the Rio Grande Project. This agreement is historic in 
nature and important for long-term stability in the area.
    Answer. The Operation Agreement was signed by the districts on 
February 14, 2008, in El Paso, Texas. Reclamation expects to be able to 
sign the agreement in early spring 2008. A Compromise and Settlement 
Agreement will need to be completed before we can execute the 
agreement, after which lawsuits filed in New Mexico by Elephant Butte 
Irrigation District and in Texas by El Paso County Water Improvement 
District No. 1 are expected to be dismissed.
    Question 75. What is Reclamation doing to finalize the settlement 
agreement? What activities does it need carry-out to ensure that the 
settlement is implemented?
    Answer. Reclamation is coordinating with the Department of Justice 
to make sure that final clearance is received prior to signing the 
agreement. Reclamation will also work with the irrigation districts to 
finalize an Operations Manual that will detail the day to day 
operations of the Rio Grande Project as well as the water accounting 
process. Implementation of the basic requirements of the agreement will 
begin with the 2008 irrigation season. The irrigation season began on 
February 20, 2008. Monthly meetings with the irrigation districts and 
the International Boundary and Water Commission will ensure that the 
new agreement will be properly implemented. Reclamation coordinates 
with the International Boundary and Water Commission on the allocations 
and deliveries to Mexico from the Rio Grande Project water supply.
    Question 76. What is the status of Reclamation's review of the El 
Paso office and will the Districts' be consulted as part of that 
review?
    Answer. Reclamation is assembling a panel to review the El Paso 
Field Division operations. Panel members will need to be knowledgeable 
of Project operations and requirements. All parties that receive 
services from the Rio Grande Project will be given the opportunity to 
comment.
    Question 77. There are ongoing concerns that the 2003 biological 
opinion is not sustainable and that long-term compliance is not 
sustainable. Does Reclamation share that concern? Please explain any 
actions that Reclamation is taking to address any concerns with the 
2003 Biological Opinion.
    Answer. To address concerns about the long-term sustainability of 
the 2003 Biological Opinion, as the Federal action agencies, 
Reclamation and the U.S. Army Corps of Engineers have decided to seek a 
new biological opinion and have it in place by the 2010 irrigation 
season. We are working closely with the U.S. Fish and Wildlife Service 
as well as with the entire Middle Rio Grande Endangered Species 
Collaborative Program to determine an appropriate course of action. 
Multi-agency personnel are working on hydrological and biological 
modeling to help determine what water operations could be carried 
forward in a new biological assessment and Section 7 consultation. 
Reclamation is also seeking greater participation and contributions 
from non-federal partners so that the next biological opinion can be 
more sustainable. In addition, Reclamation is pursuing the idea of a 
combination Section 7/Section 10 ESA compliance strategy to meet 
compliance needs of federal and non-federal participants in the long-
term. At the same time, Reclamation continues to acquire as much 
supplemental water as possible and to carefully manage its use.
    Question 78. What specific activities are being carried out with 
the funding provided in 2008 to address ESA issues in the Middle Rio 
Grande?
    Answer. Specific FY 2008 activities being carried out include: 
acquisition of supplemental water and pumping from the Low Flow 
Conveyance Channel to meet ESA flow requirements; hydrological and 
biological modeling to develop sustainable water management strategies; 
operations and maintenance (O&M) of stream flow and groundwater gages 
in the MRG; O&M of four Rio Grande silvery minnow (RGSM) breeding and 
rearing facilities; rescue, relocation and augmentation of RGSM; RGSM 
population surveys, health assessment, genetics, longitudinal movement 
and nutrient availability studies; Southwestern willow flycatcher 
surveys; water quality monitoring; habitat restoration project 
planning, construction, monitoring and maintenance; fish passage 
studies, design, and environmental compliance; continued development of 
decision support system to increase irrigation efficiencies; public 
outreach, technical and administrative support, contract administration 
and program management.
    Question 79. Please explain in details the activities that 
Reclamation intends to undertake with the funding provided for its 
portion of the Water for America initiative? There is a line item for 
``Enhanced ESA Activities,'' which includes some funding for the Middle 
Rio Grande Project. What specific activities are going to be undertaken 
in the Middle Rio Grande?
    Answer. The path toward recovery of both the Rio Grande silvery 
minnow and the Southwestern willow flycatcher is linked to the 
availability and suitability of habitats on which each species depend. 
Funding associated with ``Enhanced ESA Activities'' will be used for 
habitat restoration projects designed to benefit both the minnow and 
the flycatcher.
    Question 80. What is the projected balance in the Reclamation Fund 
in FY'08 and FY'09? Are there projections in the budget beyond the 
FY'09 timeframe? If so, please identify those projected balances.
    Answer. The projected balances in the Reclamation Fund are $7.612 
million for FY 2008 and $9.232 million for FY 2009. There are no 
projections beyond FY 2009.
    Question 81. What is the status of the litigation involving 
drainage issues with the San Luis Unit? Is a settlement of these issues 
imminent? If so, what are the general terms expected in a potential 
settlement?
    Answer. Parties continue to make significant progress in the San 
Luis Drainage Collaborative Resolution Process. During a March 5, 2008, 
meeting, Senator Feinstein and other congressional members tasked the 
parties with specific deliverables to advance the concepts associated 
with current resolution and to draft proposed legislation, which would 
be required to resolve the issue. The legislation discussed at the 
March 5 meeting would have the following general parameters: to provide 
a solution to drainage problems; to eliminate drainage liability to the 
United States; to provide benefits to the environment; to minimize need 
for Federal appropriations; to sustain San Joaquin Valley agriculture; 
to avoid redirected impacts to third parties and to comport with State 
Water Project operations. Under this proposal, the United States would 
be relieved of the obligation to provide drainage to the San Luis Unit 
(SLU) and each SLU water service contractor would assume responsibility 
to provide drainage through implementation of an in-valley solution 
that is generally consistent with Reclamation's Record of Decision.
    Question 82a. What significant ESA issues does Reclamation expect 
to encounter in FY'08 and FY'09?
    Answer. Some Reclamation projects affect species listed under the 
Endangered Species Act (ESA). As a result, we envision a number of ESA-
related issues in FY 2008 and FY 2009.
Central Valley Project
    ESA protected species representing both anadromous (migratory with 
spawning in freshwater) and delta-resident life histories occur in the 
San Francisco Estuary and its tributaries. Reclamation expects to 
encounter significant issues in FY 2008 and FY 2009 relating to:

  <bullet> Delta-smelt: This species is listed as ``threatened'' under 
        both Federal ESA (FESA) and California ESA (CESA). It is a 
        small species that spends a substantial portion of its life-
        cycle within range of the CVP export facility in Tracy, CA. The 
        species has been intensively studied for almost twenty years, 
        yet significant gaps in scientific understanding remain. 
        Protective export curtailments have been in place to protect 
        this species since the 1990s. There are special protective 
        measures for Delta-smelt currently in place pursuant to an 
        interim order in NRDC vs. Kempthorne. The US Fish and Wildlife 
        Service (FWS) Biological Opinion (BO) governing the CVP 
        Operations Criteria and Plan (OCAP) is being re-consulted as a 
        result of rulings in the same case. A new OCAP BO from FWS is 
        expected by September 2008.
  <bullet> Longfin smelt: This species formally became a candidate for 
        protection under CESA on February 29, 2008. It is a small 
        species that spawns and spends part of its juvenile development 
        within range of the CVP export facility, but for the rest of 
        its life-cycle occurs in higher salinity water in San Francisco 
        Bay and along the California coast. Longfin smelt has been 
        petitioned for listing under the ESA and in 2008 we expect to 
        issue a 90-day finding on whether the petition presents 
        substantive information. Interim protective measures applying 
        to the State Water Project are currently being implemented, and 
        approximately match those ordered for Delta-smelt in NRDC vs. 
        Kempthorne. The extent to which the CVP will be required to 
        modify its operations specifically to protect longfin smelt 
        during 2008 has not been determined due to the process outlined 
        above. However, the CVP is currently monitoring salvage for 
        reproductive condition of entrained longfin smelt and 
        occurrence of longfin larvae in cooperation with California 
        Department of Fish and Game (DWR).

    Anadromous species

  <bullet> Chinook salmon: Sacramento River Winter-run Chinook are 
        FESA-listed as Endangered, while Central Valley Spring-run are 
        FESA-listed as Threatened. Runs of Chinook salmon declined 
        unexpectedly in 2007. This may result in lower allowable take 
        levels in the upcoming year with effects on CVP operations, if 
        take limits are not met.
  <bullet> Steelhead: The California Central Valley Steelhead Distinct 
        Population Segment is FESA-listed as Threatened. Steelhead are 
        believed to be the salmonid species most in decline in the 
        Central Valley. The OCAP biological opinion endangered species 
        consultation with NMFS may place constraints, designed to 
        protect steelhead, on CVP operations.
  <bullet> Green sturgeon: The population of green sturgeon residing in 
        the Sacramento Valley was FESA-listed as Threatened in 2006. 
        Gate operations at Red Bluff Diversion Dam are implicated in 
        killing adult sturgeon in 2007. New operational constraints may 
        be imposed to protect green sturgeon at Red Bluff.

    Question 82b. Are there any situations where contract water 
deliveries are at risk because of restrictions that might be imposed 
because of the ESA?
    Answer. The following information responds to this question:
Klamath Basin Project
    The Klamath Basin Project (Project) has been undergoing formal ESA 
consultations with both FWS and National Marine Fisheries Service 
(NMFS) on the operations of the Project. The three agencies have worked 
closely together. Reclamation received a favorable BO from FWS in April 
2008 which requires both the continuation and addition of conservation 
activities, and anticipates a favorable BO from NMFS with similar 
requirements. We are currently reviewing to determine the budget 
implications of the FWS, and will review the NMFS BO for the same once 
finalized. The NMFS BO will be subject to an independent outside peer 
review. If the BO determines the Klamath River instream flows contained 
in Reclamation's proposed action are inadequate to protect threatened 
salmon, it could result in negative impacts to the Project water 
supply. Until the new NMFS BO is in place, the 2002 BO governs the 
Project operations. To date, forecasts for 2008 indicate a limited 
potential for impacts to the Project deliveries this summer.
Central Valley Project
    Potentially, overall project supply or our ability to deliver the 
water on a desired schedule may be affected by actions necessary to 
comply with the ESA. In order to reduce the risk to the project water 
supply Reclamation will use P.L. 102-575, Title XXXIV, Central Valley 
Project Improvement Act of 1992 (CVPIA), (October 30, 1992) Sections 
3406(b)(1), (b)(2) and (b)(3) and the Environmental Water Account (EWA) 
for ESA related actions this year to the extent possible. Reclamation 
and DWR are coordinating the operations of the CVP and the State Water 
Project with the operations of other water districts to minimize the 
potential that our ability to deliver the water to the south of the 
Delta users is not negatively affected as a result. There may be 
situations where these programs and operations cannot be utilized, and 
these actions could affect the project water supply available to our 
contractors or our ability to deliver the water.
    Any additional in-stream flow or temperature requirements for 
Chinook salmon or steelhead that may result from our ESA consultation 
on CVP operations on the Sacramento, American or Stanislaus Rivers that 
cannot be covered by CVPIA or EWA could affect the water supply 
available for the CVP contractors in those basins.
Klamath Basin Project
    The Project has very little carry over storage and essentially 
operates on an annual water supply. The ESA requirements of the 2002 
BOs are based on water year types that are defined by ranges of inflow. 
The current snowpack, which represents approximately one-half of the 
inflows to Upper Klamath Lake, is at 125 percent of average. Should 
there be a short duration high volume run off season, there would be no 
place to store the water and it would be spilled. Then, as inflows drop 
off later in the season, there is the potential for impacts to the 
Project deliveries in order to meet BO lake and river requirements.

                     DOI CLIMATE CHANGE ACTIVITIES

    Question 83. Population growth, over-allocated watersheds, 
environmental needs, and aging water facilities are also stressing 
water supplies. These situations are likely to be exacerbated by the 
impacts of climate change on water. Does DOI have an aggressive plan to 
better understand the impacts of climate change on water and to begin 
to implement appropriate mitigation strategies? If so, how is this 
reflected in the 2009 budget?
    Answer. Sustained drought, changing climate, rapid population 
growth, increased environmental and energy needs, in addition to aging 
water facilities has created water conflicts leading to a growing 
interstate and intrastate competition for water resources throughout 
the West.
    In 2007, the National Science and Technology Council reported that 
``[a]bundant supplies of clean, fresh water can no longer be taken for 
granted.'' The Council of State Governments echoed this concern, 
concluding that ``water, which used to be considered a ubiquitous 
resource, is now scarce in some parts of the country, and not just in 
the West . . . The water wars have spread to the Midwest, East, and 
South, as well.'' Competition for water is increasing because of rapid 
population growth and growing environmental and energy needs. These 
water needs are escalating at a time of chronic drought and changes in 
water availability resulting from climate change.
    In FY 2009, Reclamation will partner with U.S. Geological Survey 
(USGS) to implement the Water for America Initiative aimed at 
addressing these issues. The FY 2009 Reclamation budget request for the 
Initiative is $31.9 million. Of this amount, $19.0 million appears as 
the Water for America Initiative line item. The remaining $12.9 million 
is included in specific projects for enhanced endangered species 
recovery activities ($8.9 million) and investigation programs ($4.0 
million).
    The initiative will begin a nationwide assessment of water 
availability, water quality, and human and environmental water use to 
be completed by 2019. The assessment is the first water census in 30 
years, a precursor to working with States to better manage water. Good 
management begins with good information.
    The 2009 proposal also includes $8.2 million for USGS investments 
in science programs to support the water census, including additional 
investments of $3.7 million to expand and modernize USGS streamgages.
    As we have noted in the past, uncertainties persist on the timing, 
scale, and site-specific incidence of climate change impacts, including 
with regard to water. Reclamation is proactively pursuing the 
integration of climate change information into our water and power 
operations planning and project specific studies (e.g., the recently 
adopted Colorado River interim operating guidelines for Lake Powell and 
Lake Mead, the Central Valley Project Operations criteria and plan, and 
the Yakima River Basin Water Storage feasibility study). To further our 
knowledge of the potential impacts of climate change, Reclamation is 
aggressively pursuing collaborative research efforts with other federal 
agencies, universities, and state and local agencies. As a part of the 
Water For America Initiative, Reclamation will begin a significant 
program of gathering and examining basin and project-specific data to 
determine if long-term shifts in hydrology from climate change are 
within operational capabilities, and recommend any needed changes.

     Responses of the Department of the Interior to Questions From 
                            Senator Menendez

    Question 84. There is zero funding for the Highlands Conservation 
Act under the new budget. The Highlands Region stretches across four 
states--from northwester Connecticut, across the lower Hudson River 
Valley in New York, through New Jersey and into east-central 
Pennsylvania and this program protects open spaces in this region and a 
watershed which supplies drinking water for millions. We need this 
program more than ever because the population is growing rapidly and we 
are losing thousands of acres to development. We managed to secure $1.7 
million in funding in the last appropriations bill, but this is just a 
drop in the bucket. Why has this Administration turned its back on the 
Highlands?
    Answer. Since enactment of the Highlands Conservation Act, Congress 
has provided $3.7 million for the program, including $1.8 million in 
2008 in the Fish and Wildlife Service land acquisition account. The 
funds are being used to conserve land in the Highlands region located 
in the States of New Jersey, New York, Pennsylvania, and Connecticut.
    We agree that the program is important and beneficial to the four 
States; however, the 2009 budget for the Fish and Wildlife Service 
emphasizes programs that support the bureau's mission. The Department 
will continue to work with the U.S. Department of Agriculture, the four 
states, local governments, and many partners in the Highlands Region as 
provided for in Public Law 108-421.
    Question 85. Over the past 7 years, we have seen fewer endangered 
species listings than at any other point since the Endangered Species 
Act (ESA) was enacted. We have also seen a growth in the number of 
``candidate species''. the most recent Candidate Notice of Review 
(CNOR) listed 280 candidates. For these species, listing as threatened 
or endangered is warranted, but precluded by other higher priority 
listing activities. In the past 7 years, why have so few candidates 
moved from the candidate list to either the threatened or endangered 
list? I am concerned that your department is not making the 
``expeditious progress'' in listing vulnerable species that is required 
by the ESA.
    Answer. The Fish and Wildlife Service (Service) has been focusing 
its listing funding on addressing the petition backlog, due to the 
ESA's requirement to make a determination on a listing petition within 
12 months of receiving it. At the same time, the Service has strongly 
encouraged cooperative conservation activities for candidate species, 
so that listing might become unnecessary for some of them. In FY 2008, 
at our request, Congress moved $3 million from critical habitat funding 
to listing funding. This is enabling the Service to begin to address 
the listing backlog. The FY 2009 President's Budget retains this 
additional $3 million for listing.
    Question 86. How many species has the Fish and Wildlife Service 
(FWS) moved from the candidate list since you became Secretary? Among 
those species, how many were listed as endangered or threatened, how 
many recovered, and how many became extinct?
    Answer. Since becoming the Secretary on May 26, 2006, 20 species 
have been removed from candidate status. These removals have occurred 
for several different reasons: 7 species were removed due to 
conservation efforts that resulted in improved status for the species 
or provided information that the species was more abundant than 
previously believed; the other 13 species were removed due to changes 
in taxonomy or lack of enough information on threats and status to 
justify continuing to consider the species as a candidate for listing. 
Of these 20 species removed from candidate status, none were removed 
due to being listed or to having become extinct.
    Question 87. Of the existing candidates, how many does FWS 
contemplate listing this year? Given the large number of candidate 
species, why does the proposed FY'09 budget ask for funding reductions 
to the endangered species program? I am particularly troubled by the 
decrease in candidate conservation money and the listing program funds. 
Reducing funding does not seem to be the best way to either protect 
vulnerable species or clear the backlog of candidates.
    Answer. For FY 2008, we hope to propose listing determinations for 
71 species, including many candidate species, and finalize a listing 
determination for 1 species. For FY 2009, we hope to propose listing 
determinations for 21 species and finalize listing determinations for 
71 species.
    The FY 2009 request for endangered species is well above the FY 
2007 enacted level. Most of the reductions from FY 2008 are a result of 
the elimination of Congressional earmarks, many of which entailed pass-
through funding for other entities.
    We are confident that the funding requested for the Endangered 
Species program in FY 2009 will allow us to fulfill our 
responsibilities under the ESA while also meeting other Service 
priorities. In addition, the Service believes that savings can be 
achieved through streamlining program management.
    Question 88. How much money does the Department estimate is needed 
to address the backlog of species on the CNOR, thereby allowing the FWS 
to act on each of the candidate species?
    Answer. In the December 2007 CNOR we identified 280 species as 
candidates. Each species is different and the cost to prepare proposed 
and final listing determinations, with concurrent critical habitat 
designations, varies substantially. A very rough average estimate is 
approximately $163 million for each species. We, are, however, 
combining species into multispecies listing packages, where 
appropriate, to evaluate species with similar threats or in similar 
ecosystems. We anticipate this approach would result in significant 
cost-savings.
    Question 89. The December 2007 CNOR states that the FWS is hampered 
by lack of resources and the requirements of the Anti-Deficiency Act. 
Has the Department of the Interior ever asked for a change in the 
statutory cap on listing program dollars?
    Answer. Every year we brief the Department and Congress on the 
appropriateness of the cap based on our projected statutory and 
litigation workload. In FY 2008, at our request, Congress moved $3 
million from critical habitat funding to listing funding. This is 
enabling the Service to begin to address the listing backlog. The FY 
2009 President's Budget retains this additional $3 million for listing.

     Responses of the Department of the Interior to Questions From 
                             Senator Akaka

    Question 90. There is a 20% reduction in the Office of Insular 
Affairs budget for assistance to Territories, Coral Reef Initiative, 
and a similar reduction to Coral Reef Initiative grants. Please explain 
the rationale. The geothermal fund was zero-ed out. (From $6,183 
thousand in FY08) What is the rationale?
    Answer. The request for the Coral Reef Initiative in the OIA fiscal 
year 2009 budget request is $750,000. This represents a 50% increase 
from the Department's request for fiscal year 2007. Limitations on 
resources preclude the Department from requesting the $979,000 
appropriated for fiscal year 2008, which was itself $229,000 more than 
the Administration's request.
    Question 91. The National Park Service submitted to the President a 
list of certified eligible centennial proposals for FY 2008. This list 
will remain valid for the next 8 years, although I understand that the 
Secretary has the option of amending it. How are projects selected? 
When will the project selection be finalized? Is there a prioritization 
process for future funding of projects?
    Answer. The list of eligible centennial proposals for fiscal year 
2008 that was released last August anticipated legislation to create a 
mandatory $100 million matching fund for the Centennial Challenge. It 
was not intended to be an eight-year list, but instead to provide 
proposals that could be considered for 2008. Since January, the 
National Park Service has been working to narrow the list of eligible 
proposals for 2008 to be funded from on the appropriation of $24.6 
million for the Centennial Challenge. Although the proposals on the 
eligible list that are not funded this year will provide a solid start 
as we look at fiscal year 2009 and beyond, we will make annual calls 
for proposals to ensure that we meet requirements described in the 
legislation. Future calls will also provide parks, programs, and their 
partners' ongoing opportunities to be part of this effort to prepare 
national parks for their 100th anniversary.
    Projects and programs approved for funding in 2008 were selected 
through a rigorous process involving six criteria and eligibility 
reviews beginning in the summer of 2007. The approved projects will be 
announced in the coming weeks; they meet all criteria and are based 
largely on regional priorities as provided by the National Park 
Service's National Leadership Council. The method by which we request 
and evaluate future calls will be based on the requirements of the 
Centennial Challenge fund legislation.
    Question 92. I was pleased to join with Senator Bingaman in 
introducing the Administration's Centennial Challenge initiative, and 
as you know, we held a hearing on the bill last August. It seems that 
the major outstanding issue is the need to find an appropriate offset 
for the mandatory spending in the bill. Does the Administration have 
any recommended offsets to allow this legislation to move forward?
    Answer. The Department has shared some ideas for an offset with 
Committee staff in a bicameral and bipartisan fashion, but all parties 
have been unable to reach consensus to date. There are several 
mandatory proposals with savings in the President's budget for FY 2009. 
We are not asking Congress to use any of these proposals specifically 
to offset the Centennial Challenge proposal; we reference these 
proposals only to illustrate some options for offsets.
    Question 93. Under the Covenant agreement between the U.S. and the 
Northern Mariana Islands, the U.S. agreed to provide 27.7 million 
dollars annually to support power, water, and other capital 
construction. However, because local revenues increased substantially 
in the 1990s, more than half of these funds have been re-allocated to 
other territories. The FY 2009 budget proposes continuing this 
reallocation of Covenant assistance to the other territories. Given the 
dramatic deterioration in the Northern Mariana Islands' fiscal and 
economic health since 2005--a loss of 25 percent of revenues--and the 
current crisis in power, water and other essential services, don't you 
think that it would be appropriate to reexamine the policy of 
reallocating Covenant assistance, and instead focus on the CNMI where 
the need is greatest and where the assistance was originally targeted?
    Answer. As we noted in the response to question 53, funds 
originally authorized for the CNMI under the Covenant were re-directed 
by the Congress in Public Law 104-134 (1996) to capital improvements in 
the territories of American Samoa, Guam, the Virgin Island and the 
CNMI. Although the CNMI could benefit from expenditure of the entire 
sum, the other territories have similar serious needs for 
infrastructure which would not be met if the current allocations were 
altered.
    Question 94. I was pleased to see that the Administration has 
proposed increased funding for National Park Service operations. Given 
that increase, however, I'm curious why funding for Kaloko-Honokohau 
National Historical Park is proposed to be reduced?
    Answer. Kaloko-Honokohau National Historical Park is expected to 
receive $1.856 million dollars in FY 2009, a reduction of $33,000 from 
the FY 2008 Enacted Budget.
    The majority of the decrease from the enacted budget stems from a 
$65,000 transfer from Kaloko-Honokohau NHP to centralized funding for 
GSA space rental costs. The year after a park receives a programmatic 
increase for newly leased office space the funding is transferred to 
External Administrative Costs to pay this portion of a centralized 
bill.
    The remainder of the decrease of $6,000 reflects the park's share 
of an effort by the Department of the Interior to reduce travel and 
relocation expenses Department-wide. However, the park operations 
funding includes a $38,000 increase to its budget to cover fixed costs, 
which results in an effective increase of $32,000 to the park's budget 
in FY 2009.
    Question 95. During the past year, there have been several media 
reports about the Park Service planning significant visitor fee 
increases at several park units. Please provide me with a list of all 
proposed fee increases.
    Answer. The NPS has no entrance fee increases planned for 2008 with 
the exception of Assateague Island National Seashore. If approved, the 
rates will align more closely with the neighboring Chincoteague 
National Wildlife Refuge. Additional entrance fee rate proposals for 
2009 are pending the Director's decision to move forward with civic 
engagement.
    The NPS has approved expanded amenity fee increases at 6 parks for 
camping, boat launch, and tours as authorized by the Federal Lands 
Recreation Enhancement Act. Expanded amenity fee adjustments are 
typically based on comparability to local services and are usually done 
annually. This comparability process has been used since fees were 
authorized by the Land and Water Conservation Fund Act of 1965 to 
ensure that rates do not unfairly compete with local private service 
providers. All such fee adjustments require extensive civic engagement 
and consultation.
    Question 96. One of my concerns about increased visitor fees is 
that any new fee revenues be used to supplement, and not offset, 
existing appropriations. And while your proposed budget does provide 
for an increase in park operations, it proposes a significant cut in 
the park construction budget. Doesn't this proposed decrease in the 
construction and major maintenance budget really mean that more park 
funding needs are being shifted onto visitors in the form of higher 
visitor fees?
    Answer. There is no direct correlation between higher visitor fees 
and significant cuts in the NPS construction budget. Fee revenue is 
used primarily to enhance visitor services and address deferred 
maintenance on visitor facilities. The NPS has extensive fee 
expenditure policies and comprehensive review processes approved by 
Department of the Interior, OMB, and Congress to ensure that fee money 
does not supplant appropriations and annual operational costs. Annually 
about 25% of fee revenues fund large complex rehabilitation or new 
construction projects in parks. This percentage has not changed since 
the Fee Demonstration Program was established or as a result of cuts to 
the NPS construction budget.
    Question 97. Recently there has been much publicity concerning 
attempts to overturn existing NPS regulations addressing the use of 
firearms in national parks. One of the arguments made by proponents of 
allowing visitors to carry loaded firearms into national parks is that 
the parks are dangerous for unarmed visitors. In your opinion, are 
units of the national park system unsafe? Do you have any data as to 
the level of violent crime in national parks, and whether this is a 
significant law management problem? The Budget Justification states 
that the ``relocation of thousands of U.S. military personnel and their 
dependents from Okinawa, Japan to Guam will create huge challenges for 
the island's infrastructure in coming years and will be an important 
consideration for FY 2009 and subsequent budgets.'' However, there is 
no recommendation for funding in FY 2009 to respond to this challenge.
    Answer. Regrettably, we understand that criminal activity can take 
place in virtually any area, including a park area. However, we do not 
believe that units of the National Park System are, as a whole, unsafe. 
With approximately 280 million visits last year the National Park 
Service reported only 384 violent crimes. These statistics include 
crime numbers reported by the U.S. Park Police which focuses the 
majority of its law enforcement efforts in metropolitan areas such as 
Washington D.C., New York, and San Francisco. The probability of 
becoming a victim of violent crime in a national park area is roughly 1 
in 708,333. These statistics are far lower than other similarly-
situated communities.
    Question 98. What steps are being taken to coordinate planning and 
funding among DOD, civilian departments, and OMB to assure that the 
civilian community in Guam will be prepared to cope with this 
redeployment?
    Answer. As we noted in the response to question 54, the Secretary 
of the Interior, the Office of Insular Affairs, and the Office of 
Management and Budget are heavily engaged with the Interagency Group on 
Insular Affairs, the DOD Joint Guam Program Office, and the Government 
of Guam to address this matter. The Federal government faces a serious 
challenge to assign roles and resources among the appropriate agencies 
and stakeholders to meet both defense and civilian needs. Although no 
funding is currently requested, this is a high priority issue for the 
Department.

     Responses of the Department of the Interior to Questions From 
                            Senator Johnson

    Question 99. Mr. Secretary: Over the past decade the AmericaView 
program has grown from existing in one state to over 30 states. As part 
of the USGS, it has provided valuable remote sensing expertise, 
technologies and applications to almost 20 different federal agencies 
and numerous state governments across the country. It is structured to 
empower the states in collaboration with the federal government to 
decide what their remote sensing needs are and how to meet them. This 
paradigm has proven very successful in fighting forest fires in 
California, managing droughts in Georgia and preventing Lyme Disease 
epidemics in Massachusetts. At the same time, NASA, USGS, Homeland 
Security and many other federal departments are relying on AmericaView 
to utilize the data obtained through our satellites and provide 
necessary trainings to maximize such efforts. With this program serving 
so many needs, how does the AmericaView Program funding fit into the 
National Land Imaging Program budget picture over the long term, since 
it is not in your budget this year?
    Answer. Land imagery is necessary for the inventory and monitoring 
of global agriculture, tracking the status of Earth's ecosystems and 
natural resources--including impacts of climate variability--and 
assessing the condition of the Nation's urban and rural 
infrastructures. In addition, land imagery supports the military and 
intelligence missions and is used for disaster mitigation and response, 
and many other operational applications important to governments 
worldwide.
    Implementing NLIP and maintaining current land imaging capabilities 
is a top priority for the Department, and may require additions, 
upgrades and changes to resources related to land remote sensing, 
satellite and data operations, and land science. The 2009 budget 
focuses on land imagery acquisition as its top priority, but the role 
of organizations such as AmericaView to provide operational land 
imagery services, such as developing and distributing land imaging 
products and performing research, education, and training to States, 
localities, and tribal governments throughout the United States, is 
likely to remain important.

     Responses of the Department of the Interior to Questions From 
                            Senator Cantwell

                          SCIENTIFIC INTEGRITY

    In draft documents for the Environmental Assessment of proposed oil 
and gas lease sale 202, Minerals Management Service biologists 
concluded that the proposed actions would be reasonably expected to 
have ``significant adverse impacts'' and, in the case of pink salmon, 
that ``eventually, adult populations may gradually decline to 
extinction.'' However, the final Environmental Assessment, as edited by 
upper management non-scientists, changes those conclusions to state 
that the proposed action would have ``insignificant'' impacts. 
Supervisor Paul Stang, then Chief of the Leasing and Environmental 
Section for Alaska Region MMS--and now with Shell Alaska--wrote that 
the edits were needed because ``as you know, a conclusion of 
significance under NEPA means an EIS & delay in sale 202. That would, 
as you can imagine, not go over well with HQ & others.''
    Question 100a. Why were supervisor non-scientists allowed to 
overrule and change the scientific conclusions of a MMS biologist?
    Answer. The supervisors and managers who oversee and review NEPA 
documents are scientists. NEPA and its implementing regulations call 
upon Federal agencies to use an interdisciplinary approach to analysis. 
We have wide-ranging discussions among our biologists, oceanographers, 
engineers, geologists, and social scientists. When differing opinions 
arise, and cannot be resolved, managers consider science, technology 
and the applicable laws in arriving at the agency conclusion.
    MMS presented the analyst's conclusions regarding potential impacts 
regarding pink salmon in the Sale 202 EA. Where the agency and other 
agency experts disagreed with the analyst was in the application of the 
threshold level for significance. The definitions for a significance 
threshold are a value judgment rather than a set standard. The Sale 202 
EA defines a significant impact to fish as ``[a]n adverse impact that 
results in an abundance decline and/or change in distribution requiring 
three or more generations for the indicated population to recover.'' 
The fact that an expert misinterpreted the referenced ``indicated 
population'' in application of the threshold definition does not mean 
that the agency changed his conclusions.
    Question 100b. Is this regular practice in the agency?
    Answer. Normal MMS practice is that when substantive changes in the 
approach and conclusions of an analysis are proposed or occur, the 
changes are reviewed by other scientists and in particular MMS subject 
matter experts in the field of the analysis under review. In the case 
of pink salmon, other MMS fisheries experts and oil spill risk analysts 
presented management with professional opinions that differed from the 
assigned analyst.
    Question 100c. Is the timing of oil and gas lease sales and 
pressure from MMS headquarters normally a consideration for agency 
scientists when making scientific conclusions?
    Answer. The tentative sale date determines the critical action 
dates for completion of the lease sale and NEPA processes. As in any 
effective organization, due dates are an important stimulus for keeping 
a project on track. However, the timing of oil and gas lease sales and 
any perceived pressure from MMS headquarters do not dictate conclusions 
of the analyses.
    The e-mail quote is misleading. The MMS had already prepared an EIS 
on Sale 202--the Beaufort Sea Multiple-sale EIS. The MMS completed an 
EA to analyze whether a Supplemental EIS was necessary to prepare for 
Sale 202, although the agency was not required to use that mechanism. 
The NEPA regulations of the Council on Environmental Quality require 
supplementation of an EIS where there are ``significant new 
circumstances or information relevant to environmental concerns and 
bearing on the proposed action or its impacts.'' We concluded that new 
circumstances and relevant new information did not present a seriously 
different picture of the environmental impact of the proposed project 
from what was previously envisioned and fully and adequately analyzed, 
and thus we concluded that preparation of a supplemental EIS was not 
needed.
    Question 101. It appears that timing of the sale and pressure from 
headquarters was clearly a factor here--what guarantee can you give me 
that it was not a factor in the scientific conclusions of other 
environmental analyses for other oil and gas lease sales?
    Answer. Scientific conclusions are not driven by sale timing or 
management pressure. The MMS follows a well established process for 
preparation of our NEPA documents--from identification of the issues, 
alternatives, and mitigation measures evaluated in the documents, 
through methodologies to develop scenarios of likely activities, to 
peer, management, and Solicitor reviews. Concurrent with our NEPA 
analysis, we prepare environmental evaluations for the Endangered 
Species Act, Essential Fish Habitat, and other required consultations. 
Normal MMS practice is that when substantive changes in the approach 
and conclusions of an analysis are proposed or occur, the changes are 
reviewed by other scientists and in particular MMS subject matter 
experts in the field of the analysis under review.
    Question 102. Fish and Wildlife Service just released a new 
Scientific Code of Professional Conduct. Why is this code applicable to 
only the FWS and not other agencies in the Department of Interior?
    Question 102a. Does this code of conduct apply to political 
appointees? If not, why not?
    Answer. The Secretary of the Interior has directed each bureau to 
develop its own scientific code of conduct. Overall, these efforts are 
being coordinated by the Department of the Interior Research and 
Development Council of which the Fish and Wildlife Service is a member. 
The U.S. Geological Survey has also developed a scientific code of 
conduct. The Service's recently adopted Scientific Code of Professional 
Conduct is incorporated into the USFWS Manual (212 FW 7) and is 
applicable to all Service employees, career and political, that are 
involved in the conduct, direction or supervision of scientific 
activities, or the interpretation, translation or application of the 
results of scientific activities.
  invasive species excluded from consideration by the chukchi sea eis
    Recently released internal agency emails show that a Minerals 
Management biologist stated that the Chukchi Sea lease sale 193 
Environmental Impact Statement should have assessed the potential 
impact of invasive species due to oil and gas development. Despite the 
expert opinion of this agency scientist, upper management decided to 
exclude invasive species from considerations by the EIS, and responded 
by removing the scientist from working on invasive species issues. In 
internal emails, management justified their decision to exclude 
invasive species by stating that ``the MMS has no specific program 
authorities relevant to the prevention of introduction of invasive 
species. The U.S. Coast Guard is responsible for inspection of all 
ships, including transported semi-submersible drilling rigs, for 
possible transport of invasive species.''
    Question 103a. Did DOI/MMS consult with the Coast Guard on invasive 
species for the Chukchi Sea lease sale 193 Environmental Impact 
Statement?
    Answer. The U.S. Coast Guard promulgates and administers 
regulations implementing the National Aquatic Invasive Species Act. 
There is no formal process for consultation with the Coast Guard on 
invasive species, however the Coast Guard receives notices of all sales 
and sale-related environmental documents for review and comment.
    Under Executive Order 13112, the Secretary of the Interior co-
chairs an Invasive Species Advisory Committee. The committee recently 
published the 2008--2012 National Invasive Species Management Plan for 
public comment. However, it should be noted that the Executive Order 
explicitly states that the requirements of the order do not affect the 
obligations of Federal agencies under 16 USC 4713 (the authority for 
Coast Guard's ballast water regulations).
    Question 103b. Is it normal for agencies to disregard environmental 
concerns in the creation of an EIS because those issues fall under the 
jurisdiction of a different agency? Agency officials have consistently 
touted the thoroughness and comprehensiveness of the
    Answer. As with many Federal agencies, it is normal for MMS to 
defer to the expertise and regulations of agencies that have 
jurisdiction over activities and resources being considered in a NEPA 
document. In some cases, such deferral to other agency expertise is 
required by law via consultation and permitting requirements. In this 
case, MMS deferred to the environmental analysis and resulting 
rulemaking by the Coast Guard with respect to invasive species.
    Question 103c. Chukchi Sea lease sale EIS. How is the EIS 
comprehensive if agency officials intentionally and knowingly chose to 
disregard certain environmental impacts like the potential impact of 
invasive species?
    Answer. This issue was not raised in scoping meetings or through 
public comment. The issue of invasive species was raised by one of the 
agency's scientists (a fisheries biologist, not an invasive species 
specialist) during preparation of the Chukchi Sea Sale EIS. The issue 
was discussed among Regional and HQ specialists. The issue focused on a 
general concern about the government's (i.e., Coast Guard's) management 
of invasive species rather than a particular environmental impact 
associated with the proposed action. Further, it was determined that 
the risk of introduction posed by the limited number of potential 
vessels did not warrant additional analysis.
    Question 103d. On what other occasions has DOI or MMS removed 
scientists from working on certain issues when their professional 
scientific opinions on those issues ran counter to what the agency is 
attempting to achieve?
    Answer. MMS supports robust discussion among NEPA analysts and 
other agency specialists, as demonstrated by the recently circulating 
internal e-mails. Mission-critical work does not mandate specific 
conclusions or outcomes; it mandates that work be completed to support 
timely and informed decisions. Employees may be given alternate work 
assignments if they are unwilling to comply with or implement 
Departmental or agency policy and decisions.

                       INTERNATIONAL POLAR REPORT

    In the weeks before the Chukchi Sea oil and gas lease sale, the 
Arctic Council's Arctic Monitoring and Assessment Programme was set to 
release an international assessment of oil and gas activities in the 
arctic. Numerous press reports surfaced, however, indicating that the 
United States blocked the release of significant portions of that 
report, preventing the publication of any science policy 
recommendations. It is my understanding that it was the U.S. State 
Department in partnership with the Department of Interior's Minerals 
Management Service that took the lead on the U.S. involvement in the 
development of this report.
    Question 104. Did the United States prevent the public release of 
parts of the Assessment of Oil and Gas Activities in the Arctic 2007 
international report, including science policy recommendations?
    Answer. Reports of the Working Groups to the Arctic Council are 
developed through a consensus process. The Oil and Gas Assessment 
Report is comprised of three parts and was presented to the Senior 
Arctic Officials (SAOs) for their receipt in Narvik, Norway, in late 
November, 2007. The Technical Report was developed by science and 
engineering experts. It was received and has been released with the 
concurrence of the United States. The Overview report developed by the 
Arctic Monitoring and Assessment Programme (AMAP), a working group 
comprised of governmental delegations (not science or technical 
authors), has also been received and released with the concurrence of 
the United States. The Executive Summary and Recommendations portion of 
the intergovernmental AMAP report, however, was not accepted by the 
SAOs and has not been released because a few of the government members 
of the Arctic Council did not concur.
    The United States has reviewed the documents to ensure that they 
are scientifically correct and consistent. The United States fully 
supported the release of the Oil and Gas Activities in the Arctic-
Effects and Potential Effects science technical document. However, a 
review of the AMAP Executive Summary and Recommendations section by the 
United States concluded that a number of adjustments to the policy 
recommendations were necessary to, among other things, recognize that 
some of the recommendations had homeland security implications, raised 
domestic governance concerns and issues with the treatment of 
proprietary data. For these and other reasons, the United States and 
other governments concluded that the AMAP Executive Summary and 
Recommendations should not be published at this time. It must be 
emphasized that the recommendations in question were policy 
recommendations and no changes to any of the science or technical 
recommendations in the technical report were made.
    Question 105. What role did the Department of Interior or the 
Minerals Management Service play in blocking the release of important 
elements of this report?Did Department of Interior or Minerals 
Management Service employees take any actions that resulted in 
preventing the release of parts of the report?
    Answer. The Department advised the State Department as to its 
concerns with the AMAP Executive Summary and Recommendations section. 
Upon review of the Executive Summary and Recommendations section, 
Interior concluded that it contained policy recommendations that did 
not appear elsewhere in the AMAP overview document, calling into 
question the executive summary recommendations and the process used to 
develop these recommendations. Secondly, there was no detailed analysis 
accompanying the policy recommendations anywhere in the complete report 
that provided sufficient explanation tying the policy recommendations 
to the scientific assessment and overview documents. As a consequence, 
it was impossible for Interior to understand either the genesis of 
these policy recommendations or their advantages and disadvantages. 
Also, as a matter of policy, the United States does not accede to 
documents containing recommendations that it does not fully expect to 
be able to accept and implement.
    Question 106. Did the Department of Interior and Minerals 
Management Service block this report because of the impending Chukchi 
Sea oil and gas lease sale? Was the Chukchi Sea sale in any way a 
factor in the decisions to block parts of this report?
    Answer. No, the Chukchi Sea sale did not influence either the 
Department or the Minerals Management Service. The Department's 
concerns regarding the Executive Summary and Recommendations section 
(the other two parts of the Assessment have been publicly released) are 
primarily based on the recognition that some of the AMAP 
intergovernmental recommendations had homeland security implications, 
raised domestic governance concerns and issues with the treatment of 
proprietary data. Further, these recommendations had not undergone a 
full examination within the U.S. interagency process normally accorded 
such recommendations.
    Question 107. Did any of the recommendations of the report that 
were blocked by the Department of Interior and Minerals Management 
Service run counter to the actions about to be taken through the 
Chukchi Sea oil and gas lease sale?
    Answer. No, we do not believe that the recommendations run counter 
to the actions taken through the Chukchi Sea oil and gas lease sale, 
and neither the Department nor the Minerals Management Service blocked 
the recommendations.
   environmental risks of the chukchi sea oil and gas lease sale 193
    In letters commenting on the Chukchi Sea Environmental Impact 
Statement, the U.S. Fish and Wildlife Service and Environmental 
Protection Agency both stated that the MMS analysis repeatedly 
downplayed the likelihood of major oil spills and the impact they would 
have on the environment. As EPA wrote, ``EPA is very concerned that the 
risk to environmental resources . . . is understated.'' According to 
the National Marine Fisheries Service (NMFS), the proposed lease sale's 
environmental analysis ``did not present a strong enough case to NMFS 
that marine resources would be adequately protected.'' On endangered 
species, the EPA commented that ``EPA is concerned that relevant 
information regarding risks to threatened and endangered species from 
oil and gas development has not been adequately considered.''
    Question 108. Why did MMS move forward with the Chukchi Sea oil and 
gas lease sale despite strong assertions from three separate federal 
agencies that MMS had not yet adequately considered the environmental 
impacts?
    Answer. The amount and detail of information needed for a NEPA 
analysis depends upon the decision it is intended to support. The four-
stage review process established by the 1978 amendments to the OCS 
Lands Act provides for phased evaluation and informed decision-making 
to ensure that OCS oil and gas activities are conducted in an 
environmentally sound manner. This ``tiered'' approach to NEPA 
compliance and decision-making is encouraged by the NEPA regulations 
(40 CFR 1502.20 and 1508.28) to focus on issues ripe for decision. As a 
program progresses, more detailed and additional information may become 
available to support more focused and detailed analyses. In the same 
way, our incremental consultations with the National Marine Fisheries 
Service and the Fish and Wildlife Service under ESA section 7 is 
designed to allow MMS and the Services to incorporate more detailed 
information specific to the proposed activities and locations.
    NMFS was a cooperating agency on the EIS. Under ESA Section 7, Fish 
and Wildlife Service conducted incremental step consultation with MMS. 
The FWS initial determination on lease sale 193 was that during the 
pre-development stage, jeopardy was not reasonably expected. MMS 
received concurrence from NMFS for our conclusion of no adverse effects 
to essential fish habitat. EPA comments on the draft EIS included 
several recommendations to include additional supporting information in 
the final EIS. MMS provided the requested information.
    MMS believes that our NEPA analyses, ESA biological opinions, and 
existing regulatory framework are appropriate and sufficient to make an 
informed decision on the lease sale. Our Environmental Studies Program 
and continuing consultation and collaboration with other resource and 
regulatory agencies will provide the appropriate information and 
framework for future decisions on proposed OCS activities and for 
providing environmental protection.
    Question 109. Why did the final EIS continue to downplay the risk 
of oil spills, consistently using the qualitative term ``unlikely'' 
despite, as EPA pointed out in its letter on the draft EIS, the 31-51% 
probability of a major spill? According to EPA, this level of 
probability of a major spill ``represents a significant risk.''
    Answer. In our response to comment 013-005 from EPA in the Chukchi 
Sea Planning Area Oil and Gas Lease Sale Final EIS the MMS states:

          The text in Section IV.A 4 has been revised to clarify that 
        0.33-0.51 is the estimated range of the mean number of large 
        spills for Alternative I, III, or IV over the lifetime of 
        production and is not the percent chance of one or more large 
        spills occurring.

    The MMS estimates that, most likely, there will be zero large 
spills over a 25-year production period if 1 billion barrels of oil is 
discovered and produced. However there is a risk. The mean number of 
large oil spills estimated (0.33-0.51) is less than one spill over that 
period. While the MMS defines a ``large'' spill as greater than or 
equal to 1,000 barrels, a spill of the same size would be considered 
``moderate to major'' using the U.S. Coast Guard classification.
    No one can predict whether a large spill will or will not occur as 
a result of the Chukchi Sea Lease Sale. The historical record indicates 
that we would not expect a large spill to occur. Advances in technology 
and procedures are reducing risks from previous levels in the past.
    Question 110. Does MMS still believe that the risks of major oil 
spills in the Chukchi Sea are ``unlikely'' despite having a 
probability, by MMS's own admission, as high as 51 percent? Other 
agencies also commented that the EIS underestimated the probability of 
a major oil spill occurring. Why did MMS not ``incorporate a more 
comprehensive approach to oil spill risk'' as recommended by EPA?
    Answer. At this time, MMS does consider the risk of a large spill 
(1,000 barrels) to be unlikely to occur in this frontier area. There 
are currently no proven recoverable oil resources. The oil spill risk 
analysis assumes that the economically minimum 1 billion barrels of oil 
is discovered and produced. Given that assumption, MMS estimate of the 
mean number of large spills (0.33-0.51) is less than one spill over the 
assumed 25-year production period.
    In our response to comments 013-005 and 013-012 from EPA in the 
Chukchi Sea Planning Area Oil and Gas Lease Sale Final EIS, the MMS 
clarified that the numbers are mean spill numbers and not probabilities 
and explained our oil spill risk analysis model as follows:

    The Oil Spill Risk Analysis (OSRA) model has been developed and 
refined over many years by the DOI as a tool to evaluate the risk of 
potential oil spills on the OCS. The OSRA model addresses the following 
independent factors:

          1) the chance of one or more large spills occurring as a 
        function of the quantity of oil to be produced and handled at 
        individual production sites, pipelines, and tanker routes;
          2) the probabilities of various spill trajectories from 
        production sites and transportation routes as a function of 
        wind, current, and ice circulation for the area; and
          3) the location in space and time of vulnerable resources 
        defined according to the same coordinate system used in the 
        spill-trajectory simulation.

    The results of these individual parts of the analysis are combined 
to estimate the total oil-spill risk associated with production and 
transportation at locations within a proposed lease area. The 
information from each component is used separately and together in the 
risk analysis that is present in the EIS.
    Regarding the oil-spill trajectories, we follow a stochastic 
approach. A total of 2,700 trajectories (1,575 in winter; 1,125 in 
summer) were launched from each of the 1,002 hypothetical launch points 
for a total of 2,705,400 trajectories. The two spills that EPA 
commented on are the sizes of a platform and a pipeline spill assumed 
for purposes of analysis.
    We acknowledge that there is considerable uncertainty with regard 
to the location, timing, and density of biological resources in the 
Chukchi Sea. As in the past, we intend to continue to improve the 
resource information in the model as it becomes available.
    The combined probabilities represent the chance of one or more 
spills greater than or equal to 1,000 barrels, and the estimated number 
of spills (mean), both occurring and contacting a certain environmental 
resource area, land segment or group of land segments within 3, 10, 30, 
60, 180, or 360 days, over the entire 25-year production period.
    The MMS uses the three components listed above to derive the 
combined probabilities. The MMS estimates the chance of one or more 
spills occurring over the production life of the Alternative. The 
information from more than 2 million trajectories is used to tabulate 
the likelihood of whether over 90 resources, 126 land segments, and 17 
grouped land segments are contacted over the six time periods. These 
two components are combined through matrix multiplication to derive the 
combined probabilities.
    The analysis of impacts from large oil spills assumes no cleanup 
and is thus conservative. Oil-spill cleanup is analyzed separately as a 
mitigation measure. However, it is a requirement that a response 
program and equipment be onsite and available.
    Question 111. Were the calculated environmental risks based in any 
way on assumptions regarding the future cost of oil?
    Answer. The spill rate for large oil spills was derived from the 
number of platforms, wells, and miles of pipelines used in the scenario 
for the EIS. The scenario used to derive this information was based on 
hydrocarbon resource estimates that included both technically 
recoverable and economically recoverable resources. The scenario used 
for the oil spill risk analysis and the environmental impact analysis 
is for discovery and production of 1 billion barrels of oil, which was 
determined in the assessment to be the minimum economically recoverable 
amount.
    Question 112. Were any analyses in the Chukchi Sea oil and gas 
lease sale EIS based on assumptions regarding the future cost of oil? 
If so, what was the assumed future cost of oil? Why was this price 
used? Are these assumptions realistic? Would the analyses' outcomes 
have differed if a different future price of oil had been assumed?
    Answer. The scenarios analyzed in the EIS were based on evaluations 
of economic resource potential, technical feasibility and assumptions 
of industry interest. All of these factors are influenced by the 
prevailing price of oil when decisions are made regarding activities. 
High oil prices would tend to encourage activities, but high prices 
also result in higher costs for operations which would increase 
investment risks. When the EIS was written, the prevailing oil price 
was approximately $50 per barrel, and this price level was implicit in 
the scenario assumptions. Now oil prices are over $100 per barrel. 
However, in Alaska and elsewhere the level of offshore activities has 
not doubled with oil prices. Companies making billion dollar investment 
decisions typically take a longer term view of oil prices, recognizing 
that oil prices could drop as fast as they went up. The previous 
scenarios are reasonable, even with higher current oil prices, because 
technical, regulator, and high-cost impediments will still restrict 
industry operations in the Chukchi.
    In his testimony before the House Select Committee on Energy 
Independence and Global Warming on January 17, 2008, Minerals 
Management Service Directory Randall Luthi touted the supposedly 
extensive environmental research and analysis behind the agency's 
decision to proceed with the Chukchi Sea lease sale. He testified that 
``the MMS and the FWS [Fish and Wildlife Service] have continued to 
work closely together, particularly in Alaska, to assure that energy 
development has little or no negative effect upon wildlife resources.'' 
Mr. Luthi failed to mention, however, that the U.S. Fish and Wildlife 
Service and the National Marine Fisheries Service both recommended that 
MMS abandon the planned lease sale for an alternative, more 
environmentally sensitive plan--a recommendation the agency did not 
follow.
    Question 113a. Is Mr. Luthi's testimony that MMS is working to 
``assure that energy development has little or no negative effect upon 
wildlife resources'' a misrepresentation of the facts?
    Answer. No. The 1978 amendments to the OCSLA established a national 
policy of making the Federal OCS ``available for expeditious and 
orderly development, subject to environmental safeguards,'' and 
prescribed a four-stage process for oil and gas development, with 
review at each stage. This four-stage review process provides a 
``continuing opportunity for making informed adjustments'' to ensure 
that OCS oil and gas activities are conducted in an environmentally 
sound manner. The MMS completes the appropriate NEPA analyses and ESA 
consultations at each stage of OCS activities. The MMS regulatory 
framework has been developed over years of experience, research, and 
consultation to maximize the safety of operations and minimize harm to 
the environment. Typically, MMS authorizations for OCS activities 
include additional required proposal-and site-specific mitigation and 
monitoring measures.
    Question 113b. If you believe it is not a misrepresentation of the 
facts, are you saying that FWS, EPA, and NMFS are wrong in their 
assessments of the Chukchi Sea EIS? Was NMFS scientifically wrong in 
stating that the EIS ``did not present a strong enough case to NMFS 
that marine resources would be adequately protected?"
    Answer. For Endangered Species Act (ESA) section 7 consultation on 
Chukchi Sea Sale 193, the Fish and Wildlife Service conducted 
incremental step consultation with MMS. The FWS initial determination 
on lease sale 193 was that the pre-development stage, jeopardy was not 
reasonably expected. The ESA consultations with both FWS and NMFS are 
incremental consultations and MMS will re-consult should any 
development activities be proposed in the Chukchi Sea. The MMS received 
NMFS concurrence with MMS determination of no adverse effect to 
essential fish habitat.
    The EPA did not assign a level of EO (Environmental Objections) or 
refer the document to CEQ with an assigned level of EU (Environmentally 
Unsatisfactory). Instead, the EPA assigned a rating of EC-2 
(Environmental Concerns-Insufficient Information) to the Sale 193 EIS. 
EPA indicated that this conclusion was based on their concern about the 
uncertainties in the information, resources estimates (Opportunity 
Index), and probability of exploration, production, and development 
activities and the risks associated with these activities. Such 
uncertainties are inherent in exploration of a frontier area. Many of 
the uncertainties will be resolved over time with the completion of 
additional environmental studies, exploration seismic surveying and 
drilling, and monitoring of industry activities.
    Question 113c. How can the environmental analyses be considered 
extensive when MMS non-scientist managers consciously decided--against 
the advice of agency scientists--to exclude some environmental impacts 
such as invasive species?
    Answer. The supervisors and managers who oversee and review NEPA 
documents are scientists. It is not uncommon for individuals within an 
agency--both staff-level and management-level scientists--to have 
different opinions on a subject, based on their experience and 
expertise. Our NEPA documents are prepared by a multidisciplinary team 
that includes not only biologists and other environmental scientists, 
but also engineers, spill response experts, and regulatory specialists 
who understand the role of MMS regulations and existing lease 
stipulations in providing protections to the environment. The MMS 
considers the views of all of its analysts, including those who 
disagree with past findings and agency policies. Any individual staff 
member may express a view during the NEPA process. That individual may 
not have the full array of information or the full suite of expertise 
that ultimately form the basis for MMS's decisions. Ultimately, it is 
up to the agency to resolve issues and render the final agency 
decisions.

                       ARCTIC OIL SPILL RESPONSE

    In community forums held by MMS in Alaska to receive public comment 
on the draft Chukchi Sea EIS, community members consistently expressed 
major concerns over who would respond to a major oil spill in such a 
remote region. In those forums, MMS representatives usually answered 
that question by indicating that oil spill response and cleanup would 
be the responsibility of the oil companies.
    Question 114a. Does any federal government agency have the assets 
and resources currently in place to effectively respond to a major 
spill in the Chukchi sea and arrive on-scene to begin effective cleanup 
of a spill within 4 hours? Within 12 hours? Within 24 hours?
    Answer. Under the Oil Pollution Act of 1990, industry is 
responsible for having the equipment and personnel in place to respond 
to a major oil spill. The type and number of specific pieces of 
equipment, location and staging of equipment and time for deployment of 
equipment are evaluated for each proposed activity based on location of 
the project, and site specific assessment of the oil spill trajectory 
and resources potentially at risk. The statute also requires that an 
operator have an approved Oil Spill Response Plan prior to commencing 
exploration or development activities. The MMS has regulations in place 
that implement the Act, and is responsible for the review and approval 
of Oil Spill Response Plans.
    A Federal response would only be initiated if the Coast Guard 
determined that the industry response effort was unsatisfactory. The 
Coast Guard would initially rely on the equipment inventories available 
under an industry approved response plan. In a spill event, the Coast 
Guard would have access to these assets which would also affect their 
ability to respond to a non-oil and gas industry discharge and provide 
more rapid response to an incident. Both the Coast Guard and the State 
of Alaska maintain or have access to additional private, local and 
national oil spill response equipment inventories, vessels and aircraft 
that could be mobilized into the Chukchi Sea area. Much of the 
equipment and personnel already maintained through third party response 
organizations within the state could be mobilized within 24 hours or 
less.
    MMS will require industry to establish and maintain equipment and 
resources to clean up a potential worst case discharge. This will 
include on-site equipment for immediate response and additional 
equipment that can be mobilized to the site. MMS can also require 
equipment be pre-staged at specific locations to reduce response times 
to protect resources or habitat based on a risk assessment for the time 
and location of the activity.
    Under the Oil Pollution Act, industry is directly responsible for 
responding to an oil spill. There is currently no exploration or 
development activity in the Chukchi Sea and the response structure has 
not been established. Following lease sale 193, industry began working 
with the Federal and State agencies to develop and form a new oil spill 
response organization and structure specifically for the Chukchi Sea 
area similar to the oil spill response structure currently in place and 
approved for the Beaufort Sea. Most of the oil spill response tactics, 
types of response equipment and training programs that have been 
developed and approved for use in the Beaufort Sea can also be used in 
the Chukchi Sea.
    Exploratory drilling has been conducted previously in the Chukchi 
Sea in 1989-92 by Shell. Shell established a dedicated oil spill 
response barge that essentially housed a complete oil spill response 
organization including major equipment inventories, personnel and an 
incident command and communications center. This barge was maintained 
on-site throughout each drilling program. The oil spill response 
structure was supported by dedicated helicopters for air support and 
on-site support vessels. Shell adopted a similar approach for its 
proposed Beaufort Sea exploratory drilling program. The MMS expects a 
similar response strategy for any exploratory drilling activities 
resulting from sale 193--major equipment inventories and response 
personnel will be staged adjacent to exploratory drilling activities to 
facilitate immediate response actions in the event of an oil spill.
    In the event of development activity, the MMS expects industry to 
establish an oil spill response structure that will include substantial 
onsite equipment inventories and offsite inventories staged in Barrow 
or other Chukchi Sea communities that could be mobilized and deployed 
within 4-12 hours.
    Question 114b. Does MMS believe that relying primarily on a 
response by the oil companies is a sufficient oil spill response plan 
for the protection of fragile arctic resources?
    Answer. Yes. The Oil Pollution Act firmly establishes an operator's 
responsibility for providing sufficient personnel and equipment to 
address a potential worst-case discharge from their facilities. Through 
our oil spill response plan regulations, an oil company is required to 
thoroughly evaluate the area where they operate and provide sufficient 
response personnel, oil spill response tactics, and equipment 
inventories that are appropriate to the operating environment and serve 
to limit the impact of an oil spill on the receiving environment. Prior 
to any oil exploration, development or production operations, spill 
response assets must be immediately available in the operating area to 
support the activities. MMS also requires that all aspects of the oil 
spill response plan are exercised and tested on a routine basis to 
ensure that the actions described in the plan are appropriate and can 
be implemented without delay.
    In addition to the required company response plans, an added layer 
of response preparedness is supplied through the ``Alaska Federal and 
State Preparedness Plan for Response to Oil and Hazardous Substance 
Discharges and Releases'' (Unified Plan) and region specific Subarea 
Contingency Plans. These plans identify environmentally sensitive 
areas, wildlife and other natural or man-made resources at risk, 
recommended oil spill response tactics and response and other 
logistical assets both in the subarea and across the state, to combat 
the spill. The plans also contain a list of response scenarios specific 
to the region that identify what actions should be taken by each entity 
responsible for oil spill response. Operator oil spill response plans 
must be consistent with these plans per OPA 90 and MMS regulations.
    It should be noted that with oil and gas exploration activities 
also come oil spill response capabilities that would not otherwise 
exist in the Chukchi Sea. These assets would be available to respond to 
oil spills from other sources, thereby limiting the environmental 
impacts of those spills as well.
    Question 114c. Has MMS consulted with the U.S. Coast Guard on the 
adequacy of oil spill response capabilities in the Arctic?
    Answer. Yes. MMS works closely with the U.S. Coast Guard during all 
phases of our operations in OCS waters. The MMS ensures the Coast Guard 
is given the opportunity to review and comment on oil spill response 
plans during our project permitting process. The Coast Guard is 
included in MMS oil spill drills to carry out their role as Federal On-
Scene Commander and to evaluate oil company preparedness and response.
    Through the Alaska Regional Response Team (ARRT), the Coast Guard 
coordinates with all Federal and state agencies that have regulatory 
oversight or resources that could be impacted in an oil spill, to 
evaluate response capabilities. Through the Unified Plan and the 
various Subarea Contingency Plans for Alaska, the ARRT identifies 
environmentally sensitive areas, wildlife and other natural or man-made 
resources at risk and response and other logistical assets both in the 
subarea and across the state to combat the spill. As oil and gas 
operations move into the Chukchi Sea, the appropriate subarea 
contingency plans will have to be updated to include response scenarios 
for these operations and to include the significant spill response 
assets that will be brought into the region to support these 
activities.
    Question 114d. Does MMS and DOI believe that the U.S. Coast Guard 
currently has the assets and resources necessary to effectively respond 
to oil spills in the arctic?
    Answer. For activities related to potential OCS oil and gas 
activities, the Coast Guard would have sufficient assets. MMS requires 
oil companies to have the assets on-site and in the operational area to 
respond to their potential worst-case spill. There will not be any 
exploratory drilling taking place in the Chukchi until the operators 
have significant oil spill response equipment both on site and in close 
proximity to their drilling operations. In a spill event, the Coast 
Guard would act as the Federal On-Scene Commander and with the 
appropriate State, Local and Responsible Party On-Scene Commanders to 
oversee spill response operations. For an OCS oil spill, the Coast 
Guard should not be required to supply response equipment since that 
responsibility rests entirely with the responsible party. MMS through 
its inspection program would ensure the assets were available and in 
working order.
    For non-oil and gas related releases, the Coast Guard would have to 
mobilize all spill response assets from Kodiak or the West Coast via 
the Pacific Strike Team. In the event of a spill, the Coast Guard has 
the authority to contract with private entities to provide oil spill 
removal services through Basic Ordering Agreements with these 
companies. To augment their response assets the Coast Guard would most 
likely contract with oil spill response organizations within the state 
and activate Department of Defense assets to provide response equipment 
and personnel.

     Responses of the Department of the Interior to Questions From 
                            Senator Domenici

                        FIRE RETARDANT LAW SUIT

    I know you are aware of the lawsuit in Judge Malloy's court in 
Missoula, Montana regarding the use of fire retardant. I assume that 
part of the dilemma has to due with endangered species and their 
habitat. The court has demanded an EIS that requires that the 
Department and its agencies to complete certain consultations.
    Question 115. Are these consultations going to be completed before 
the next court date?
    Answer. The U.S. Fish and Wildlife Service completed its biological 
opinion and transmitted it to the U.S. Forest Service on February 15, 
2008. Subsequent to that action, we understand that the Forest Service 
issued its Decision Notice and Finding of No Significant Impact on 
February 18, 2008 in compliance with applicable court orders in the 
litigation Forest Service Employees for Environmental Ethics v. U.S. 
Forest Service.

            NATIONAL PARK SERVICE BUDGET--PERMANENT FUNDING

    Mr. Secretary, the proposed budget for the National Park Service 
shows a modest increase of one half of one percent in discretionary 
funding and a large increase of 60 percent in permanent funding.
    Question 116. What is the basis for the large increase in permanent 
funding?
    Answer. The increase appears large as compared to the fairly modest 
mandatory funding provided to the National Park Service. The proposed 
increase in permanent funding is for the establishment of a $100 
million mandatory fund, the Centennial Challenge, which would match 
non-federal cash donations for signature projects and programs at 
national parks. Authority for the program would exist through 2018. 
Such a fund would allow the National Park Service to leverage private 
contributions with Federal funding in order to improve and enhance our 
national parks for another century of conservation and visitor 
enjoyment. It is vitally important that this legislation be in place as 
soon as possible to maintain the energy and excitement of our partners, 
our dedicated employees, and the public at large that has been 
generated as a result of the Centennial proposal.
    The Centennial Challenge funding will require at least a dollar-
for-dollar match from non-Federal donations, with some projects 
leveraging a higher proportion of non-Federal funds. If fully 
subscribed, the annual overall benefit to the National Park Service 
would exceed $200 million ($100.0 million in Federal funds and at least 
$100 million from philanthropic donations).
    The Secretary of the Interior presented an initial list of eligible 
signature projects and programs in August 2007. The National Park 
Service will announce in the coming weeks the final list of projects 
and programs that will be funded in 2008. This project list draws on 
ideas generated through listening sessions, public engagement, and the 
input of NPS professionals. Over the next 10 years, the list will be 
expanded and the Secretary may amend the list annually. An annual 
report will provide financial information, such as the amount of 
donations collected, the rate of spending, and significant milestones 
and projects completed.

                NATIONAL PARK SERVICE OPERATIONS BUDGET

    Mr. Secretary, you have proposed an increase of $160.9 million for 
the operations portion of the National Park Service budget for FY 2009. 
That represents an eight percent increase over the funding you received 
in FY 2008. However, the overall budget for discretionary funding for 
the National Park Service would increase by only $14 million or one 
half of one percent in FY 2009.
    Question 117. What areas of the National Park Service budget have 
been reduced to achieve an eight percent increase in funding for park 
operations with only one half of one percent increase in the overall 
budget?
    Answer. As noted, the FY 2009 President's Budget request proposes 
an operating increase of $161 million for the National Park Service, 
including $31 million for fixed costs. To support operations in 
preparation of the Service's 100th anniversary, funding for lower 
priority congressional earmarks and items that can be deferred are 
reduced.
    The FY 2009 request for Construction is over $172.5 million, or 
about $46 million less than the FY 2008 enacted level. Nevertheless, 
significant resources are proposed to be invested in maintenance and 
rehabilitation in the FY 2009 request. A total of $18.9 billion is 
requested for park asset programs, an increase of $145 million over 
2008. Funding for the repair/rehabilitation program is level with the 
2008 enacted level at $99.6 million; preventive maintenance is up 27 
percent or $21.2 million; and funding for roads from the federal 
highway program is expected to increase by $15 million to $240 million.
    The FY 2009 budget request for land acquisition projects is level 
with the FY 2008 budget request but represents a $22 million decrease 
from the FY 2008 enacted level. This request seeks a balance of 
acquisition and other conservation programs that can leverage Federal 
funds. Using alternatives to Federal acquisition allows us to achieve 
conservation goals in partnership with others in lieu of adding more 
lands to Federal ownership. In FY 2009, the National Park Service is 
requesting $45.5 million for National Recreation and Preservation 
programs, which is $22 million below the FY 2008 enacted level due to 
the elimination of unrequested earmarks and funding for activities that 
are a lower priority than park operations.

           BUREAU OF RECLAMATION--NEW MEXICO MINNOW SANCTUARY

    The Reasonable and Prudent Alternatives specified in the 2003 Fish 
and Wildlife Service's Biological Opinion on the Rio Grande Silvery 
Minnow required the construction of two minnow refugia. In order to 
comply with this mandate, I have secured funding for the construction 
of a minnow sanctuary.
    Question 118. What is the status of the sanctuary's construction 
and when will it be completed?
    Answer. A contractor is on site completing the final phase of 
construction. They are scheduled to complete the sanctuary in October 
2008.
    Question 119. Does the USBR have sufficient funding in FY2008 to 
complete construction of the Minnow Sanctuary or will additional FY2009 
funds be required?
    Answer. The FY 2008 funding is sufficient to complete construction.
    Question 120. Will you please provide my office with a long-term 
operations plan for the Sanctuary?
    Answer. The U.S. Fish and Wildlife Service has developed an 
operating plan for the sanctuary, and we will be happy to provide it to 
you. The plan spells out the long term goals and covers in some detail 
an initial phase of operations during which the capacity and 
performance of the facility can be fully assessed allowing us to put a 
detailed long term plan together.

                       ESA COLLABORATIVE PROGRAM

    Mr. Secretary, in order to address endangered species issues in the 
Middle Rio Grande Valley, I established the Middle Rio Grande 
Endangered Species Act Collaborative Program. As you are aware, this 
provides a forum for all interested parties to discuss ways to address 
endangered species issues in a cooperative way and has been largely 
successful in producing consensus.
    Question 121. How is compliance with the 2003 Biological Opinion 
proceeding? Do you feel that adequate funds for this purpose are 
included in the President's budget request?
    Answer. To address concerns about the long-term sustainability of 
the 2003 Biological Opinion, as the Federal action agencies, 
Reclamation and the U.S. Army Corps of Engineers have decided to seek a 
new biological opinion and have it in place by the 2010 irrigation 
season. We are working closely with the U.S. Fish and Wildlife Service 
as well as with the entire Middle Rio Grande Endangered Species 
Collaborative Program to determine an appropriate course of action. 
Multi-agency personnel are working on hydrological and biological 
modeling to help determine what water operations could be carried 
forward in a new biological assessment and Section 7 consultation. 
Reclamation is also seeking greater participation and contributions 
from non-federal partners so that the next biological opinion can be 
more sustainable. In addition, Reclamation is pursuing the idea of a 
combination Section 7/Section 10 ESA compliance strategy to meet 
compliance needs of federal and non-federal participants in the long-
term. At the same time, Reclamation continues to acquire as much 
supplemental water as possible and to carefully manage its use.
    Question 122. What construction activities required by the 2003 
Biological Opinion do you anticipate will be completed in Fiscal Year 
2009?
    Answer. The Rio Grande Silvery Minnow Sanctuary will be completed 
in FY2009. Additional acreage of habitat restoration projects will also 
be completed.
    Question 123. Will the USBR work with federal agencies, state 
government agencies, tribes, local government and other non-
governmental groups in implementing the ESA Collaborative Program?
    Answer. Yes, Reclamation is actively working with both its federal 
and non-federal Collaborative Program partners to develop a proposed 
action for a new Biological Opinion. Reclamation remains eager to work 
side-by-side with all groups as we move toward a more sustainable long-
term Biological Opinion, especially to the extent that the non-federal 
partners are willing to meaningfully participate and make viable 
commitments to this process. Since Reclamation's responsibility in the 
Middle Rio Grande is limited to water storage and delivery, it does not 
deplete water from the Rio Grande. Reclamation's compliance with either 
the current or future Biological Opinions will need to rely on those 
entities that deplete water to come forward with solutions to meet flow 
requirements. If it becomes clear that Reclamation will not be able to 
meet BO flow requirements and no solutions are offered from non-federal 
entities, there may come a time in the near term when Reclamation and 
the Corps of Engineers will have to initiate a separate Section 7 
Consultation.

                RURAL WATER IMPLEMENTATION AND PROJECTS

    Question 124. Please describe what the Department has done to date 
regarding the implementation of Title II of the Rural Water Supply Act 
of 2006.
    Answer. Reclamation is drafting a regulation to implement this 
program.
    Question 125. Please describe the current funding request for 
authorized rural water projects and the necessary amount of funds 
necessary to address the current backlog of projects. Response: Below 
is a table showing rural water projects, their total estimated costs, 
costs as of September 30, 2007, and balance to complete. All dollars 
are Federal only. The first priority for funding rural water projects 
is the required O&M component, which is $15 million for FY 2009. For 
the construction component, Reclamation allocated funding based on 
objective criteria that gave priority to projects nearest to completion 
and projects that serve tribal needs. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   USBR DESALINATION RESEARCH PROGRAM

    Question 126. I am interested in the process and the schedule the 
Administration will undertake to develop both a short and long-term 
strategy within your desalination research program.
    Answer. Reclamation is building on the basic strategy presented in 
2006 and outlined in the FY 2009 budget request. We expect to receive 
the National Academy of Science's review of the potential role of 
desalination technologies in early spring 2008. The NAS review will be 
incorporated with an internal review of desalination technologies and 
our Managing for Excellence activities to identify both short and long-
term strategies.
    Question 127. What portion of the funds do you intend to provide 
for in-house research vs. extramural grants?
    Answer. Approximately $1,200,000 is intended to support in-house 
research, $1,075,000 is intended to support grants for external work, 
and $1,600,000 is intended to support operation and maintenance at the 
Brackish Groundwater National Desalination Research Facility.
    Question 128. Please describe what the guiding principles/goals of 
the program would include.
    Answer. The guiding principals/goals of the program include: A 
sustainable expansion of water supplies through advanced treatment 
technologies, applied research to reduce the cost and energy 
requirements of treating impaired waters, enhanced federal and non-
federal partnerships to accelerate the implementation of the technology 
and reduction of institutional barriers, leveraging of existing funds 
and knowledge, strong program/peer review processes and, most 
important, strong technology transfer to the private sector and to 
communities looking for water supply solutions.
    Question 129. Please describe which broad BOR mission areas would 
be supported by the desalination research.
    Answer. One of Interior's and Reclamation's goals, as described in 
the DOI Strategic Plan for 2007 to 2012, focuses on developing improved 
water treatment technologies. This directly supports Reclamation's core 
mission to provide reliable water supplies, by making degraded supplies 
available for a range of uses. Improved water treatment technology has 
the potential to reduce conflict over limited water supplies. The 
Office of Science and Technology Policy's Subcommittee on Water 
Availability and Quality identified critical actions to provide the 
tools necessary to enhance reliable water supply, including 
identification and pursuit of appropriate Federal research 
opportunities for improving and expanding technologies for use of 
marginal or impaired water supplies. Such technologies include 
desalination, water treatment and reuse.
    Question 130. Please describe how you intend to coordinate with 
other federal/state/local and commercial entities within the 
desalination research program.
    Answer. The FY 2009 Budget Justification describes Reclamation's 
basic desalination strategy and actions. While more details will be 
developed in the first half of 2008, we can say that internal 
management and coordination activities are being formalized and 
strengthened. We are working to implement a strong technology transfer 
program both in Reclamation and Interior. We continue to coordinate an 
Interagency Consortium with federal agencies and government labs.

                      ONSHORE MINERAL DEVELOPMENT

    Question 131. Currently, the oil and gas industry has to pay for 
archaeological surveys, wildlife studies and the cost of preparing 
third-party NEPA documents. If the APD processing fee is enacted, will 
the BLM re-assume the costs for these other APD related studies or will 
the agency continue to urge industry to pay those costs?
    Answer. The $4,150 fee would cover the cost BLM incurs in 
processing an APD at present. These costs do not usually include 
archaeological surveys or wildlife studies. In most cases the BLM 
prepares the NEPA documents for APD processing. In cases where the BLM 
is delayed, by staffing and workload issues, in preparing NEPA 
documents (EAs or EISs) a third party may fund the preparation of 
appropriate NEPA documents.

                       BLM OIL AND GAS MANAGEMENT

    Question 132. I was pleased to see that the President's budget for 
oil and gas management includes an increase of $7.8 million over FY 
2008. Please comment on the factors that necessitate this increase.
    Answer. The net program increase in the oil and gas management 
program, after accounting for changes in the cost recovery and fee 
collection accounts, is $7.8 million. Most of this net change is due to 
the increase of $11.2 million for remediation of the Atigaru legacy 
well in Alaska. There are two other decreases that impact the net 
change: a decrease of $1.9 million for the oil shale program, due to 
the completion of the Programmatic EIS in 2008, and a decrease of $1.2 
million for various administrative efficiencies. The net change in the 
oil and gas program, when the increase of $1.6 million for fixed costs 
is accounted for, is $9.4 million.
    Question 133. In the budget proposal, you estimate that 
approximately 9,100 APDs will be received in 2009. This is an increase 
over the number planned for 2008. Will the increase to the Oil and Gas 
management funds be sufficient to expedite oil and gas lease 
applications?
    Answer. Yes. The BLM anticipates that 9,500 APDs will be processed 
in FY 2009, 400 more than will be received. This will further reduce 
the number of pending APDs.


  UNITED STATES BUREAU OF RECLAMATION (USBR) 2003 BIOLOGICAL OPINION 
                           FLOW REQUIREMENTS

    The USBR is tasked with providing water in order to comply with the 
Fish and Wildlife Service's 2003 Biological Opinion. However, it is 
unclear where the USBR will obtain this water once the Albuquerque-
Bernalillo County Water Utility Authority begins diverting its 
allocation of San Juan-Chama Project water.
    Question 134. In light of potential water shortages, how will the 
USBR meet the requirements of the 2003 Biological Opinion with the 
proposed budget, particularly when the cost of water may increase 
significantly?
    Answer. With carryover leases available in 2008 and anticipated 
supplies being made available to Reclamation from the State of New 
Mexico in the near future, it is highly likely supplies will be 
adequate through 2009. Reclamation and the State of New Mexico are 
currently working on an agreement that would make available to 
Reclamation some of the State's Rio Grande Compact credit water for use 
in Reclamation' s supplemental water program in 2009 and beyond.
    In addition to the above short term supplemental water supply 
arrangements, Reclamation, the Corps of Engineers, and the US Fish and 
Wildlife Service are working closely with the Middle Rio Grande 
Endangered Species Collaborative Program to address potential water 
shortages in the future. These efforts include modeling focused on 
developing hydrologically viable water management scenarios that can 
meet Endangered Species needs and working closely with basin 
stakeholders on new water management and/or supply options that can 
provide wet water for species needs. These efforts are intended to be 
the cornerstone of a new Biological Opinion for 2010.
    Question 135. Chama Project water cannot be used for meeting the 
requirements of the ESA unless it is acquired by a ``willing sellor or 
lessor''. If water cannot be acquired from project contractors, where 
do you anticipate you will get the water to meet the requirements of 
the ESA in 2008? What are you doing to address this potential problem?
    Answer. During the 2008 irrigation season, we expect that there is 
sufficient supplemental water already in storage to meet ESA flow 
requirements of the 2003 biological opinion. These supplies consist 
mainly of carryover storage from previous years' leases of ``willing 
lessors'' of San Juan-Chama water.

                                  MMS

    In the Energy Policy Act of 2005, language was enacted to provide 
royalty relief for marginal deep and ultra-deep natural gas wells with 
prohibitively high costs of production in the Gulf of Mexico. A 
proposed rule is pending at MMS, which proposes a price threshold for 
shallow water/deep gas production.
    Question 136. Mr. Secretary, please provide the reasoning behind 
eliminating the royalty relief provisions mandated by Congress in EPACT 
2005.
    Answer. When the Energy Policy Act was enacted, the Administration 
opposed the deep gas and deep water royalty relief provisions, stating 
that they were unwarranted in today's price environment. The 
President's Fiscal Year 2008 budget included a proposal to repeal 
sections 344 and 345 of the Energy Policy Act, and on April 20, 2007, 
the Department of the Interior sent a legislative proposal to Congress. 
The FY 2009 Budget continues to seek these repeals. Section 344 
extended existing deep gas incentives by mandating a royalty suspension 
volume of at least 35 billion cubic feet of natural gas for certain 
wells completed at depths greater than 20,000 feet sub-sea on leases 
located in 0-400 meters of water. This section also directed that the 
same methodology used to calculate suspension volumes in the MMS's 2004 
rule for wells completed between 15,000 feet and 20,000 feet of sub-sea 
on leases in 0-200 meters of water be applied to leases in 200-400 
meters of water. Section 345 mandated royalty suspension volumes for 
leases in water depths greater than 400 meters issued in the first five 
years after enactment (August 8, 2005-August 8, 2010).
    Through MMS's recent analysis of the efforts of existing deep gas 
incentive programs in light of operating experience under current and 
projected gas prices, we found that the MMS deep gas incentives appear 
to have had far less effect on deep depth drilling than we originally 
expected. The MMS's original estimates of the sensitivity of deep depth 
drilling to royalty relief were based largely on theoretical models of 
operator behavior and reservoir profitability. In contrast, MMS's 
recent analysis studied the observed effects over the past few years of 
natural gas price increases and the provision of royalty relief 
incentives on deep gas drilling. After accounting for the price effects 
in this empirical analysis, MMS concluded that only 10 to 12 percent of 
the increase in deep drilling appears associated with current deep gas 
royalty relief incentives. As such, the results observed do not appear 
to provide support for the added incentives included in the Energy 
Policy Act over a broad range of gas prices experienced during the past 
4 years.
    Section 345 also reduced MMS's flexibility to provide royalty 
relief incentives only when appropriate. At this time, current and 
expected price levels provide ample incentive to develop and produce in 
the challenging conditions found in the deep waters of the Gulf of 
Mexico, so there is now no need to offer royalty relief there. Indeed, 
the Energy Information Administration's (EIA) most recent forecast 
predicts that over the next 5 years oil prices will average more than 
$75 per barrel and gas prices almost $7 per million British thermal 
units. Even in a longer horizon, EIA predicts that oil and gas prices 
will remain double or more the level seen in the 1990s and early this 
decade.
    Question 137. As result of Section 388 of EPACT 2005, MMS has a 
statutory authority to develop renewable and alternative energy 
sources. Mr. Secretary, please explain the status of MMS' alternative 
energy program.
    Answer. MMS has made significant progress implementing its new 
alternative energy authority on the OCS. As an important first step in 
establishing a new program that will involve frontier areas of our 
Nation's OCS, MMS initiated and completed a programmatic environmental 
impact statement (PEIS) that analyzed in a high-level fashion the types 
of environmental and socioeconomic impacts anticipated to result from 
all phases of offshore alternative energy development (e.g., initial 
site assessment, construction, commercial operation and ultimate 
decommissioning). In this PEIS, MMS analyzed the anticipated impacts 
from wave energy, wind energy and ocean current energy activities on 
the OCS. MMS issued the draft PEIS in March 2007, subsequently held 
pubic hearings in April and May, and issued a Final PEIS in November 
2007. MMS published its Record of Decision this January and formally 
adopted 52 environmental best management practices that will be 
considered in evaluating and authorizing any alternative energy project 
on the Federal OCS.
    MMS is near completion of its proposed rulemaking for alternative 
energy and alternate use activities on the OCS. In December 2005, MMS 
issued its Advanced Notice of Proposed Rulemaking soliciting comments 
from the public on a broad array of issues pertinent to establishing a 
comprehensive regulatory program that assures safe and environmentally 
responsible development of alternative energy projects on the OCS. MMS 
has been careful and deliberate in the development of this rulemaking 
as we recognize the importance of these regulations in providing a 
clear road-map for entities interested in exploring alternative energy 
opportunities offshore, and in satisfying our Nation's need for 
diversified, non-fossil sources of energy to coastal regions with ever-
increasing demands for electricity. MMS is on schedule to publish a 
proposed rule by this summer for public review and comment, and a final 
rule by the end of this year.
    In light of the fact that our program regulations have not been 
completed within the timeframe originally contemplated, in November 
2007, MMS announced an interim policy for authorizing limited resource 
data collection and technology testing in advance of final rules. This 
policy would not authorize the construction of wind turbines, nor would 
it authorize commercial energy activities or offer any priority right 
or preference in subsequent commercial lease sales. As a result of the 
announcement of this Interim Policy, we have 40 viable nominations to 
date, from entities interested in developing projects on the Federal 
OCS on both the East and West. MMS intends to announce shortly its next 
steps for authorizing limited leases under this interim policy.
    MMS recently completed its draft Environmental Impact Statement 
(EIS) review (as required by the National Environmental Policy Act) for 
the proposed Cape Wind energy facility off the coast of Massachusetts 
on Federal submerged lands in Nantucket Sound. The draft EIS was made 
available for public review and comment this January, and MMS held a 
series of public hearings on the draft EIS in Massachusetts March 10th 
through 13th. MMS expects to finalize its environmental analysis for 
the project by the end of this year.
    The MMS has also dedicated significant resources towards promoting 
the critical environmental studies work necessary to educate and inform 
the MMS and other Federal agencies as they move forward in evaluating 
and authorizing these new technologies in frontier ocean environs. In 
addition to the programmatic EIS discussed above, in June of 2007, MMS 
held a workshop among industry, regulators and scientific experts to 
identify offshore alternative energy information needs. MMS also held a 
northeast and mid-Atlantic bird workshop in February 2008 to identify 
priority bird study needs, identify potential mitigation measures, and 
build partnerships to carry out collaborative research. In addition, 
MMS has established a new Alternative Energy component of its 
Environmental Studies Program. Through this MMS Environmental Studies 
Program, MMS has already identified proposed alternative energy-related 
studies for FY 2009 and FY 2010.

                      ONSHORE MINERAL DEVELOPMENT

    I am a disappointed that the President's FY 2009 Budget proposes to 
repeal several provisions in Section 365 of EPACT 2005, which would 
lead to an increase in the cost to domestic energy production. This was 
a bipartisan provision supported by almost every member of this panel, 
and signed by the President, Mr. Secretary. The budget request provides 
that the Bureau of Land Management (BLM) permanently charge a $4000 
processing fee for Applications for Permits to Drill and have the fee 
deposited in the General Fund. Under this proposal the Permit Pilot 
Offices would be funded by the APD processing fee instead of mineral 
leasing rentals.
    Question 138. Mr. Secretary, please explain the rationale behind 
charging a processing fee for APDs?
    Answer. In the 2008 Consolidated Appropriations Act, Congress 
imposed a one-time assessment fee of $4,000 for applications for 
permits to drill processed by the BLM. This authority will expire at 
the end of FY 2008. The 2009 BLM budget effectively makes permanent the 
intent of the 2008 Congressional action with respect to charging a fee 
to APD applicants. The Administration will re-propose legislation to 
amend Section 365 of the Energy Policy Act of 2005 not only to allow 
the BLM to undertake a rulemaking to permanently institute cost 
recovery on APDs, but also to authorize a $4,150 interim fee while the 
rulemaking is under development.
    Question 139. Do you believe that charging an APD processing fee in 
addition to rentals will have a negative effect on domestic production 
of oil and gas? If not, why?
    Answer. No. The APD processing fee is only a very small percentage 
of the total cost of developing an oil or gas well.
    Question 140. I have heard a great deal about this new fee from my 
constituents back home. In your judgment, what will be the effect of 
the fee on small producers?
    Answer. The effect of the fee on small producers should be 
negligible. The fee may cause all operators to be more prudent when 
applying for drilling permits, so that they only apply for permits for 
those wells that they actually intend to drill.
    Question 141. What kind of progress on processing permits can we 
anticipate with implementation of a processing fee?
    Answer. In fiscal year 2007 the BLM processed more APDs than were 
received. We estimate that in FY 2008 and in FY 2009 this trend will 
continue.

                          NET RECEIPT SHARING

    This year's budget proposal, as it did last year, would reduce the 
states' share of receipts from mineral leasing activities on public 
domain lands by two percent annually in order to pay for administrative 
costs of the Minerals Management Service. This proposal would have 
substantial negative impacts for many Western states, including an 
estimated $11.5 million annual cost to New Mexico.
    Question 142. Why should funding that goes for education and other 
important priorities in my state, funding that has traditionally been 
due to New Mexico, go to fund administrative costs in your department?
    Answer. The concept of net receipts sharing is that because states 
share in the revenue benefits of energy mineral production of Federal 
lands, they should also share in the costs of permitting and managing 
that development. Dollars deducted from states are deposited into the 
U.S. Treasury; they do not directly benefit the Forest Service, Bureau 
of Land Management or the Minerals Management Service. The purpose of 
the program is to recover a modest share of the Federal costs of these 
three bureaus associated with management of the onshore mineral leasing 
program. The net receipts sharing concept is not new; a similar system 
was in place through much of the 1990s, before it was repealed in 2000 
during a time of Federal surpluses.
    Despite the two percent reduction to state disbursements, mineral 
revenue disbursements to states are projected to increase substantially 
in future years. For example, in FY 2007 MMS disbursements to the State 
of New Mexico totaled $552.9 million. Budget estimates for FY 2009 
disbursements, without proposed increases based on a separate coal 
bonus bids proposal, show an increase of 20 percent to over $666 
million even after the net receipt sharing reductions. The state's 
share of Federal revenue receipts are available for funding of 
education and other priorities at the state's discretion.
    Question 143. Have you discussed this proposal with states that 
currently receive royalties? And if so, what responses have you 
received?
    Answer. The Department and MMS have been contacted by several 
states with concerns. We understand that states that currently receive 
a share of Federal royalty revenues are unlikely to want to see that 
share reduced, but we believe this is a reasonable and fair proposal 
intended to benefit all taxpayers.

                                  MMS

    Question 144. Mr. Secretary, MMS requests $164.0 million in 2009 
for Offshore program activities, an increase of $2.7 million above the 
2008 enacted budget. Would you please comment on the factors or 
activities in the Outer Continental Shelf that necessitate this 
increase?
    Answer. A basic cornerstone of the offshore program is the 5-year 
OCS Oil and Gas Leasing Program. The current program was effective July 
1, 2007, and included for leasing consideration areas and acreages 
(about 48.5 million acres) that had either never been offered, such as 
the expanded program area in the Beaufort Sea, Alaska, or had not been 
offered in many years, such as the Chukchi Sea and North Aleutian 
Basin, Alaska, and parts of the Gulf of Mexico. The lease sale process 
has many steps and decision points that must be met before a sale may 
be held, requiring various types of analysis and review, including 
environmental requirements under NEPA. Because the lease sale process 
takes 2 to 3 years on average, MMS could be working on various aspects 
of as many as a dozen sales in FY 2009, including newly available areas 
in the Gulf of Mexico 181 South Area, pursuant to the Gulf of Mexico 
Energy Security Act of 2006, and the North Aleutian Basin offshore 
Alaska.
    Section 388 of the Energy Policy Act gives the Department and MMS 
the authority to grant leases on the OCS for sources of energy other 
than oil and gas, i.e. alternative energy like wind, waves, and 
currents; and for use of existing Federal OCS facilities for other 
purposes, i.e. alternate use. A new office was established and staffed 
to meet these new responsibilities. Interest in alternative forms of 
energy is growing. In response to a November 2007, request for 
nominations of areas for data-gathering and/or technology testing under 
an Interim Policy, MMS has over 40 viable nominations to date for 
Federal OCS areas off the Atlantic and Pacific coasts. MMS intends to 
award limited leases under the Interim Policy until final program 
regulations are in place in late 2008 under the current schedule.
    Question 145. Interest in offshore oil and gas development appears 
to be strong. Mr. Secretary, could you please comment specifically on 
the results of the three sales in 2007 and the recent sale in the 
Chukchi Sea?
    Answer. There have been four OCS sales since the beginning of 2007, 
two offshore Alaska and two in the Gulf of Mexico. Sale 202, Beaufort 
Sea, Alaska, was the last sale scheduled in the 2002-2007 program and 
occurred on April 19, 2007, and resulted in the issuance of 90 leases 
for just over $42 million. The most recent sale was Sale 193, Chukchi 
Sea, Alaska, held on February 6, 2008. It was a record sale for the 
Alaska offshore, garnering over $2.66 billion in bonus bids on 488 
tracts.
    The first sale in the new 2007-2012 leasing program was Western 
Gulf Sale 204, held August 22, 2007. There were 274 leases issued from 
Sale 204, for just over $287 million. Central Gulf Sale 205 was held 
October 3, 2007. Sale 205 was the first Central Gulf sale in 18 months 
and also offered the newly reconfigured planning area containing 
acreage that had been in either the Western or Eastern Gulf planning 
areas. Sale 205 resulted in the issuance of 683 leases for over $2.8 
billion.

                           BLM BORDER ISSUES

    In the last two years the Bureau of Land Management has received a 
$2.5 million increase to its Law Enforcement budget and has requested 
an additional $1 million increase in its Hazardous Materials Management 
budget to address border issues and environmental degradation 
associated with illegal immigration on its lands in the Southwest.
    Question 146. Mr. Secretary, I see significant budget increases in 
the BLM's Law Enforcement and Hazardous Materials Management budgets 
related to illegal immigration. What type of support and funding are 
you receiving from the Department of Homeland Security on these issues?
    Answer. While BLM is responsible for the stewardship of BLM public 
lands near the border, the Department of Homeland Security (DHS) has 
the primary responsibility for security along our international border. 
The BLM has a close working relationship with the DHS Border Patrol. 
However, we do not receive funding from Homeland Security. BLM funds 
law enforcement, environmental restoration, and other activities to 
address the border impacts on public lands from its budget. The 
agreements that we've entered into with DHS help facilitate and support 
on the ground activities, in part to ensure the safety of our officers, 
employees, and visitors to the public lands. For example, we are 
currently working with the Border Patrol to share radio frequencies to 
enhance communications, and recently BLM Law Enforcement met with the 
Border Patrol in Yuma, Arizona and El Centro, California to coordinate 
effort in those areas to improve on operations targeting human and drug 
smugglers crossing public lands near the border. BLM and other land 
management agencies bear these costs.
    Question 147. How are funding and responsibilities on these issues 
divided between your Department's agencies and the Department of 
Homeland Security?
    Answer. While control of the border is the responsibility of the 
Department of Homeland Security, Interior is responsible for resource 
management and the safety of visitors and employees on Interior-managed 
lands near the border. The Departments of Agriculture and the Interior 
signed a Memorandum of Understanding (MOU) with the Department of 
Homeland Security in March 2006. The MOU integrates three Departmental 
missions in order to facilitate Border Patrol access to Federal lands 
and improve its ability to gain operational control of the border while 
allowing the Department and USDA to continue to protect environmentally 
sensitive lands under their respective jurisdictions. The MOU also 
improves communication and cooperation among all three Departments.
    Interior has established a border coordination office in Tucson, 
Arizona, to cover the entire southwest border and in Boise, ID to cover 
the Canadian Border. Through these offices, Interior works with the 
Border Patrol, Interior agencies, and other border entities to ensure 
we are coordinating on issues relevant to the border, such as 
infrastructure installation, deployment of resources, information 
sharing, and addressing environmentally sensitive issues. These offices 
have proven invaluable to ensure we are protecting sensitive ecosystems 
while allowing DHS to secure our borders. We have also established a 
new position of National Borderland Coordinator, who reports to the 
Deputy Secretary. This individual works with Interior bureaus and DHS 
to coordinate compliance with environmental and cultural resource 
statutes and policies (such as ESA and NEPA) that typically apply 
during the construction and deployment of security infrastructure at 
international borders.
    In the FY 2009 budget, Interior proposes an $8.2 million increase 
for a multi-bureau effort to improve border safety for Interior and 
tribal lands along the southwest border with Mexico. The initiative 
aims to (1) protect employees, visitors, and residents from the impacts 
of illegal activity along the border; (2) mitigate environmental damage 
caused by that illegal activity; and (3) improve communication and 
coordination to more effectively address these issues in partnership 
with the Department of Homeland Security and other relevant agencies.

                    PAYMENTS IN LIEU OF TAXES (PILT)

    Counties with large amounts of federal lands, including 32 counties 
in New Mexico, benefit from the PILT program. The Administration 
recommends a significant reduction in funding for the PILT program 
(only $195 million for FY 2009 compared to the $228.9 million 
appropriated for FY 2008).
    Question 148. Please explain the rationale for this decrease to the 
PILT program.
    Answer. The 2009 budget request for Payments in Lieu of Taxes is 
$195 million, an increase of $5 million over the 2008 President's 
budget to adjust for cost of living increases and inflation in 
counties. This is a program decrease of $33.9 million from the 2008 
enacted level. The 2009 budget request funds PILT at a level that is 56 
to 96 percent higher than the PILT payments during the 1990s. In fact, 
as recently as 2000, PILT was funded at $134.4 million and has since 
increased by 70 percent. To constrain spending and focus on deficit 
reduction, the budget proposes to maintain this program at levels that 
are closer to historic amounts. in addition to the annual pilt 
payments, the Department allocates over $4.0 billion annually to states 
and counties in revenue sharing and grant program funding.

                             US PARK POLICE

    Mr. Secretary, the Department of the Interior Inspector General's 
Office reported this month that the US Park Police has failed to 
adequately perform its missions, ``which has resulted in deficient 
security at national icons and monuments and an inability to 
effectively conduct police operations.'' This report has received a 
substantial amount of media attention and I hope it is receiving due 
attention at the Park Service as well.
    Question 149. What is the National Park Service doing to address 
these allegations?
    Answer. The Department and the National Park Service have been 
working closely with the OIG, and have reviewed the findings and 
recommendations cited in the report. To date, the Department has 
developed a Management Oversight Team and begun implementing an action 
plan to address the report's recommendations. The Department has also 
assembled a team of veteran U.S. Park Police and National Park Service 
law enforcement officers to immediately assume operational, day-to-day 
direction of the Park Police. The Chief of the Park Police is detailed 
to work with the Management Oversight Team to address corrective 
actions.
    The top priorities of this team include:

  <bullet> Instilling renewed confidence in the Park Police's historic 
        mission as the oldest Federal law enforcement organization;
  <bullet> Assessing the status of firearms training and qualification;
  <bullet> Insuring all officers have appropriate safety equipment;
  <bullet> Developing site-specific security plans and staffing for 
        national icon memorials;
  <bullet> Implementing a plan for improved Park Police financial 
        oversight; and
  <bullet> Any additional priorities identified by the Management 
        Oversight Team.

    The Secretary will receive weekly progress reports from the 
Management Oversight Team and will ensure that all actions are 
appropriate and consistent with the Department's commitment to 
excellence and public service.

                          CENTENNIAL CHALLENGE

    Mr. Secretary, S. 1253, the National Park Centennial Challenge Fund 
Act, which was introduced last year at the request of the 
Administration, contains language to authorize the National Park 
Service to accept qualified donations for a listed signature project. 
It is my understanding that the National Park Service has existing 
authority to accept donations and to use a combination of federal funds 
and non-federal funds to perform projects.
    Question 150. To what extent has the National Park Service used its 
authority to fund projects with a combination of federal and non-
federal funds in the past?
    Answer. Currently, the National Park Service has over 180 park 
friends groups that contribute time, expertise, and privately-raised 
funds to support our national parks. Contributions from friends groups 
total approximately $58 million in support for national parks across 
the country. Sixty-seven nonprofit cooperating associations operating 
over 1,000 bookstores in national parks contribute approximately $53 
million, mostly in in-kind donations, to support education, 
interpretation, and research in national parks. The National Park 
Foundation, chartered by Congress, strengthens the enduring connection 
of the American people and their national parks by raising private 
funds, making strategic grants, creating innovative partnerships, 
increasing public awareness, and providing approximately $22 million in 
support to the National Park Service.
    Contributions received in National Park Service donation accounts, 
which include donation box receipts, direct donations to parks and 
programs of the National Park Service, and checks or fund transfers 
from park partners is approximately $27 million. Most contributions 
from friends groups, cooperating associations, and the National Park 
Foundation are not transferred to National Park Service accounts. They 
are spent on the National Park Service's behalf by the partner, with 
approval of the National Park Service. Contributions from friends 
groups and cooperating associations are represented by program services 
on IRS 990 forms. Program services are those activities that form the 
basis of an organizations current exemption from taxes and represent 
funds spent in support of their mission, to support activities and 
programs of national parks or the National Park System.

  <bullet> Acadia National Park--Restoration and Maintenance of Hiking 
        Trails, plus a Trail Endowment (Acadia Trails Forever). $13 
        million ($9 million private, $4 million NPS). Ongoing Project.
  <bullet> Cape Cod National Seashore--Highlands Center Adaptive Reuse 
        and Development Project. $10 million ($3.5 million private, 
        $2.8 million lease revenue, $3.7 million NPS). Ongoing Project.
  <bullet> Chesapeake and Ohio Canal National Historical Park--Catoctin 
        Aqueduct Restoration Project. $2.585 million ($1.35 million 
        private, $1.15 million State of Maryland, $85 thousand NPS). 
        Ongoing Project.
  <bullet> Colonial National Historical Park--Jamestown Project: 400th 
        anniversary of the founding of Jamestown infrastructure 
        development. $17.5 million ($5 million private, $11.5 million 
        NPS, $1 million other public). Completed Project.
  <bullet> Edison National Historic Site--Access and Infrastructure 
        Improvements to Historic Lab Complex. $11 million ($8 million 
        private, $3 million NPS). Completed Project.
  <bullet> Flight 93 National Memorial--National Memorial and Park 
        Development. $57.95 million ($30 million private, $10.97 
        million NPS, $6.73 million FLHP, $10.25 million State of 
        Pennsylvania). Ongoing Project.
  <bullet> Gettysburg National Military Park--Visitor Center/National 
        Museum Project. $95 million ($83.8 million private, $11.2 
        million NPS). Ongoing Project.
  <bullet> Grand Teton National Park--Grand Teton Discovery and Visitor 
        Center Project. $18 million ($10 million private, $8 million 
        NPS). Completed Project.
  <bullet> Theodore Roosevelt Inaugural National Historic Site--Ansley 
        Wilcox House Rehabilitation and Addition. $2.23 million ($1.5 
        million private, $730,000 NPS). Ongoing Project.
  <bullet> U.S.S. Arizona Memorial--Visitor Center Replacement Project. 
        $33.7 million ($26 million private and other nonfederal, $7.7 
        million NPS). Ongoing Project.
  <bullet> Yellowstone National Park--Old Faithful Visitor Education 
        Center Project. $26 million ($15 million private, $11 million 
        NPS). Ongoing Project.
  <bullet> Yosemite National Park--Lower Yosemite Falls Trail 
        Improvement Project. $14 million ($12 million private, $2 
        million NPS). Completed Project.

    Subtotal: $300.965 million ($207.95 million private [69%], $73.885 
million NPS [25%], $6.73 million FLHP [2%], $12.4 million other public 
[4%]).
    NPS is currently reviewing three additional partnership 
construction projects that utilize a combination of private and NPS 
funds. These have an estimated value of $93.5 million; $75 million in 
private funds (80%) and $18.5 million in NPS funds (20 %).

  <bullet> Golden Gate National Recreation Area--Trails Forever 
        Initiative. $30 million ($22 million private, $8 million NPS).
  <bullet> National Mall and Memorial Parks--Ford's Theatre 
        Development. $50 million ($42.3 million private, $7.7 million 
        NPS).
  <bullet> Yosemite National Park--Yosemite Trails Initiative. $13.5 
        million ($10.7 million private, $2.8 million NPS).

    Grand total all NP partnership construction approved and under 
consideration that combine NPS and private funds: $394.465 million 
($282.95 million private [71%], $92.385 million NPS [23%], $6.73 
million FLHP [2%], $12.4 other public [4%]).
    Moreover, the Challenge Cost Share Program focuses on NPS funding 
matches, with the maximum award being $30,000. In FY 2007, nearly $6 
million in non-federal dollars were leveraged against $2.4 million in 
NPS funds, a ratio of 2.5:1.
    Question 151. Why does the National Park Service need a separate 
mandatory funding account to implement the Centennial Challenge if it 
already has the authority to leverage existing funds with private 
donations?
    Answer. Although the National Park Service has benefitted 
throughout its history from generous philanthropists and partners 
without the promise of matching funds, the Centennial Challenge will 
help us awaken the potential for increased philanthropy in national 
parks. A mandatory funding account is needed to give potential donors 
confidence that matching funds will be consistently available. The 
account would also allow larger investment projects and programs to 
become a reality. The Centennial Challenge fund will provide the 
Federal fuel for unprecedented park philanthropy and accomplishments to 
benefit all Americans, especially our Nation's youth.

                    INDIAN WATER RIGHTS SETTLEMENTS

    Mr. Secretary, un-adjudicated Indian water rights claims in the 
western United States are a great source of uncertainty. In my view 
they pose the greatest impediment to effective water management in the 
West. During your confirmation hearing before this Committee, you 
committed to Senator Bingaman and me that you would make New Mexico 
Indian water rights settlements a priority. These include the Aamodt, 
Abeyta and Navajo settlements.
    Question 152. What progress have you made with respect to the 
Aamodt, Abeyta, and Navajo settlements?
    Answer. We have been working with the parties in the Aamodt and 
Abeyta settlements to resolve non-monetary issues. The Department is 
holding un-contracted San Juan-Chama Project water for potential use in 
New Mexico Indian water rights settlements and has provided 
recommendations to the parties about how that water should be split 
between the two settlements. Based on those recommendations, the 
parties were able to reach agreement on how the project water should be 
allocated. Also, we have been engaged in discussions with the parties 
about settlement legislation and have provided technical guidance on 
issues such as waiver language.
    With respect to the Navajo settlement, the Department has been 
working to develop information to assist in developing a possible 
solution, including a draft environmental impact statement on the 
proposed Navajo-Gallup Water Supply Project and the hydrologic 
determination on water availability in New Mexico. The Department has 
also completed an updated (November 2007) appraisal-level estimate of 
the costs of constructing the project.
    Question 153. Have you provided the parties to the Abeyta 
settlement an official administration position on their proposed 
settlement? If not, when will you do so?
    Answer. The Administration provided the position on this settlement 
at the beginning of September 2007.
    Question 154. How do you plan to secure a commitment from OMB that 
a reasonable federal contribution will be made available for the New 
Mexico Indian water rights settlements?
    Answer. We will continue to meet with OMB to keep them informed of 
developments in the New Mexico settlements and to work with them to 
identify approaches to these settlements that are fair to taxpayers as 
well as the settling parties.

            BUREAU OF RECLAMATION--ENERGY-WATER COORDINATION

    Question 155. Please describe what the USBR is doing to reduce 
their energy demands on moving water through the system and developing 
new water supplies through desalination and the recycling of brackish 
water.
    Answer. Reclamation continues to invest in research to make 
desalination and recycling more affordable to communities that need 
additional water supplies. An important component to reducing cost is 
making the process more energy efficient. Through research at the new 
Brackish Groundwater National Desalination Research Facility, we will 
be conducting research to apply renewable energy technologies for the 
removal of salts and other contaminants from water as well as more 
conventional ways to reduce energy consumption.
    Question 156. Please describe your current research on developing 
new water efficiency technologies. In addition, please provide an 
overview of the current and future research that will be undertaken to 
address the water demands on energy production and energy demands on 
water production.
    Answer. Reclamation continues research and development of more 
efficient water treatment technologies, which reduce energy demands. 
Reclamation also continues its many years of research into improving 
efficiency of its hydropower operations, thereby producing the same 
amount of electricity with less water.
    Reclamation is currently finishing several seawater desalination 
pilot and demonstration research projects. We do not anticipate any 
significant starts in FY 2009.

                      WATER FOR AMERICA INITIATIVE

    Question 157. Please describe Reclamation's future vision for the 
Water for America Initiative and any necessary authorities needed to 
implement the program.
    Answer. Through the Water for America Initiative (Initiative), 
Reclamation will partner with the U.S. Geological Survey to address 
21st century water challenges and assure secure water supplies for 
future generations. Reclamation's efforts focus on two of the 
Initiative's three strategies: (1) Plan for Our Nation's Water Future; 
and (2) Expand, Protect, and Conserve Our Nation's Water Resources.
    With increasing demands on water for domestic, agriculture, 
industry, recreational and wildlife uses, states face difficult choices 
in allocating scarce water supplies. Through the Initiative, 
Reclamation will assist states, local governments, and tribes to meet 
increasing demands, better define water sources and alternatives and 
plan for improved management.
    To implement the Initiative's approach toward expanding, 
protecting, and conserving water resources and to ensure that such 
efforts continue as necessary into the future, additional authority 
will be necessary. The Administration is working to develop legislation 
that would establish this authority.
    Question 158. Please describe how funds will be budgeted to reduce 
conflict amongst water users.
    Answer. The Water for America Initiative will incorporate, from the 
Water 2025 Program, the highly successful process of allocating and 
leveraging funds in the areas of conflict in the western states. 
Challenge grants will be awarded on a competitive basis that gives 
priority to ``hotspots'' Reclamation has identified in the West where 
existing supplies are not adequate to meet water demands for 
municipalities, agriculture and environmental needs.
    Question 159. Please describe how the initiative will be 
coordinated with the U.S. Geological Survey.
    Answer. The Water for America Initiative was conceived and 
developed in conjunction with the USGS senior leadership from both 
agencies continue to confer on strategies for planning and developing 
the programs proposed under this initiative. The most recent example of 
these efforts is Reclamation and USGS's joint participation in the 
annual meeting of the Federal Advisory Committee on Water Information, 
where both agencies presented information on the current status of 
development for the different components of the initiative.
    Question 160. Please describe the role the states will pay in your 
request to initiate watershed studies. Furthermore, describe the 
modeling that will be used.
    Answer. Reclamation will work with willing state and local partners 
to focus on areas with high levels of anticipated water supply/demand 
imbalances. Details regarding the modeling and other analysis tools to 
be used in conducting these studies are being developed by a team of 
staff and managers from each of Reclamation's five regions. This team 
is also developing plans for outreach to potential state and local 
partners in selecting the initial basins to be studied.
          u.s. geological survey--water for america initiative
    Question 161. Please describe how USGS intends to implement its 
share of the joint USBR/USGS Water for America Initiative.
    Answer. The USGS intends to implement its share of the Water for 
America Initiative in this manner:

  <bullet> Perform a nationwide assessment of water availability and 
        human and environmental water use by 2019, describing the 
        status of and trends in water flows, ground-water storage and 
        water use;
  <bullet> Proceed with regional-scale studies that compare water 
        storage and flows under current developed conditions to prior 
        conditions for each of the Nation's 21 water resource regions;
  <bullet> Cooperate with state and local governments in selected 
        watersheds or aquifer systems to increase use of new 
        technologies in water planning and management;
  <bullet> Cooperate with states to map the geologic framework of the 
        Nation to improve characterization of the Nation's aquifers;
  <bullet> Modernize the Nation's more than 7,000 streamgages by 
        replacing obsolete telemetry to ensure continued real-time 
        operations and provide more frequent measurements that are 
        needed for improved water management; and
  <bullet> Stabilize the long-term network by re-establishing critical 
        streamgages discontinued in the past two decades.

    Question 162. Please describe the process and methodology you will 
undertake to initiate a water census of water availability, water 
quality and water use.
    Answer. The water census of water availability and use will follow 
the principles first outlined in Circular 1223, Concepts for National 
Assessment of Water Availability and Use (http://pubs.usgs.gov/circ/
circ1223/). The primary spatial unit of study will be the 21 water 
resource regions outlined in this report. Products resulting from study 
of each water resource region will include a water budget for each of 
the 378 hydrologic accounting units that make up the 21 water resource 
regions, as well as an analysis of the trends in major components of 
the water budget. The Water for America Initiative will work closely 
with the National Water-Quality Assessment Program, the National Stream 
Quality Accounting Network and the Toxic Substances Hydrology Program 
to evaluate and incorporate information about water quality and how it 
limits water availability.
    Question 163. Please describe the modeling you use to analyze water 
from a watershed perspective.
    Answer. The goal of our water availability and use studies will be 
to integrate information about surface-water flow, ground-water flow, 
water storage, water use, water quality and aquatic ecology into a 
cohesive picture of water availability. The USGS will use a variety of 
models to do this. Statistical models will be used to extrapolate 
information from areas where we have measured data to areas with little 
data. Deterministic watershed models will be used to analyze hydrologic 
accounting unit inputs and outputs and generate the watershed budget. 
Ground-water models will be used to integrate information on changes in 
recharge, flow and storage in aquifers. A wide variety of such modeling 
tools is available, and we have not yet selected the specific models 
that we will use in these efforts.
    Question 164. Please describe the coordination undertaken with both 
state and federal agencies tasked to oversee differing components 
within the basin regarding water.
    Answer. To accomplish the objectives of the Water for America 
Initiative, the USGS will coordinate with several agencies within each 
state and with a number of Federal agencies. We are developing a 
process now to include these critical partners. To date, the USGS has 
sought stakeholder input on the priorities for water resources regional 
studies at national meetings such as the Federal Advisory Committee on 
Water Information annual meeting and the joint meeting of the 
Interstate Council on Water Policy and the Western States Water 
Council. State and Federal partners will be asked to evaluate the types 
of data and information products planned in the initiative to ensure 
they are useful to them for water-resource management and policy 
decision making. Additionally, the USGS will work with state and 
Federal partners to find efficient and effective means of incorporating 
their vast sources of hydrologic information into our analysis. We will 
reach out to state agencies dealing with water allocation, agricultural 
water use, safe drinking water and water needs for stream ecology--the 
state geological surveys, state engineers and state water resources 
agencies, to name a few. Within our own Department of the Interior, 
important Federal stakeholders are the Bureau of Reclamation and the 
U.S. Fish and Wildlife Service. We will coordinate activities with the 
U.S. Environmental Protection Agency, Department of Agriculture, 
Department of Commerce (NOAA), Department of Energy (National 
Laboratories), Department of Homeland Security (FEMA), and Department 
of Defense (Army Corps of Engineers).

                          COAL BONUS PROPOSAL

    Question 165. The Department has proposed elimination of deferred 
bonus bids on federal coal lease sales, which Congress authorized in 
1976 so that smaller bidders could participate in lease auctions. 
Beyond the five year window that is discussed in the budget request, is 
it possible that the Department's proposal will generate less revenue 
by making lease sales less competitive over the long-term?
    Answer. The Department projects that the change in demand and 
competition for Federal coal leases resulting from this proposal will 
negligible over the next 10 years, and estimates the bonus proposal 
will roughly result in more than a $7 million increase in coal bonus 
revenues received through 2018 than would have been received without 
this change. The Department assumed that total bonus bid receipts from 
individual sales would be reduced by 20 percent based on an assumption 
about bidder estimates of the time-value of money. However, this 
reduction would be offset by the fact that the government would receive 
the full amount of these bids sooner than it currently receives payment 
under the current deferred bonus system. Any change in the total bonus 
receipts is difficult to predict as the situation for each coal lease 
is unique. The Department anticipates that the competitive sale of the 
current inventory of coal lease applications will be completed within 
the next 5 years. Revenue projections beyond the next 5 years are more 
speculative as the Department has not yet received coal lease 
applications that will reach competitive sales beyond the end of the 5-
year period.
    Question 166. Since states receive 50 percent of the bonus for 
federal coal leases, how can the Department reconcile their proposal 
with Executive Order 13132, relating to the principle of federalism and 
how it must be applied to Administration policies?
    Answer. The states will receive their share of the revenue from a 
competitive coal lease sale in one lump sum rather than being spread 
over 5 equal annual payments. The states would therefore have the 
opportunity to invest the amount received to grow it to the same value 
that would have been received on a deferred basis. Mining Law 
Administration and Abandoned Mine Lands
    The FY 2009 budget request for Mining Law administration remains 
level with the FY 2008 enacted level of $34.7 million. The BLM 
currently collects fees for mining claims, part of which offsets the 
BLM's cost of administering the mining laws.
    Question 167. Is it correct that BLM collects more from these fees 
than the BLM is given to administer the program?
    Answer. The BLM's mining claim fee collections are variable and 
depend entirely on the economic state of the mineral industry. And 
although a portion of the fees collected are used to offset BLM's 
appropriation, the purpose of the fees is not simply to recover BLM's 
costs. In some years, the BLM has collected more than its 
appropriation, in other years, much less. Please see the table below 
for the past five years.
     
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
     
    Question 168. If Congress were to ask BLM to use excess mining 
revenues to address the public safety issue associated with abandoned 
mines, what progress could we expect to see?
    Answer. In 2006, the BLM released its AML program strategic plan. 
The plan was developed with participation of Federal and State 
partners. Priority was given to State-designated watersheds, and sites 
situated in proximity to populated and high-use areas. Partnerships 
with Federal and State agencies are an integral part of the plan in 
order to foster effective collaboration in specified areas (such as 
watersheds), and to leverage funds efficiently.
    Although not complete, the BLM's Abandoned Mine Lands (AML) 
inventory and database currently has 12,035 sites: 10,103 require 
further investigation and/or remediation. Many sites in the database 
have multiple physical safety and environmental hazards. The sites with 
the highest potential for harm to public health and safety have already 
been identified by the various Federal, State, and Tribal partners.
    The work currently identified in the Strategic Plan includes a wide 
variety of cleanup solutions, for example, mitigation with signs and 
fences, complete closure or removal of physical safety hazards, bat 
gating, restoration of streambeds, and removal of hazardous materials 
to repositories.
    The BLM and its partners continue to work to improve AML site data.
     Responses of the Department of the Interior to Questions From 
                           Senator Murkowski

                                  NPS

    Question 169. National Park Service (NPS) Director Bomar 
unofficially has stated that Centennial Challenge funds would not be 
used for projects outside of park boundaries. As you know, the Alaska 
National Interest Lands Conservation Act permits the NPS to establish 
sites and visitor facilities outside of park boundaries. The South 
Denali Project Implementation Plan, which represents a partnership 
between the NPS, the State of Alaska, and the Matanuska-Susitna 
Borough, recently was finalized. As authorized under ANILCA, this plan 
will expand NPS visitor facilities, services, and recreational 
opportunities into Denali State Park. Will there be a park boundary 
rule disqualifying projects such as this one from receiving Centennial 
Funds?
    Answer. For fiscal year 2008, the National Park Service limited 
proposals for Centennial Challenge funding to those within park 
boundaries. Proposals from parks, like those you cite, with specific 
authority to undertake projects outside their boundaries were 
considered on a case-by-case basis. The National Park Service expects 
that the legislation to create the mandatory fund for Centennial 
Challenge projects and programs will come with its own requirements, 
and we will ensure that those requirements as well as specific park 
authorities are considered when selecting Centennial Challenge 
projects.

                                 ENERGY

    Question 170. OCS Revenue Sharing: Mr. Secretary, in the Energy 
Policy Act of 2005 we granted limited revenue sharing of Outer 
Continental Shelf oil and gas lease revenues, mostly to gulf coast 
states for four years. Your FY09 budget acknowledges that revenue 
sharing ends the next year. But, I would suggest it will be much easier 
to build support for responsible offshore drilling if all states were 
to get a fair level of revenues to cover the infrastructure and 
regulatory costs onshore that offshore development necessarily entails. 
Would you be willing to work with us to try to craft an affordable, but 
equitable extension of OCS revenue sharing that will cover all states 
that permit OCS development to occur off their coasts?
    Answer. The Administration has supported revenue sharing which 
maximizes the incentives for new production by focusing on new leases 
in new areas. We would welcome the opportunity to work with Congress to 
increase domestic energy production through expanded access to oil and 
natural gas resources on the OCS.

                                  ANWR

    Question 171. I notice that your budget again this year assumes 
that opening of the Arctic coastal plain will produce some $7 billion 
of lease revenues within the first five years. I know some here have 
been dismissing that estimate, but given the results of last week's OCS 
sale where companies bid $2.66 billion for leases in the Chukchi Sea, 
in deep waters sporting far greater costs than an on-land deposit in 
ANWR would, that budget assumption could prove reasonable. Obviously 
getting a super majority in Congress to support a limited exploration 
and development program in ANWR has proven difficult to say the least, 
even with oil prices that continue to hover around $90 a barrel. But, I 
would like to think that reasonable minds can find a way that this 
country can tap its largest potential on-shore oil deposit in a way 
that will aid the total environment by protecting valuable lands and 
providing funding for alternative, carbon-free energy production. Would 
you be willing to engage in a dialogue this year on how ANWR could be 
opened in an environmentally acceptable manner?
    Answer. Yes. As I've said before, the President's National Energy 
Policy aims to improve America's energy security by increasing domestic 
production of fossil fuels, promoting increased energy conservation, 
and stimulating the development of alternative fuels. As you mention, 
the coastal plain in the Arctic National Wildlife Refuge is the 
Nation's single greatest onshore prospect for future oil. This year's 
budget proposal assumes enactment of legislation that would open the 
1002 area of the refuge to exploration with lease sales to begin in 
2010, generating estimated bonus bids of $7 billion in 2010 and future 
streams of revenue from royalty collection once production commences. 
These receipts would be split 50:50 between the U.S. Treasury and the 
State of Alaska.

                          GAS METHANE HYDRATES

    Question 172. Mr. Secretary, coming from Alaska, which holds so 
much of the nation's potential methane gas hydrate supplies, I am a bit 
disappointed that there is no money in your budget for specific gas 
hydrate research, especially since the Energy Policy Act of 2005, in 
its reauthorization of hydrate research, anticipated that we would be 
spending $35 to $50 million in the next two years on basic hydrate 
production and environmental control research. I do know that there is 
about $3 million for such research in DOE's budget, but none that I can 
find in the USGS budget. I understand that the Administration is 
reluctant to support research for any fossil fuel production at current 
high oil and gas prices, but wouldn't you agree that methane hydrate 
research is fundamentally different since we need far more basic 
research to determine whether the hydrates can be economically 
recovered and released without significant discharges of greenhouse 
gases? Isn't this exactly the type of research the government should be 
paying for?
    Answer. Since passage of the Energy Policy Act, the Department has 
focused additional resources on gas hydrate research. In FY 2009, there 
is a total of $1.3 million requested for gas hydrate research.
    The 2009 budget includes $350,000 for BLM gas hydrate research, 
chiefly to accomplish work on resources assessments. The MMS methane 
hydrates program totals $492,000 in 2009, and will focus on developing 
a technically recoverable methodology to be implemented into the 
existing hydrates assessment model. MMS will also analyze existing core 
data and basin modeling for determining thermogenic expulsion rates 
from hydrocarbon rock sources.
    The USGS also has a number of active research projects on gas 
hydrates with a variety of partners. Most recently, the USGS actively 
participated in the Department of Energy--British Petroleum Exploration 
Alaska--U.S. Geological Survey drilling project which conducted 
research drilling on the North Slope of Alaska to collect samples and 
gather knowledge about gas hydrate for its potential as a long-term 
unconventional gas energy resource. This stratigraphic test well 
enabled the research team to gather core, log, reservoir performance, 
and fluid data from an ice pad location at Milne Point. The USGS is 
working with DOE to determine the next stage of gas hydrate work on the 
North Slope of Alaska.
    The USGS is also the science lead on the India Gas Hydrate research 
project, a collaborative effort with the Indian Directorate General of 
Hydrocarbons (DGH). The primary objective of the Indian Government's 
National Gas Hydrate Program is to study, drill, and sample gas 
hydrates along the continental margin of India in order to meet the 
long term goal of exploiting gas hydrates as a potential energy 
resource in a cost-effective and safe manner. The USGS and DGH just 
held a scientific forum in order to publicly release the first research 
findings from this collaborative effort.
    USGS also participates in the Gulf of Mexico (GOM) Gas Hydrates 
Joint Industry Project (JIP), goals of which include: (1) 
characterizing gas hydrates in the deepwater GOM; (2) assessing and 
understanding the potential safety hazards associated with drilling 
wells through sediments containing gas hydrates; (3) developing a 
database of seismic, core, log, thermophysical, and biogeochemical data 
to identify current hydrate containing sites in deepwater GOM; (4) a 
drilling and sample collection field testing program to collect data 
and obtain cores to characterize the hydrate containing sediments in 
deepwater GOM; and (5) developing wellbore and seafloor stability 
models pertinent to hydrate-containing sediments in the GOM. The USGS 
analyzed seismic data to evaluate drilling sites for the JIP and is 
currently developing the drilling and sampling plan for the upcoming 
JIP field expedition in a few months.
    The USGS is also working with the MMS and the BLM to characterize, 
evaluate, and assess gas hydrate resources underlying Federal lands. 
The USGS also conducts a number of geophysical and laboratory studies 
related to gas hydrates. The geophysical studies are conducted to link 
the geologic framework to natural gas hydrate occurrence and to better 
interpret gas hydrate occurrence and characteristics in the subsurface. 
Laboratory studies of physical properties of gas hydrate-sediment 
mixtures and pure gas hydrates are essential for understanding drilling 
results and developing parameters to constrain numerical models of gas 
hydrate behavior.

                       FISH AND WILDLIFE SERVICES

    Question 173. You have requested an appropriation of funding for a 
land exchange in the Izembek National Wildlife Refuge. The director of 
the US Fish and Wildlife Service has supported this exchange in a House 
hearing. Does the Department of the Interior continue to support this 
land exchange, which will exchange 60,000 acres of State and private 
land and add over 45,000 acres of NEW wilderness, for a road easement 
of 200 acres?
    Answer. There is no request in the FY 2009 budget for a land 
exchange at Izembek National Wildlife Refuge. What next year's budget 
justification includes is a list of all refuges, waterfowl production 
areas, wetland management districts, and Farm Service Agency (FSA) 
properties that involve ongoing projects in the negotiation or 
acquisition phases of the land exchange program and for which it is 
anticipated that some action may take place during the fiscal year. 
Director Hall testified in October 2007, that the Service could support 
legislation introduced by Congressman Young (HR 2801) if it was amended 
to ensure that a full National Environmental Policy Act (NEPA) analysis 
of the proposed exchange is required. The Director also noted some 
legal deficiencies in the bill that would require technical correction. 
We would be happy to discuss these issues with Subcommittee staff.

     Responses of the Department of the Interior to Questions From 
                              Senator Burr

    Question 174. The Lost Colony at Fort Raleigh NHS was damaged by 
fire in 2007. What is the extent of damage and how much will it cost to 
replace the damaged structures, equipment, and costumes?
    Answer: The fire destroyed the two-story costume building, the 
maintenance building and a maintenance shed used by The Lost Colony. 
The buildings belonged to the National Park Service and the contents 
belonged to The Lost Colony.
    The total cost to replace the damaged structures, equipment and 
costumes is $3,075,400, which includes:
     
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
     
    Question 175. What is the Federal and non-Federal share of costs to 
replace the damaged structures, equipment, and costumes?
    Answer. The Federal share of the costs is $875,400 and the non-
Federal share is $2,200,000.
    176. What is the status of rebuilding the Lost Colony structures 
and replacing equipment and costumes destroyed by fire in 2007?
    Answer. The estimated completion date of the construction phase for 
the costume shop was March 17th, and August 1st is the estimated 
completion date for the construction of the maintenance shop.
    Question 177. When do you anticipate all work to be completed?
    Answer. We anticipate all work to be completed by September 30, 
2008.
    Question 178. How will the proposed schedule for rebuilding and 
replacing structures, equipment, and costumes impact the 2008 
performance season?
    Answer. The desired date for the Roanoke Island Historical 
Association to move into the costume shop is March 18, 2008. The 
building must be furnished before the actors can have access. 
Rehearsals are scheduled to begin May 1 with the opening of the play on 
May 31.
    Question 179. In late December, the well respected National Academy 
of Public Administration (NAPA) released a report entitled ``Back to 
the Future: A Review of the National Historic Preservation Programs.'' 
This report is the result of the Office of Management and Budget's 
recommendation that the National Park Service (NPS) conduct an 
independent study of the historic preservation programs. The NAPA panel 
found that ``the National Historic Preservation Program stands as a 
successful example of effective federal-state partnership and is 
working to realize Congress' original vision to a great extent.'' They 
also concluded that ``a stronger federal leadership role, greater 
resources and enhanced management are needed to build upon the 
existing, successful framework to achieve the full potential of the 
National Historic Preservation Act (NHPA) on behalf of the American 
people.'' Considering a few key report recommendations, and realizing 
this report was released at the very end of the department finalizing 
their FY09 budget, I have several questions regarding the Department of 
Interior's (DoI) proposed budget for our Nation's Historic Preservation 
Programs. The Panel believes that the DoI and the NPS should 
``strengthen the performance of the National Historic Preservation 
program and expand resources based on its demonstrated effectiveness.'' 
Specifically the panel recommends ``funding and full-time equivalent 
increase sufficient to address the increased workload since fiscal year 
1981 in National Register eligibility opinions, tax credit reviews, 
Section 106 reviews, and HPF grants administration, and to redress, at 
least in part, the significant decline in inflation adjusted funding.'' 
However, when compared to the final funding levels received in FY08, 
the DoI's proposed budget would decrease funding for State Historic 
Preservation Offices, the workhorses of all historic preservation 
programs, by over 9 percent and decrease funding for tribal 
preservation offices by nearly 40 percent. These offices are performing 
federally mandated work, how do you expect them to continue to achieve 
their high level of performance given your proposed funding cuts?
    Answer. The NPS recognizes the importance of the work undertaken by 
the State Historic Preservation Offices and the Tribal Historic 
Preservation Offices in implementing the mandates of the National 
Historic Preservation Act. These programs, along with the more than 
1,600 Certified Local Governments, are the National Park Service's core 
partners in managing the nation's historic preservation programs. 
However, heavy demands on the Federal budget require some budgetary 
constraints.
    The FY 2009 President's budget focuses on providing additional 
resources and capacity to park operations in preparation for the NPS 
centennial in 2016. The funding requested in 2009 for State and Tribal 
Historic Preservation Offices is essentially level with the President's 
request for FY 2008.
    Question 180. The panel also recommends that the NPS expand its 
mission to make building the capacity of State and Tribal Historic 
Preservation Officers a top priority and goes on to suggest that ``the 
NPS hold regular national and regional conferences, develop additional 
training and provide intensive, on-site technical assistance.'' Are 
there enough resources for these activities in the current proposed 
budget?
    Answer. In FY 2008, NPS will provide the following training 
workshops and conferences using appropriated funds: training workshops 
for new State Historic Preservation Officers and Historic Preservation 
Fund grants managers; workshops on the Save America's Treasures and 
Preserve America grants programs at 7 statewide and 2 national historic 
preservation conferences; and an intensive 3-day training for new 
Federal Preservation Tax Incentives program in various states.
    NPS will also offer technical assistance workshops at the Historic 
Tax Credit Developers Conference, the National Housing and 
Rehabilitation Association Annual Meeting, the Traditional Building 
Conference; the AIA Historic Resource Committee New England Meeting; 
the National Conference of State Historic Preservation Officers Annual 
Meeting; the National Association of Preservation Commissions; and the 
Tax Credit Field Session at the National Trust conference.
    In addition, the NPS National Center for Preservation Technology 
and Training (NCPTT) will offer training in Monument Conservation; 
Cemetery Preservation Workshops; Remote Site Surveillance and 
Monitoring Technologies Symposium; Environmental Adaptations in Design; 
Prospection in Depth, NCPTT Archeology and Collections Training; a 
Preserving Coastal Forts Workshop. NPS will also offer training for 
tribes on the Native American Grave Protection and Repatriation Act 
(NAGPRA) compliance process and applying for grant opportunities. We 
anticipate providing similar training activities for our programs and 
partners in FY 2009.
    Question 181. Another panel recommendation is that the ``NPS build 
on the National Historic Preservation program's success over the past 
three decades by providing a stronger national leadership role.'' In 
addition to its planning for the National Parks Centennial Celebration, 
we would hope that the NPS intends a high profile celebration on the 
upcoming 50th Anniversary of the National Historic Preservation Act 
(NHPA). What resources are provided in your proposed budget for NHPA 
celebration activities and if there are no resources proposed, then 
what do you anticipate the request will be in future years?
    Answer. The 50th anniversary of the National Historic Preservation 
Act will occur in 2016. At this time, the NPS has not yet proposed 
resources to commemorate this anniversary. Over the course of the next 
eight years, the NPS will consult with its partners, including the 
State Historic Preservation Officers, the Tribal Historic Preservation 
Officers, the National Conference of State Historic Preservation 
Officers, the National Association of Tribal Historic Preservation 
Officers, and the National Trust for Historic Preservation, to 
commemorate this important anniversary and build upon the 40th 
anniversary celebrations that occurred in 2006.

     Responses of the Department of the Interior to Questions From 
                            Senator Barrasso

    Question 182. What does it cost to administer the federal mineral 
royalty collection and auditing in Wyoming?
    Answer. A breakdown of costs associated with MMS's collection, 
accounting, and distribution functions is not readily available on a 
state by state basis. The MMS administrative cost tracking system is 
not set up to track costs on a state basis. For example, each month 
companies submit royalty reports and payments for numerous property 
types--Indian, Federal onshore and/or offshore. Each monthly report and 
payment includes multiple properties from multiple states. MMS doesn't 
process those reports and payments on a state by state basis. Audits 
are another example. While some audit work is done on a property basis, 
many audits are conducted on all of the property types that a company 
leases--Indian, Federal onshore and/or offshore. In those cases where 
audits are done on a company basis, MMS cannot allocate its 
administrative costs by property type or by state.
    The purpose of the Administration's net receipts sharing proposal 
is to partially cover Federal costs of the Forest Service, Bureau of 
Land Management and the Minerals Management Service associated with 
management of the Federal mineral leasing program, for which states 
share in the revenue. However, under this proposal, these receipts are 
deposited in the U.S. Treasury and do not directly benefit the three 
bureaus. For MMS, these costs are associated with the management of the 
Federal mineral royalty collection, auditing and disbursement functions 
for onshore Federal and Indian lands, including funding State of 
Wyoming auditors operating under a delegated audit agreement with MMS.
    The Administration's net receipts sharing proposal acknowledges the 
challenge of specifically allocating MMS costs (and those of other 
bureaus such as BLM and the Forest Service) by individual state. The 
proposal addresses concerns raised about the administrative complexity 
of the original process by simplifying how costs are allocated. Instead 
of attempting to allocate specific program costs on a state-by-state 
basis, the Administration has proposed a simple two percent deduction.
    Question 183. How many successful range improvement projects were 
completed last year?
    Answer. During 2007, the Bureau of Land Management (BLM) 
constructed or installed 489 range improvement projects such as fences, 
cattle guards, and water developments. In addition to structural 
projects, the BLM also implemented vegetation treatment projects on 
approximately 36,882 acres. Vegetation treatment projects include such 
activities as spraying for weeds, invasive species removal, and 
seedings. Most of these improvements and treatments were done with the 
assistance of the grazing permittees. In some cases, companies 
representing industries or private organizations have contributed 
funding.
    Question 184. What level of appropriated funds was used in these 
efforts?
    Answer. BLM used approximately $17.7 million on the above mentioned 
projects.
    Question 185. Wyoming needs funding to help manage grey wolves. As 
you know, wolves cross jurisdictional boundaries. Most recently, a 
fifth wolf from Idaho was located in Oregon. In 2004, a wolf from 
Yellowstone was killed by a vehicle on I-70, 30 miles west of Denver. 
What action is the Department of Interior undertaking to insure DOI 
shares relevant information and data with State and local officials in 
a timely manner?
    Answer. Once the delisting of the Northern Rocky Mountain Distinct 
Population Segment (NRM DPS) of gray wolves becomes effective on March 
28, 2008, funds from Endangered Species Act programs will no longer be 
available for wolf management within the DPS. However, private funding 
and other forms of Federal funding could be available to help manage a 
delisted wolf population. Such funding includes directed 
appropriations, Pittman-Robinson Wildlife Restoration Act grants, and 
other Federal grant programs. The Service will continue to assist the 
States as necessary and appropriate to secure adequate funding for wolf 
management.
    In coordination with the States, we provide information on wolf 
sightings and activity in weekly reports posted on the Internet at: 
http://www.fws.gov/mountain-prairie/species/mammals/wolf/. When the 
Service receives multiple reports of multiple individual wolves 
indicating possible territoriality and pair bonding (the early stage of 
pack formation), or a report of multiple wolves that appears highly 
credible (usually made by a biologist or experienced outdoors person), 
we typically notify the nearest Federal, State, or Tribal natural 
resource/land management agency and request they be on the alert for 
possible wolf activity during the normal course of their field 
activities. Once these entities locate areas of suspected wolf 
activity, we may ask experienced field biologists to search the area 
for wolf signs (tracks, howling, scats, ungulate kills). Once the 
delisting of the NRM DPS becomes effective, the States will determine 
what mechanisms are appropriate for disseminating this type of 
information. However, the Service may continue to produce weekly 
reports for the first few months of the transition of management and 
monitoring to the States.
    At the end of the calendar year, the Service compiles agency 
confirmed wolf observations to estimate the number and location of 
adult wolves and pups that were likely alive on December 31 of that 
year. These data are then summarized by packs to indicate overall 
population size, composition, and distribution. This information is 
included in annual reports, which the Service will continue to prepare 
in coordination with the States during the 5-year post-delisting 
monitoring period. The annual reports are also posted on the above-
mentioned Internet site.
    Question 186. Will the Department of Interior complete the 12-month 
endangered species review of the Sage Grouse by December of this year 
and is your current budget sufficient to allow that to occur?
    Answer. On February 26, 2008, the Service published a notice in the 
Federal Register announcing a new status review of the greater sage-
grouse and initiating a 90-day public comment period for submitting 
relevant information that has become available since the Service's 12-
month petition finding, published in January 2005, that listing was not 
warranted. The timeline for completing the new finding, as ordered 
recently by US District Court for the District of Idaho, is as follows:

  <bullet> If an update of the 2004 Conservation Assessment of the 
        greater sage-grouse is published in November 2008, the Service 
        will publish notice in the Federal Register of that fact and 
        allow additional pubic comment for 60 days, and issue a new 
        listing determination in May 2009.
  <bullet> If the updated Conservation Assessment is not published by 
        November 2008, the Service and plaintiffs are to confer on a 
        reasonable extension of these deadlines to allow sufficient 
        time for public comment and Service incorporation of the 
        updated Conservation Assessment into its status review before 
        making a new listing determination. However, if the Service and 
        plaintiffs are unable to agree to an extension of the time, 
        either party may go back to the Court for relief or further 
        order addressing the scheduling.

    The Service anticipates receiving peer-reviewed copies of the most 
important chapters of the updated Conservation Assessment in advance of 
the Assessment's publication. The Service expects to complete the 
finding with the funds available in FY 2008 and the funds requested in 
the President's Budget for FY 2009.
    Question 187. The FY 2009 DOI Budget includes a provision that 
requires the Bureau of Land Management (BLM) to charge a $4,150 
processing fee for each new oil and gas drilling permit application. 
This new fee does not take into account the APD processing costs that 
BLM already passes on such as archaeological surveys, wildlife studies, 
and the cost of preparing third-party NEPA documents. If the APD 
processing fee is enacted, does the BLM intend to re-assume the costs 
for these other APD related studies or will the agency continue pass on 
those costs in addition to the new fee?
    Answer. The $4,150 fee would cover the cost BLM incurs in 
processing an APD at present. These costs do not usually include 
archaeological surveys or wildlife studies. In many cases the BLM 
prepares the NEPA documents for APD processing. In cases where the BLM 
is delayed, by staffing and workload issues, in preparing NEPA 
documents (EAs or EISs) a third party may fund the preparation of 
appropriate NEPA documents.
    Question 188. Does BLM intend to use the new APD processing fee to 
increase staff to meet permitting program workloads in BLM field 
offices?
    Answer. No, this new fee largely substitutes for appropriated 
funding, so it will be used to fund present employees working on 
processing of APDs.
    Question 189. With the imposition of the new APD fee, can American 
oil and gas producers expect the BLM to process their permits 
efficiently, in the timeframes prescribed under the 2005 Energy Policy 
Act?
    Answer. The intent of the Administration's proposal to amend 
Section 365 of the Energy Policy Act of 2005 and eliminate the fee 
prohibition is not specifically to generate new program funding, but 
rather to reduce the costs to taxpayers of operating this program by 
charging beneficiaries for costs incurred in permitting their 
operations. The proposal would redirect mineral leasing rental revenues 
back to the General Fund of the Treasury, offsetting new revenues from 
the proposed APD processing fee. Therefore, the APD fee will be used to 
fund existing staff processing APDs, and the fees may not directly 
influence APD processing times.
    However, to the extent that the new fee causes producers to be more 
selective in submitting APDs to BLM (i.e., only requesting APDs that 
they expect to utilize in the near-term), this may help BLM process 
priority APDs more quickly and efficiently. BLM also continues to work 
on other ways to reduce the time it takes to process an APD. Processing 
times are expected to decrease as the current inventory of pending APDs 
is reduced.
    Question 190. Rather than charge producers the new APD fee at the 
beginning of the process, which leaves no accountability to the BLM to 
process permits within the constraints of the law, has the Department 
considered assessing the fee near the end of the process to enhance 
accountability?
    Answer. We don't believe this would be a practical approach. First, 
if the fee was not received at the beginning of the process, the BLM 
would not have available funding for staff and other resources to 
process the APD. Second, without having the fee upfront, oil and gas 
operators could submit numerous APDs and then only focus on top 
priority APDs and leave others pending for months or years before 
deciding to go forward or withdraw the APD. That has occurred in some 
BLM Field Offices. Because BLM processes all APDs submitted, the large 
number of APDs pending slows down the APD process.
    Question 191. Since the introduction of the new APD fee in 
December, has the BLM responded within the time period required by law 
for all permit applications? If not, why?
    Answer. Even though the BLM has received additional funding and has 
hired additional staff from previous authorizations and the Pilot 
Office funding, we continue to carry an inventory of pending APDs. This 
is primarily the result of the rapid escalation in the number of APDs 
received in FY 2004 through 2006. The newly hired staff needs time to 
gain experience, and the experienced existing staff is expected to help 
train the new hires, in addition to processing APDs and Sundry Notices. 
As noted above, BLM also prepares the NEPA documents for APD 
processing. We expect to see a reduction in processing times when the 
newer staff becomes more proficient.
    Question 192. With respect to the Department's proposal to 
eliminate the deferral of coal lease bonus bids over a five year period 
and require up-front payments, has your agency analyzed the dynamic 
fiscal impact of such a change in policy?
    Answer. The Department analyzed projected receipts from competitive 
coal lease sales over the next 10 years. The Department assumed a 20 
percent reduction in the bonus receipts from what would have been 
received on a deferred bonus basis for each prospective lease sale 
based on an assumption about bidder estimates of the time-value of 
money.
    Question 193. Does the Department anticipate this policy change 
could reduce the number of bidders, making them less competitive and 
resulting in lower total collections for both the federal government 
and the State?
    Answer. The Department does not anticipate any change in the demand 
for federal coal leases under this proposed policy.
    Question 194. Has your agency analyzed what impact this may have on 
the total amount of coal being mined?
    Answer. According to the Energy Information Administration of the 
Department of Energy, approximately 90 percent of the coal consumed in 
the United States is used for the generation of electricity. The 
Department does not believe that elimination of deferrals for coal 
bonus bids will have any effect on the demand for coal for electricity 
generation. Therefore, we do not anticipate that this change will 
impact the demand for federal coal leases or the amount of coal being 
mined.
    Question 195. Could you explain how establishing criteria for 
National Heritage Areas creation could help shape Departmental 
priorities?
    Answer. The Department supports an overall strategy of preserving 
resources for the enjoyment and education of this and future 
generations. The establishment of a system of national heritage areas 
that include criteria for the study and designation of these areas 
would help support the Department's priorities of resource protection 
and interpretation through the use of partnerships and a mix of federal 
and non-federal dollars for the management of these areas.
    Question 196a. Will the Administration support legislative efforts 
to establish criteria and a funding mechanism for National Heritage 
Areas that do not diminish Park units operations?
    Answer. Yes, the Administration believes that the establishment of 
criteria and a process for studying and designating national heritage 
areas that include a cap on funding to each area, ensures that funding 
to other programs in the NPS, such as park operations, are protected. 
As part of our legislative proposal, the Department would also require 
a study to be completed three years before Federal funding is set to 
expire for each heritage area to ensure that there is a plan in place 
to make heritage areas sustainable in the long-term without NPS 
dollars.
    Question 196b. Is there any reasonable assurance that States will 
receive adequate funding to proceed with the management schedule to 
maintain a sustainable wild horse population?
    Answer. As a result of a concerted effort since FY 2000 to bring 
the wild horse and burro population on the range down to the 
appropriate management level of 27,300, the BLM has been able to reduce 
the population from an estimated over 47,000 animals to approximately 
31,000 in the wild. As a result, there are now about 32,000 animals in 
BLM holding facilities, with approximately 22,000 on pasture and about 
10,000 in corrals. Because the average life expectancy of a horse is 30 
years in captivity, and many older horses are deemed un-adoptable, BLM 
will be providing care for the horse for the remainder of its life.
    With this in mind, in FY 2009 BLM has made caring for animals in 
holding a top program priority. In 2008 and 2009, the program will 
continue to evaluate all factors required to gain better control of the 
population, costs, holding contract challenges, adoption challenges, 
and other factors. This will enable the bureau to efficiently develop 
sound ways of protecting, managing, and controlling wild free-roaming 
horse and burro populations.
    Question 197. BLM management plans have come under increasing 
pressure in recent years. The agency has spent a great deal of time in 
court defending their NEPA documentation and subsequent actions. How 
does DOI justify decreasing the agency budget to complete these 
documents when this function is so crucial to day-to-day operations?
    Answer. Since 2001, the BLM has been amending and revising its land 
use plans in response to changing conditions and demands on public 
lands. As of February 2008, BLM had completed 50 of the 135 needed 
revisions, and 59 RMP revisions were currently on-going, approximately 
50% of which are scheduled for completion by the end of FY 2008. There 
are no plans to begin new RMP efforts in FY 2009. Therefore, in FY 
2009, with fewer ongoing planning efforts, the BLM will be able to 
utilize planning funds to improve management of on-going planning 
projects to ensure completion within the 4 year performance goal. 
Attention to and management of these on-going efforts will allow the 
BLM to use its resources to improve the quality of its planning 
documents and therefore, will provide more defensible decisions.
    Question 198. It is my understanding that the BLM is in the midst 
of travel planning for all management units. How does DOI justify 
reducing the planning budget at a time when these plans are being 
completed and intensive coordination is necessary?
    Answer. As noted above, since 2001, the BLM has amended and revised 
its land use plans in response to changing conditions and demands on 
public lands. In FY 2009 with fewer ongoing planning efforts, the BLM 
will improve management of ongoing plans to ensure completion within 
the four year performance goal.
    Resource Management Plans include travel management decisions such 
as off-highway vehicle management areas and travel management network 
delineations. In areas where the planning offices deferred delineating 
travel management networks, travel management plans are being developed 
within 5 years of the signing of the RMP record of decision. These 
travel management plans, including route planning, inventory and 
mapping, are being funded partially through planning, but mostly 
through the recreation and engineering programs.
    Question 199. The BLM budget proposal includes substantial increase 
for the National Landscape Conservation System (NLCS). Units designated 
in the NLCS are removed from multiple-use management. How does DOI 
justify promoting this agenda that strays from the agency's core 
mission?
    Answer. The budget includes a decrease in overall program funding 
in 2009. It may appear that there is an increase due to the creation of 
NLCS budget activities in the MLR and O&C accounts. NLCS units are 
managed for multiple-use. For example: NLCS units are open to grazing, 
hunting, fishing, and recreation; all units promote research; most 
units are managed for wildlife habitat; and many are managed to 
preserve historic, cultural or archaeological features. The units 
included within the NLCS have been designated by Congress, the 
President, or the Department. The Bureau manages these units under an 
array of congressional and executive authorities including the Federal 
Land Policy Management Act (FLPMA), which provides for multiple-use 
management.
    Question 200. Can you guarantee that other management functions 
will not be penalized by the creation of the NLCS and its management 
costs?
    Answer. In FY2009, the NLCS will be entering its eighth year as an 
Office within the BLM. To date, the net result of creating the System 
has been of minimal impact to other management functions within the 
Bureau. We expect this historic pattern to continue. Most NLCS units 
included were designated as either National Scenic and Historic Trails, 
National Wild and Scenic Rivers, Wilderness and Wilderness Study Areas, 
National Monuments or National Conservation Areas prior to the 
administrative formation of the System. Thus, the management costs and 
functions for these units were already well-established and integrated 
within the Bureau's budget, which is also true for units added after 
2001.
    In FY 2009, the President's Budget proposes new subactivities for 
National Monuments and National Conservation Areas that represent the 
annual recurring costs for managing these areas. The subactivities are 
intended to provide more transparency in base funding to budget for 
NLCS National Monuments and National Conservation Areas.
    Question 201. The Wyoming Landscape Conservation Initiative a pilot 
program for the Healthy Lands Initiative has raised many concerns in 
the State. The program has suffered several management inefficiencies 
and significant changes to the governing body have been made. Why are 
you committing funds to such an initiative during a time of budget 
shortfalls?
    Answer. The Wyoming Landscape Conservation Initiative (WLCI) is an 
interagency working group of partners that began in the Fall of 2006 as 
a long-term effort in southwest Wyoming to conserve and enhance 
terrestrial and aquatic habitats while facilitating responsible energy 
development.
    The Healthy Lands Initiative (HLI), on the other hand, is a DOI 
initiative that is being conducted in a number of Western states 
including Wyoming. It focuses on certain priority areas for landscape-
scale restoration efforts. It encourages DOI to work with partners such 
as groups like the WLCI. To date, we have had many success stories that 
illustrate HLI's ability to preserve the diversity and productivity of 
the public lands in the West, including partnering efforts that involve 
the work produced through the WLCI. In cooperation with the BLM, WLCI 
funding has supported enhancement projects that have been accomplished 
in a quick and efficient manner within WLCI's short tenure.
    We are unaware of any management inefficiencies, and we are willing 
to meet with you to discuss your concerns.
    Question 202. If FY09 funds are to be committed to Health Lands 
Initiatives, how do you plan to guarantee management improvements?
    Answer. Counties and conservation districts in southwestern Wyoming 
were formally incorporated into the executive leadership of WLCI in 
January, 2008. This step will strengthen community coordination and 
delivery of project identification, selection and implementation. 
Further management improvement will be realized by staffing other 
partner positions, including the Wyoming Department of Agriculture 
position in Rock Springs.
    Question 203. Particularly, what policy will the agency use for 
forming the agency partnerships that lead these projects?
    Answer. The BLM is guided by a number of policies in forming cross-
jurisdictional partnerships. These policies include the Executive Order 
on Facilitation of Cooperative Conservation, Section 202 of the Federal 
Policy and Management Act of 1976, the BLM Planning Regulations at 43 
CFR Part 1600, and the BLM's policies implementing the National 
Environmental Policy Act..
    Question 204. How are you going to guarantee that environmental 
paperwork will not hold up the success of these projects?
    Answer. WLCI is facilitating completion of required environmental 
reviews. WLCI is working with partners to design and develop projects 
from their beginning, promoting involvement and buy-in at the local 
level. Additionally, a support sub-committee made up of local agency 
managers and representatives has been established. This group works 
with and solicits projects from the general public, partners, support 
personnel and field managers and provides staffing support in terms of 
NEPA and cultural analyses, engineering and contracting. This 
partnership will improve efficiencies in the permitting process.
    Question 205. Wyoming's Wind River Reservation, located near 
Riverton, is home to 10,415 members of the Eastern Shoshone and 
Northern Arapaho tribes. Tribal members in Wyoming have worse than 
average rates of infant mortality, suicide, substance abuse, alcohol 
abuse, unintentional injury, lung cancer, heart disease and diabetes. 
Additionally, the Wind River Reservation has one of the highest 
unemployment rates of the twelve IHS areas. The male unemployment rate 
is approximately 30 percent while the female unemployment rate is 
approximately 21 percent. I want to put that number into context. The 
national unemployment rate is hovering around 5 percent. These 
statistics are important because they directly affect the health of 
Indian communities. Native American families living below the poverty 
level in areas with high unemployment rates most likely live in sub-
standard housing, lack good nutrition habits, have children who 
struggle in school, and suffer from chronic health problems. How is the 
BIA working cross agency with the Departments of Health, Education, and 
Housing to ensure the coordination of services to Native Americans?
    Answer. The Department works with other agencies to ensure the 
effectiveness of key services it provides to the Native American 
community. For example, the Bureau of Indian Education (BIE) held 
discussions with the Department of Education and others prior to the 
development of a strategic plan to address the improvement of the 
adequate yearly progress of BIE-funded academic schools. Both BIE, 
through appropriations, and the Department of Education, through a 
variety of programs, provide funding to BIE elementary and secondary 
schools, and some schools receive competitive grants directly from the 
Department of Education and other Federal agencies. In addition, the 
Human Services Program within BIA coordinates efforts with the 
Department of Housing and Urban Development, the Department of 
Agriculture's Farmers Home Administration, and other Federal agencies 
in an effort to assist needy Indian families to attain decent, safe, 
and sanitary shelter. Human Services Program social workers interact 
with other Federal agencies that provide social services and mental 
health services for Indian communities to insure that services are 
coordinated to avoid duplication of service.
bureau of reclamation & national park service operations of yellowtail 
            dam and bighorn canyon national recreation area
    Question 206. 33CFR208.11 lists the purposes: flood control, 
irrigation, non-corp hydropower, and water quality or silt control. 
Does this regulation supersede the agency's responsibility to the Flood 
Control Act of 1944 Section 9?
    Answer. The referenced Code of Federal Regulation (CFR) was 
prepared by the U.S. Army Corps of Engineers for the sole purpose of 
addressing the use of reservoir storage allocated for flood control and 
navigation. Although the CFR includes a partial list of the authorized 
purposes for the Yellowtail Unit, it does not affect the authorized 
purposes of the Pick-Sloan Missouri River Basin Program which are 
addressed in the Flood Control Act of 1944 and its accompanying Senate 
and House documents.
    Question 207. In the Interagency Agreement of April 15, 1998 
between BOR and NPS, the BOR puts emphasis on authorized purposes. 
Please identify those purposes, in light of 33CFR208.11.
    Answer. The authorized purposes of the Yellowtail Unit, pursuant to 
the Flood Control Act of 1944, include flood control, hydropower, 
irrigation, recreation, fish and wildlife, and sediment control.
    Question 208. The 1998 Interagency Agreement authorizes cooperation 
for 5 years. Has the agreement been extended? Please make the most 
recent document(s) available.
    Answer. Yes, the agreement was extended through September 30, 2007. 
Reclamation and the National Park Service are currently negotiating a 
new agreement.
    Question 209. Section 9 of the 1944 Flood Control Act explains that 
the United States must compensate the Crow Tribe for water-power value 
of tribal lands condemned for the creation of Yellowtail Dam. Has this 
compensation been completed?
    Answer. Yes. During the 1950s, several Congressional hearings (both 
in the House and the Senate) were held to address, among other issues, 
payment to the Crow Tribe for the land and for the power site needed 
for Yellowtail Dam and Bighorn Lake (Yellowtail Unit). On July 15, 
1958, Public Law 85-523, Compensate Crow Tribe for Lands, Yellowtail 
Dam, was passed. This Act provided a payment of $2,500,000 to the Crow 
Tribe. The Act stated: ``Said sum is intended to include both just 
compensation for the transfer to the United States as herein provided 
of all right, title and interest of the Crow Tribe in and to the tribal 
lands described in Section 2 of this resolution, except such as is 
reserved or excluded in said Section 2, and a share of the special 
value to the United States of said lands for utilization in connection 
with its authorized Missouri River Basin project, in addition to other 
justifiable considerations.'' Section 3 of the Act also allowed the 
Crow Tribe to seek further compensation through litigation. The Crow 
Tribe subsequently filed suit in 1959. On October 1, 1963, the United 
States District Court of Montana awarded the Crow Tribe an additional 
$2,000,000 as final settlement for the land and the power site needed 
for the Yellowtail Unit.
    Question 210. How is compensation value calculated?
    Answer. Studies were prepared by both the United States (Bureau of 
Reclamation) and the Crow Tribe to assess the value of the land and the 
power site. The study was prepared by Reclamation in 1950. This report, 
referred to as the Herdman Report, assessed the value of the land and 
power site at $1,500,000. The Crow Tribe hired a private consultant to 
prepare an independent assessment. Their report, prepared in 1955, was 
referred to as the Dibble Report. The Dibble evaluation assessed the 
value of the land and power site at $5,000,000. Congress, after holding 
hearings to evaluate input from both the United States and the Crow 
Tribe, settled on a value of $2,500,000. The United States District 
Court of Montana, after reviewing all of the evidence presented by both 
parties during litigation, awarded the Crow Tribe an additional 
$2,000,000 as final settlement for the land and power site required for 
Yellowtail Dam and Bighorn Lake.
    Question 211. What funds are used for compensation?
    Answer. The funds used to provide compensation to the Crow Tribe 
were part of the funds appropriated by Congress for the construction 
and development of the Pick-Sloan Missouri River Basin Program, 
including the Yellowtail Unit.
    Question 213. Please provide a comprehensive list of documents 
governing management and operations of Yellowtail Dam and Bighorn 
Reservoir. Among these documents, please provide a copy of the Water 
Resource Management Plan.
    Answer. The documents used in governing management and operations 
of the Yellowtail Dam and Bighorn Lake are extensive. The primary 
documents used for this purpose are as follows:

          a. The Reclamation Act of 1902 and all other Acts 
        constituting Reclamation law.
          b. The 1944 Flood Control Act and its accompanying Senate 
        Document 191 and 247, and House Document 475.
          c. Definite Plan Report [DPR], Yellowtail Unit--Montana, 
        Lower Big Horn Division, Missouri River Basin Project, U.S. 
        Bureau of Reclamation, January 1950.
          d. Yellowtail Unit, Montana and Wyoming Fish and Wildlife 
        Resources, U.S. Fish and Wildlife Service, February 1962.
          e. Big Horn Canyon National Recreation Area, A Proposal, A 
        Study of the Yellowtail Reservoir Site Prepared for the Bureau 
        of Reclamation by U.S. National Park Service, April 1962.
          f. Yellowtail Unit, Montana-Wyoming, Lower Bighorn Division 
        Missouri River Basin Project, U.S. Bureau of Reclamation, June 
        1962 (update to 1950 DPR).
          g. Yellowtail Unit, Montana and Wyoming, Spawning Channel, 
        U.S. Fish and Wildlife Service, May 1964.
          h. Bighorn Canyon National Recreation Area Act, October 15, 
        1966.
          i. Yellowstone River Compact, 1950.
          j. Montana and Wyoming Water law.
          k. Montana water right permits 43P-W-040903, 43P-W-040904, 
        43P-W-040905, 43P-W-040906, 43P-W-040907, 43P-W-040908, 43P-W-
        040909, 43P-W-040910, 43P-W-040911, 43P-W-040912, and 43P-W-
        040913.
          l. Wyoming Water right permit no. 7636R.
          m. Standard Operating Procedures for Yellowtail Dam and 
        Afterbay Dam.
          n. Letter of Understanding on Flood Control between U. S. 
        Corps of Engineers and Bureau of Reclamation dated September 
        21, 1971.
          o. Yellowtail Dam and Bighorn Lake Report on Reservoir 
        Regulations for Flood Control, U. S. Corps of Engineers January 
        1974.
          p. Memorandum of Understanding, Operation and Maintenance of 
        Bureau of Reclamation Constructed Headworks for Bureau of 
        Indian Affairs, Big Horn Canal Yellowtail Dam Unit, Missouri 
        River Basin Project, December 13, 1966.
          q. Cooperative Agreement Between the United States of America 
        and the State of Wyoming Concerning the Administration and 
        Development of Lands and Facilities at Yellowtail Reservoir for 
        Wildlife Purposes, May 11, 1967.
          r. Industrial Water Service, Yellowtail (Bighorn)--Boysen 
        Reservoirs, Final Environmental Statement, U.S. Bureau of 
        Reclamation, August 26, 1983.
          s. Record of Decision, Final Environmental Impact Statement 
        on Industrial Water Service, Yellowtail (Bighorn) and Boysen 
        Reservoirs (INT FES 83-44), U.S. Bureau of Reclamation, 
        November 1, 1983.
          t. Interagency Agreement Between the Bureau of Reclamation, 
        Montana Area Office and the National Parks Service, Bighorn 
        Canyon National Recreation Area for the Cooperative 
        Administration of Certain Activities and Operations with the 
        Yellowtail Unit and within Bighorn Canyon National Recreation 
        Area, June 8, 1998.
          u. Water Resources Management Plan, for Bighorn Canyon 
        National Recreation Area, March 25, 1996.
          v. Memorandum of Understanding, Operation and Maintenance of 
        Bureau of Reclamation Constructed Headworks for Bureau of 
        Indian Affairs Big Horn Canal, Yellowtail Dam Unit, Missouri 
        River Basin Project, July 3, 1997.
          w. Bighorn Lake Storage Contract No. 4-07-60-WS155 between 
        the Bureau of Reclamation and Montana Power Company (Now 
        Pennsylvania Power and Light of Montana), November 30, 1983.
          x. Bighorn Lake Storage Agreement No. 4-09060-W0507 between 
        Bureau of Reclamation and the Northern Cheyenne Tribe, June 12, 
        2001.

    Question 214. In the case of Yellowtail Dam and Bighorn National 
Recreation Area, how do you define the Secretary's obligations to the 
National Recreation Area, after the dam project purposes are met?
    Answer. The Yellowtail Unit is operated to serve numerous 
authorized purposes. Contractual and legal (water rights) obligations 
must be satisfied first, then the remaining interests are served to the 
degree that the available water supply will allow. Purposes such as 
power generation are never fully met as this benefit is always limited 
by the available water supply. The National Park Service provides 
Reclamation with recommendations for reservoir water surface elevations 
that are desirable for lake recreation. Montana Fish, Wildlife, and 
Parks provides Reclamation with recommendations for downstream fishery 
flows. Reclamation considers these recommendations, along with all of 
the other authorized purpose needs and interests, and develops an 
operating plan that attempts to balance the needs for all of the 
multiple interests with the available water supply. In years of normal 
or above normal water supply, the authorized purposes can be met with 
little or no conflict. In drought years, such as experienced during the 
last 8 years, all of the project purposes beneficiaries (with the 
exception of flood control) are impacted to some degree.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

</pre></body></html>
